<html>
<title> - VETERANS ORGANIZATIONS' PRIORITIES FOR THE 111TH CONGRESS</title>
<body><pre>[Senate Hearing 111-123]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-123

                VETERANS ORGANIZATIONS' PRIORITIES FOR 
                           THE 111TH CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 28, 2009

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                  U.S. GOVERNMENT PRINTING OFFICE
47-120 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania \2\
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director



----------
\2\ Hon. Arlen Specter was recognized on May 5, 2009, as a majority 
Member.
                            C O N T E N T S

                              ----------                              

                            January 28, 2009
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Sanders, Hon. Bernard, U.S. Senator from Vermont.................     4
Tester, Hon. Jon, U.S. Senator from Montana......................     6
Begich, Hon. Mark, U.S. Senator from Alaska......................     7
Burris, Hon. Roland W., U.S. Senator from Illinois...............     7
Johanns, Hon. Mike, U.S. Senator from Nebraska...................     5

                               WITNESSES

Dean Stoline, Assistant Director, National Legislative 
  Commission, The American Legion................................     8
    Prepared statement...........................................    11
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    26
        Hon. Bernard Sanders.....................................    30
Adrian M. Atizado, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    30
    Prepared statement...........................................    32
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    37
        Hon. Bernard Sanders.....................................    43
Todd Bowers, Director of Government Affairs, Iraq and Afghanistan 
  Veterans of America............................................    44
    Prepared statement...........................................    46
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    54
        Hon. Bernard Sanders.....................................    58
Carl Blake, National Legislative Director, Paralyzed Veterans of 
  America........................................................    59
    Prepared statement...........................................    61
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    65
        Hon. Bernard Sanders.....................................    69
Dennis Cullinan, Director, National Legislative Service, Veterans 
  of Foreign Wars................................................    70
    Prepared statement...........................................    71
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    73
        Hon. Bernard Sanders.....................................    73
John Rowan, President, Vietnam Veterans of America...............    73
    Prepared statement...........................................    75
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    76
        Hon. Bernard Sanders.....................................    76

                                APPENDIX

Stroup, Theodore G., Jr., LTG USA (Ret.), Vice President, 
  Association of the United States Army; prepared statement......    87

 
       VETERANS ORGANIZATIONS' PRIORITIES FOR THE 111TH CONGRESS

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Tester, Begich, Burris, Sanders, 
Burr, and Johanns.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. Good morning. This hearing will come to 
order.
    Before we begin today's hearing, I extend my warmest 
welcome and aloha to the three new Members of the Committee: 
Senator Mark Begich of Alaska, Senator Roland Burris of 
Illinois, and Senator Mike Johanns of Nebraska. I want to 
welcome you to this Committee and to tell you that we have a 
great year ahead of us. We have much to do and we will do it 
together.
    The addition of these new members has caused a temporary 
shift on the dais, as you can see. Until we can work out some 
space issues, I regret any inconvenience this causes to all 
Members, but you will see the adjustments as we move here to 
accommodate all the Members that we have now.
    Another housekeeping item, given additional Membership, is 
the revision of both the Committee rules and the Committee 
budget. The Committee's Ranking Member, Senator Burr, and I 
intend to seek additional space and funds to bolster the 
ongoing oversight work which is so critical. Members will 
receive these documents shortly, and afterwards I will be 
polling regarding your support.
    For the information of all, the Committee will promptly 
hold nomination hearings on advice and consent position, so 
Secretary Shinseki can have his team in place as quickly as 
possible. It is my hope that the nomination for Deputy 
Secretary will be made very soon, and, immediately following 
that, I will schedule a hearing in consultation with Senator 
Burr. Other nominations will be bundled to make maximum use of 
the Committee's time.
    Now to the immediate business at hand, today's hearing 
offers a valuable opportunity for us to collect the priorities 
of the veterans groups and craft our legislative and oversight 
agenda for this session, which is why we have you all here this 
early. In the coming months, all of the veterans service 
organizations will have more formal legislative presentations, 
but I believe we should hear key priorities now. I am also 
looking for interplay between the organizations to focus on 
what can and should be done in the short term, and what can 
wait for later in the session.
    We must, in this time of war, equip VA with the resources 
to carry its missions now and into the future. I have said this 
time and time again: veterans' benefits and services are a cost 
of war and must be understood and funded as such.
    Many of our views are in agreement, and I believe that 
together we have established a good track record relating to 
VA. VA health care is, in many respects, the best in the 
Nation. I am proud that our collective work has contributed to 
the improvements in quality and access.
    Now, we must keep the momentum going. We must work to 
achieve President Obama's goal of integrating more Priority 8 
veterans back into the VA health care system while ensuring 
that enough resources are available to maintain the quality of 
care.
    As someone who knows firsthand the impact on education 
funded through the GI Bill can have, we must make certain that 
the recent improvements to this vitally important benefit are 
being effectively implemented.
    Timely and accurate adjudication of disability claims 
remains an issue.
    I expect that benefits reform, including a hard look at the 
current appellate process, the role of IT and reaching 
consensus on elements of compensation, will claim much of this 
Committee's attention this Congress.
    There are some major legislative initiatives remaining from 
the previous session that I hope will be enacted this session. 
The Committee's bipartisan health and personnel improvements 
bill, which I just reintroduced as S. 252, is important to this 
Nation's veterans and to the thousands who work in VA hospitals 
and clinics throughout this Country. Some of you worked to 
include vital provisions in that bill such as enhancements to 
women's health care and, for that, I am very grateful.
    In the near future, I will also introduce a modified 
version of S. 1315, an omnibus benefits bill, which passed the 
Senate last Congress. S. 1315 included benefits for both young 
and old veterans, including numerous modifications to VA's 
insurance programs and benefits for Filipinos who served under 
U.S. command during World War II.
    I look forward to the statements of the witnesses and to 
working with each of the organizations in the 111th Congress.
    And I am glad, again, to be serving with my Ranking Member, 
and I now call on him for his statement.
    Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Aloha.
    Chairman Akaka. Aloha.
    Senator Burr. Let me thank you for calling this hearing and 
assembling these witnesses who I look forward to hearing from.
    Let me congratulate the new faces, two on your side, one on 
our side.
    One thing that I think you will find very quickly is that 
this Committee is unlike others in the U.S. Senate. Care for 
our veterans and their loved ones is not a partisan issue. If I 
could borrow a sentiment from our former colleague who is now 
our Commander-in-Chief, the men and women who wear the uniform, 
the Nation's uniform, do not come from a collection of red and 
blue States but from the United States.
    And I think that is 100 percent accurate. They expect us to 
leave politics aside when we act on their behalf, and I am 
committed to work with the Chairman and all the Committee 
Members toward that end.
    Again, I welcome those new members.
    This morning, we will listen to the views of some of the 
leading veterans service organizations on what their top 
priorities are for the 111th Congress. I often hear from VSOs 
from North Carolina who provide me with a local perspective of 
some of the challenges confronting our Nation's veterans. The 
organizations with us this morning provide a voice to millions 
of veterans nationwide. Collectively, they are a valuable 
resource upon which we may draw as we develop any legislative 
and oversight agenda.
    I am anxious to hear your testimony, to work with you and 
other important organizations like AMVETS and Gold Star Wives 
on behalf of veterans and their survivors.
    Looking through the testimony this morning, I found there 
are some common themes from all of you:
    First, funding of the VA health care system is a top 
priority on everyone's list. Let me say from the onset that I 
am in full agreement with the goals of providing VA a timely, 
predictable, and sufficient budget. I look forward to exploring 
ways we can accomplish these goals with our witnesses here 
today. In my view, funding for the VA health care system should 
never be a political issue.
    Second, fixing the disability system and the disability 
claims system is another common theme. Mr. Atizado of the DAV 
calls the system ``complex and burdensome.'' Mr. Blake with PVA 
states that the process is done in ``an expensive and 
antiquated manner.'' Complex, burdensome, expensive, 
antiquated--these are not flattering adjectives to describe a 
system that is designed to help veterans with injuries 
resulting from service. This is nothing new, and I hope all of 
us here today can get behind innovative approaches to fixing 
the system.
    Finally, Mr. Chairman, another theme is ensuring adequate 
mental health treatment for veterans who need help with PTSD 
and TBI. Clearly, building capacity is part of the effort, and 
the VA is in the midst of hiring additional mental health 
professionals, but we need to make sure we focus on getting 
veterans into VA for effective treatment early.
    Secretary Shinseki stated he believes PTSD is treatable and 
that early treatment is key. I agree, and I think every person 
here understands that. It is time we develop a strategy to 
implement the Veterans' Disability Commission's recommendations 
of ensuring that veterans with mental health problems receive 
that necessary treatment soon after that veteran is diagnosed.
    Mr. Chairman, I stand ready with you and this Committee to 
address these priorities on behalf of Nation's veterans and 
their loved ones. Our approaches to solving some of these 
problems may differ, but our goal is in fact the same.
    I thank the Chair.
    Chairman Akaka. Thank you very much for your statement, 
Senator Burr, our Ranking Member.
    Now let me call on Senator Sanders for his statement.

              STATEMENT OF HON. BERNARD SANDERS, 
                   U.S. SENATOR FROM VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman. I will 
be brief.
    I believe that over the years we have made some substantial 
progress in the VA in general--VA health care in particular.
    I believe that in the last 2 years, under Chairman Akaka's 
leadership, we have made some very, very significant changes. 
We just passed last year, as you know, the most significant 
changes in GI education that we have had since World War II, 
which will impact hundreds of thousands of soldiers who have 
served in Iraq and Afghanistan and their families. We have 
provided record-breaking VA health care budgets. We have 
increased mileage reimbursement rates. We have begun the effort 
to bring back the Priority 8s who were thrown out of the health 
care system some years ago.
    So we are making some progress, Mr. Chairman. I think we 
should be proud of what we have accomplished.
    And one of the reasons--one of the reasons--I believe that 
we have made progress is that there is now a very positive 
relationship between the VSOs--the veterans services 
organizations--who are on the ground, who bring to us the 
concerns that they are hearing from veterans, and us. And I 
think we have worked very closely with the veterans 
organizations, and it is absolutely imperative that we continue 
to do so.
    Just a few weeks ago, I had a meeting with about 25 
veterans of my Veterans Advisory Committee in Vermont; and the 
goal of that is to hear from the ground what people are 
experiencing when they go into the clinics, when they go into 
the hospitals, what about the claims.
    So, we are making progress, but obviously we have a long 
way to go. And I think there is a general consensus--you 
mentioned it; Senator Burr mentioned it. There is a general 
consensus on some of the problems that remain and where we have 
to go.
    Advanced appropriations. It is hard to run one of the 
largest health care systems in the country, where you have tens 
of thousands of employees, if you do not have a sense of what 
you are anticipating next year. It's very difficult to do.
    We need to continue, in my view, to bring Priority 8s back 
on a gradual basis into the system.
    We need to clearly, as you have heard, reform the claims 
system. In this day and age, with all of the computer 
technology that we have, it is not clear to me why it would 
take so long for veterans to get their claims processed.
    I think we have to move forward to an automatic enrollment 
in VA for members of the Guard and Reserve.
    Here is an issue that we raised in Vermont, Mr. Chairman. I 
hope we can discuss it here, and I hope some of our friends 
will comment on it. In my State, there is not a whole lot of 
flexibility in terms of the hours in which veterans can get 
into clinics and get into the hospital. You know, many people 
work 9 to 5. Should there be evening hours? Should we be more 
flexible in making sure that our clinics and CBOCs are 
available to veterans?
    I think we want to move forward in making our VA facilities 
a leader in green buildings and energy efficiency.
    We want to make sure we can have the best services 
available in the world in the VA, but unless veterans know 
about those services they are not going to be able to access 
them. So we have to do a better job in performing outreach.
    We do not want to forget--while we focus on PTSD and TBI 
from Iraq--we do not want to forget about Gulf War Syndrome 
from the war in 1991. We have still have tens of thousands of 
soldiers who are suffering from that.
    So, the bottom line is: we are making progress. We have a 
long way to go. We will not be successful unless we work with 
the veterans organizations and unless they are giving us the 
best information possible about what is happening on the 
ground.
    We get stuck here in Washington a little bit. Your job is 
to tell us what you are hearing from people who are 
experiencing the VA in all of its dimensions.
    Mr. Chairman, thank you very much.
    Chairman Akaka. Thank you very much, Senator Sanders, for 
your statement.
    And now I call on Senator Johanns for his opening 
statement.
    Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Chairman Akaka and Ranking Member Burr, 
thank you very much for the opportunity to say a few words. My 
opening statement will be very brief because this is my first 
meeting, and it is the first opportunity I have had to be in a 
hearing setting with this Committee assignment.
    I want to say first of all, though, that it is an honor to 
be on this Committee. It is an honor to serve with this group 
and think about the needs of our veterans and how we meet those 
needs.
    I also want to say thank you for calling this hearing 
together. As I looked through the list of witnesses and the 
statements, it gives me an opportunity as a new member to learn 
from you as to what the needs are out there and what I need to 
be paying attention to in order to be a valuable Committee 
member.
    It reminds me a bit of something I did when I was Governor 
of Nebraska. I would bring veterans groups into the Governor's 
Office on a regular basis, and we would just go around the 
table, and I would listen to them as to what their veterans 
needed, what they were facing out there. It just helped me in 
terms of developing an agenda as Governor.
    I see this hearing as that same sort of opportunity: an 
opportunity for me to listen; to think about the priorities as 
you identify them; and then to work with you, Mr. Chairman and 
Ranking Member, to meet those needs.
    Thank you very much.
    Chairman Akaka. Thank you very much for your statement, 
Senator Johanns.
    Let me call on Senator Tester for his opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I too want to 
thank you and the Ranking Member for calling this hearing, and 
I look forward to working with both of you as we move forward 
on veterans' issues in this Committee.
    I also want to welcome the new Members to the Committee. 
This is a good Committee. It should be very interesting. It has 
been a very rewarding one for me in the last Congress, and 
hopefully it will be equally rewarding in this 111th.
    I also want to thank the members that are here to testify. 
Your opinions are very much appreciated. We appreciate your 
commitment to the veterans through your individual 
organizations and appreciate your guidance and your sacrifice 
in doing that. So, thank you very, very, much.
    We have over 100,000 vets in the State of Montana. That is 
quite high a percentage for a State of 950,000. The only State 
that probably has more is my fellow Senator here to my left, 
Senator Begich from Alaska. Veterans make up a high percentage 
of our population. Quite honestly, when I started this job, we 
went around and had hearings around the State of Montana, and I 
found out things that were absolutely unbelievable, and we were 
able to address many of them.
    As Senator Sanders said earlier, we have much more work to 
do.
    We just confirmed General Shinseki to the head of the VA. I 
supported that confirmation. I think he is a good man, and I 
think he is somebody that we all can work with.
    But, we have made a lot of promises which we have to 
continue to work on to make sure that we live up to. State-of-
the-art medical facilities throughout this country are 
critically important for our veterans. Making sure that we 
address PTSD and TBI issues that are out there, that are real, 
and that are not going to go away--we have to be proactive in 
that.
    This is the first time in a decade that the VA 
appropriations was in place before the beginning of the fiscal 
year. I think that is a step in the right direction. We need to 
continue to work on that and make sure that the veterans of 
this country do not have to come back every year, hat in hand, 
begging for money. We need to make that budget firm and 
continuous.
    We need to continue innovation. The Ranking Member talked 
about innovation in the VA. It is critically important, 
particularly in rural America and in Indian country. We need to 
upgrade the VA's IT infrastructure, so that there is better, 
easier access for our veterans in this country.
    And we need to deal with the backlogs in disability claims. 
It is a big issue, and hopefully we can do something about that 
in this Committee this year, Mr. Chairman.
    It is not going to be easy. There are many challenges still 
out there for our veterans. I have talked to many of you about 
them. But I know one thing: If we work together--both sides of 
the aisle come together and you folks are at the table--we will 
do some good work.
    Thank you very much for being here.
    Chairman Akaka. Thank you very much, Senator Tester.
    Again, I welcome our new member, Senator Begich from 
Alaska, for his opening statement.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much. Mr. Chairman and to 
the Ranking Member, thank you for the opportunity to be on the 
Committee.
    I am going to actually be very brief because I am very 
interested in each one of your presentations today. I have read 
some of the testimony that you will be presenting. I am excited 
to hear some of the ideas that you will have on how to improve 
our system.
    Again, I am going to be as brief as this and say thank you 
very much, Mr. Chairman.
    I am looking forward to your conversations, and I agree 
with many of the conversations that have already occurred in 
regards to the needs that we have within the system. It is one 
reason why I wanted to be on this Committee. As Senator Tester 
said, 11 percent of our population are veterans in my State, 
and that is a significant amount of our population.
    I look forward to your ideas. And I will tell you that my 
father-in-law is a retired colonel. He has already sent me many 
articles out of the DAV Magazine to inform me of all the 
priorities you have and that I need to follow. So, already, you 
have an ally within the family.
    Thank you very much, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Begich.
    Now let me call on the Senator from the State of Illinois, 
Senator Burris, for his opening statement.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you very much, Mr. Chairman and Mr. 
Ranking Member. I hope we will not get our names mixed up with 
the ``I-S'' and no ``I-S,'' Senator Burr.
    Like my colleagues, I am very pleased to be able to be on 
this Committee. I am not a veteran, but I know so many in my 
community of Chicago. I am deeply concerned about how we have 
so many homeless veterans in our urban areas and what is 
happening with their health care. We must look at that and 
determine how we can assist these individuals.
    I hear horror stories about what is happening to the 
hospitals there in Chicago (the closed-up one), and how 
difficult it is for veterans to get services, and how far they 
have to travel to get to and from those veterans hospitals.
    These men and women have paid in blood and injury for our 
safety and our security in this great country, and we cannot 
neglect them. We cannot not assist them as they try to carry 
out their lives and carry out their family lives. So you have 
an ally here too.
    Unfortunately, Mr. Chairman, I am going to have to duck out 
because I have another committee. I have their testimony. I 
will certainly read it and look forward to working with you and 
this great Committee. Thank you.
    Chairman Akaka. Thank you very much, Senator Burris.
    And now I welcome our panel of witnesses representing 
veterans organizations. I appreciate your being here today and 
look forward to your testimony.
    First, I welcome Dean Stoline, Assistant Director of the 
National Legislative Commission for The American Legion.
    I also welcome Adrian Atizado, Assistant National 
Legislative Director for Disabled American Veterans.
    Additionally, I welcome Todd Bowers, Director of Government 
Affairs for Iraq and Afghanistan Veterans of America.
    I welcome also Carl Blake, National Legislative Director 
for Paralyzed Veterans of America.
    I welcome Dennis Cullinan, Director of the National 
Legislative Service for Veterans of Foreign Wars.
    And finally, I welcome John Rowan, President of the Vietnam 
Veterans of America.
    Thank you all for joining us today. Your full statements 
will be included and will appear in the record of the 
Committee.
    Mr. Stoline, will you please begin with your statement?

    STATEMENT OF DEAN STOLINE, ASSISTANT DIRECTOR, NATIONAL 
          LEGISLATIVE COMMISSION, THE AMERICAN LEGION

    Mr. Stoline. Thank you and aloha, Mr. Chairman, Senator 
Burr and Members of the Committee.
    Chairman Akaka. Aloha.
    Mr. Stoline. On behalf of The American Legion, I thank you 
for inviting us today to this hearing.
    To the new Members of the Committee, I welcome you. The 
American Legion stands ready to assist you and your staff with 
any questions you may have, and I am here to be the spearhead 
for the Legion to help you.
    The American Legion's current legislative portfolio is over 
200 legislative items. We stand ready at any time to present 
oral and written testimony before the Committee on these 
issues. I would like to highlight from our written testimony 
several issues today.
    The first is the new GI Bill. We would like the Committee 
to ensure oversight over the implementation of this for the 
August 1st deadline. We are concerned both that the VA probably 
has not hired enough employees to implement it by that date, 
and we also have concerns about the development of the 
information technology that will support that in the out years.
    One item we would like to add for your consideration on GI 
Bill benefits is to add vocational and educational benefits 
equal to the GI Bill benefits for those who go to college. We 
think servicemembers who wish a career in other areas such as 
apprenticeships to plumbing and electricity or become law 
enforcement officers should have the same stipends and benefits 
that accrue to those who are going to a 4-year institution.
    With regard to funding of the health care portion of the 
budget, The American Legion still remains desirous of mandatory 
funding. However, in partnership with other VSOs, we are now 
recommending the idea of advance appropriations. This would be 
a policy in which the budget would be provided to the VA 1 year 
in advance of the current fiscal year.
    We see this as positive because the VA would be able to 
plan for that budget for a year, and the Congress would be able 
to oversee the expenditures, because the VA would have 
knowledge of the amount of money they have for equipment and 
personnel a year ahead of time.
    With regard to disability compensation claims and 
adjudication, that is the one great challenge I think the 
Congress has this year. The backlog is ever growing and is 
outrageous, in our belief, and we do not see relief in sight at 
this time.
    We have testified in the past on the inadequate staffing 
levels of the VA, the inadequate training of the VA for its 
adjudicators and the management pressure on the employees to 
make decisions that are based on quantity rather than the 
quality of the review of the merits of the claim.
    We think that is a disservice to the veterans, and we would 
like you to take a look to improving both the staffing levels 
and the training for those employees and to have management be 
more concerned about a quality review at the first level of the 
claim rather than pass it on to the appeals level and put the 
veterans in the ``hamster wheel'' of appeals and remands and 4 
or 5 years before they finally get resolution of their claim.
    As for the current budget, we think it needs to be 
increased. We appreciate the last 2 years' increase to the 
budget, but part of that budget was at the expense of over a 
million and one-half Priority 8 veterans who could not enroll 
in the system. And we think that is an egregious error.
    We appreciate the fact that you did give funding this last 
year to start re-enrollment, but the job is not done. We would 
like to see the job for re-enrollment of all Priority 8s 
completed in this fiscal year.
    With regard to Traumatic Brain Injury, the GAO has 
acknowledged that there are clinical challenges to the VA. We 
support additional TBI research and funding so that they can 
have the diagnostic tests to properly screen these veterans.
    We are concerned about access to care for our rural 
veterans. As the Nation becomes more urbanized, the military 
forces are actually having more of their members come from the 
rural areas of the Nation. Right now, the nationwide figures 
are: one-in-five veterans who receive VA health care come from 
the rural areas; and this ratio is going to grow, particularly 
because the Reserve components come mainly from the rural 
areas.
    Consequently, The American Legion would like to see an 
increase in the Community-Based Outpatient Clinics, or CBOCs, 
particularly for veterans living in States like Nebraska, 
Nevada, Utah, South Dakota, Wyoming and Montana, because the 
veterans living in those areas face extremely long drives, a 
shortage of health care providers and bad weather conditions.
    VA has an Office of Seamless Transition for veterans coming 
off the Iraq and Afghanistan wars. But we are concerned, 
particularly with Reserve components, that those 
servicemembers, as they come back from their duty, are not 
getting the proper training and information from VA on their 
rights and benefits. Consequently, we would like to see more 
emphasis in the VA to ensure a successful transition from 
military duty to civilian life.
    We would like an increase in medical research and 
prosthetics research because the VA has a unique understanding 
of the wounds that occur to veterans, but VA should be paying 
particular attention to the issues that are already at hand for 
veterans in the past. That includes prostate cancer, addictive 
disorders, wound healing, Post Traumatic Stress Disorder and 
other medical problems. We also believe they should cooperate 
more with other agencies like DOD in their research.
    With regard to the different environmental exposures that 
veterans have from different wars, The American Legion would 
like the Congress to be forcing the DOD to release more and 
more information about Agent Orange that was used outside of 
Vietnam. It is almost impossible to settle some of these Agent 
Orange claims and the diseases that arise from it without that 
information.
    With regard to the Gulf War illness veterans, we would like 
the VA to continue research with the recommendation of the 
Research Advisory Committee on Gulf War Veterans. We would like 
VA to focus not only on the treatment but also help alleviate 
the suffering of those veterans.
    With regard to the Atomic Veterans, The American Legion 
would like the dosage program rescinded because that program is 
not working. A lot of the results come back that say the 
veterans were exposed to low doses of radiation, and again it 
is very hard to complete a claim and adjudicate properly for 
the veteran.
    With regard to information technology policy, while we 
support additional funding, we want to make sure the privacy 
rights of the veterans are maintained and that the information 
is secure.
    With regards to the Filipino veterans, The American Legion 
has supported the Filipino Veterans Act for about 60 years. 
However, our issue with that is how they are paid. In our 
written testimony, we have given the Congress several ideas on 
how to properly fund the Filipino veterans without taking funds 
away from other 
veterans.
    With regard to the National Cemetery Administration, we 
support keeping the current 75-mile service area and 170,000 
veteran population, but we ask the Congress to be advised of 
the increased driving times in urban areas that makes it harder 
for some families to get to the cemeteries. That should be 
taken into consideration as you site future cemeteries.
    The American Legion regards the number of veterans being 
hired in the Federal Government as too low. We think 
Congressional oversight over the hiring of veterans should be 
increased, particularly with VA and DOD, and at all levels of 
the government. For example, in the VA's October magazine, of 
the latest three veterans law judges that were appointed, none 
of them were veterans, and we think that is egregious since 
they are the ones who make the final determination within VA on 
our claims.
    Chairman Akaka. Will you wrap up your statement, please?
    Mr. Stoline. Yes, sir.
    The last thing I would like to say is we are concerned 
about homeless veterans, and we would like the grants 
increased. We would also like some provisions made for homeless 
female veterans and their families.
    Thank you for allowing us here today.
    [The prepared statement of Mr. Stoline follows:]
   Prepared Statement of Dean Stoline, Assistant Director, National 
              Legislative Commission, The American Legion
    Mr. Chairman and Members of the Committee: On behalf of The 
American Legion, I thank you for this opportunity to present today the 
legislative priorities of our 2.6 million members on issues under the 
jurisdiction of this Committee.
    Those mandates with legislative intent create the legislative 
portfolio of The American Legion for the 111th Congress. National 
Commander David K. Rehbein presented The American Legion's proposals 
before the Joint Session of the Committees on Veterans' Affairs held on 
September 11, 2008.
    Please note The American Legion's current legislative portfolio 
contains more than 200 legislative resolutions and we stand ready to 
present oral and written testimony before your Committee on these 
issues. I will, however, take a moment to highlight those issues we see 
as the most significant matters to focus upon this Congressional 
session taken from the Commander's testimony.
    The war on terrorism--Operations Iraqi Freedom (OIF) and Enduring 
Freedom (OEF)--has generated nearly one million discharged veterans, 
all of whom are guaranteed access to health care through the Department 
of Veterans Affairs (VA) for the first five years after their return 
home. Hundreds of thousands of OIF and OEF veterans are using their VA 
healthcare benefits, thus increasing the workload of a healthcare 
system that was overburdened before the war began.
    It is a sacred and time honored obligation of The American Legion 
to ensure these veterans have the services they need and timely access 
to the care they have earned. The American Legion, working with 
Congress, has made considerable progress in recent years to meet that 
obligation. We especially thank the Congress for the increased funding 
for the VA healthcare system, the greater attention being paid to 
mental health concerns, including Post Traumatic Stress Disorder (PTSD) 
and Traumatic Brain Injury (TBI) care which have become known as the 
``signature wounds'' of the war we fight today, and the new GI BILL 
which recognizes the significant sacrifices today's veterans make to 
ensure our Nation's safety. To all those programs, Congress responded 
with needed funding.
    The American Legion applauds the 110th Congress for the FY 2009 
funding allocations for many VA accounts that met or exceeded funding 
targets proposed by The American Legion. The process of providing 
adequate and compassionate services to our veterans is, as we all know, 
continuous. We must stay on top of the changes in health care, in 
technology, and foremost, among the veterans we serve.
    We continue to work with Congress to ensure that government 
agencies, particularly VA, have the resources to provide quality health 
care, disability compensation, rehabilitation services and transitional 
programs to all eligible veterans. We are making progress, but we are 
not there yet.
    For example, the outrageous backlog of VA benefits claims and 
appeals remains a source of continuous frustration nationwide. And 
while new attention has been given to mental health care for returning 
veterans, VA providers themselves say they cannot keep up with it all. 
In some communities, it is truly a crisis.
    Funds have been budgeted for new VA medical facilities that have 
only been in blueprints far too long. VA must move into the 21st 
Century, addressing the needs of a new generation of war veterans with 
unique needs now entering the system, but at the same time honor the 
service of--and provide caring for--those veterans of past wars and 
conflicts.
    With that in mind and on behalf of The American Legion, I offer the 
following recommendations to the Committee today.
                          veterans health care
    The American Legion continues to have concerns about the effects of 
current budgets on VA's ability to deliver quality care in a timely 
manner. America's veterans are turning to VA for their health care 
needs and, as we welcome home injured veterans from the current War on 
Terrorism, it is forever our responsibility as advocates to work 
together to ensure VA is capable of treating all eligible prior war 
veterans as well. We especially want the Committee to take note of the 
impending retirement of the Vietnam War cohort of veterans.
                             budget reform
    The annual discretionary appropriations in Fiscal Year (FY) 2008 
and FY 2009 represented a dramatic improvement over years of consistent 
budgetary shortfalls, but these funding levels were achieved only 
through dynamic leadership in both chambers. However, even these two 
outstanding appropriations did not follow the normal appropriations 
process--one was achieved through a year-long continuing resolution 
with significant markups for VA medical care and the second required 
the President to declare a need for emergency appropriations for VA 
medical care.
    With the influx of returning veterans from Iraq and Afghanistan, 
the demands for various clinical providers, nurses, medical care 
facilities and equipment are mounting. Assured funding is essential to 
proactively meet the challenges faced at VA medical facilities. The 
American Legion believes reform of the budget process for veterans' 
health care would provide timely, predictable, and sufficient 
appropriations for VA medical care.
    For several years, The American Legion lobbied for the meaningful 
reform of the Federal appropriations process as recommended by the 
President's Task Force to Improve Health Care Delivery for our Nation's 
Veterans (in 2003). This Task Force clearly identified the consistent 
mismatch between VA health care funding and the growing demand for 
health care services.
    The American Legion and eight other major veterans' and military 
service organizations joined forces to urge Congress to provide annual 
appropriations that are timely, predictable, and sufficient. These 
three components are critical for effective long- and short-range 
decisionmaking by VA management. The Partnership for Veterans Health 
Care Budget Reform supported legislation that would make VA health care 
funding mandatory rather than discretionary. Under this concept, VA 
health care funding would be formula-based, much like other mandatory 
programs like Medicare, Social Security, and VA disability compensation 
and pension benefits.
    This concept was met with great resistance by lawmakers on Capitol 
Hill; so The American Legion and its colleagues now recommend an 
alternative to mandatory funding--advance appropriations. The American 
Legion believes this change would assure timeliness and predictability. 
Under advance appropriations, VA medical care discretionary 
appropriations would be approved prior to the start of the next fiscal 
year. Should The American Legion have concerns about the sufficiency of 
the advance appropriations, it would have an opportunity to address any 
shortfalls while testifying for the remainder of the VA appropriations 
for that fiscal year.
                     medicare reimbursements to va
    As do most American workers, veterans pay into the Medicare system, 
without choice, throughout their working lives, including when they are 
serving on active duty or serving in the reserve components of the 
Armed Forces. However, although veterans must pay into the Medicare 
system, VA is prohibited from collecting any Medicare reimbursements 
for the treatment of allowable, nonservice-connected medical 
conditions. Since over half of VA's enrolled patient population is 
Medicare-eligible, this prohibition constitutes a multi-billion dollar 
annual subsidy to the Medicare Trust Fund. The American Legion opposes 
the current policy on Medicare reimbursement and asks Congress to allow 
Medicare reimbursement for VA for the treatment of allowable, 
nonservice-connected medical conditions by enrolled Medicare-eligible 
veterans.
                      traumatic brain injury (tbi)
    A recent General Accountability Office (GAO) report acknowledged 
VA's clinical challenges in its efforts to screen OEF/OIF veterans for 
mild TBI and evaluating those who screen positive on the TBI screening 
tool. The challenges include the lack of objective diagnostic tests, 
such as laboratory tests or neuroimaging tests like MRI and computer 
tomography (CT) scans that can definitively and reliably identify mild 
TBI. Other challenges include the similarity of many symptoms of mild 
TBI to symptoms associated with other conditions, making a definitive 
diagnosis of mild TBI more difficult to diagnose. Many OEF/OIF veterans 
with mild TBI might not even realize that they have an injury and 
should seek health care.
    Soldiers with mild Traumatic Brain Injury were more likely to 
report poor health, missed workdays, medical visits, and a high number 
of somatic and post concussive symptoms than were soldiers with other 
injuries. On the other hand, after adjustment for PTSD and depression, 
mild Traumatic Brain Injury was no longer significantly associated with 
these physical health outcomes or symptoms, except for 
headache.
    Clearly additional funding for TBI research and treatment is 
warranted and should be appropriately funded.
                   access to care for rural veterans
    Research conducted by VA indicated veterans residing in rural areas 
are in poorer health than their urban counterparts. It was further 
reported that nationwide, one in five veterans who enrolled to receive 
VA health care lives in rural areas. Providing quality health care in a 
rural setting has proven to be very challenging to VA, given factors 
such as limited availability of skilled care providers and inadequate 
access to care. Even more challenging will be VA's ability to provide 
treatment and rehabilitation to rural veterans who suffer from the 
signature ailments of the on-going Global War on Terrorism--traumatic 
blast injuries and combat-related mental health conditions. VA's 
efforts need to be especially focused on these issues.
    A vital element of VA's transformation in the 1990s was the 
creation of Community Based Outpatient Clinics (CBOCs) that proximate 
access to VA primary care within veterans' communities. Recently, VA 
scheduled the opening of 44 additional CBOCs in 21 states. The new 
clinics will be fully activated in 2009, increasing VA's network of 
independent and community-based clinics to 782. The American Legion 
believes the clinics are warranted due to the growing population of 
veterans within rural areas of the Nation. More veterans are also 
migrating to less populated areas with an abundance of automobiles, 
which are the primary catalysts that transport Improvised Explosive 
Devices (IEDs) in Iraq.
    While VA has taken the right step with the addition of more CBOCs, 
The American Legion believes more are warranted. There continues to be 
great difficulty serving veterans in rural areas, such as Nebraska, 
Nevada, Utah, South Dakota, Wyoming, and Montana where veterans face 
extremely long drives, a shortage of health care providers, and bad 
weather. VISNs rely heavily upon CBOCs to close the gap.
                          seamless transition
    VA has an Office of Seamless Transition that is available to 
participate in Department of Defense (DOD), National Guard and Reserves 
Transition Assistance Programs (TAP) and Disabled Transition Assistance 
Programs (DTAP). However, The American Legion remains concerned that 
many servicemembers returning home from OEF/OIF duty are not being 
properly advised of the benefits and services available to them from VA 
and other Federal and State agencies. This is especially true of 
Reserve and National Guard units that are demobilized at hometown 
Reserve Centers and National Guard armories, rather than at active duty 
demobilization centers.
    The American Legion recommends this Committee continue its 
oversight of VA to ensure that all recently separated veterans, to 
include Reserve components servicemembers are provided appropriate 
current and future plans and policies for a successful transition of 
the Nation's heroes from active duty to civilian life.
                    medical and prosthetics research
    The American Legion believes VA's focus in research should remain 
on understanding and improving treatment for conditions that are unique 
to veterans. Servicemembers are surviving catastrophically disabling 
blast injuries due to the superior armor they are wearing in the combat 
theater and the timely access to quality triage. The unique injuries 
sustained by the new generation of veterans clearly demand particular 
attention. VA must be funded to provide and maintain state-of-the-art 
prostheses.
    The American Legion also supports adequate funding of other VA 
research activities, including basic biomedical research and bench-to-
bedside projects. This Committee should continue to encourage 
acceleration in the development and initiation of needed research on 
conditions that significantly affect veterans--such as prostate cancer, 
addictive disorders, trauma and wound healing, Post Traumatic Stress 
Disorder, rehabilitation, and other medical problems jointly with DOD, 
the National Institutes of Health (NIH), other Federal agencies, and 
academic institutions.
                        environmental exposures
Agent Orange
    One of the top priorities of The American Legion has been to ensure 
that long overdue major epidemiological studies of Vietnam veterans who 
were exposed to the herbicide Agent Orange are carried out.
    The Institute of Medicine (IOM) report, Characterizing Exposure of 
Veterans to Agent Orange and Other Herbicides Used in Vietnam, is based 
on the research conducted by a Columbia University team. Headed by 
principal investigator Dr. Jeanne Mager Stellman, the team has 
developed a powerful method for characterizing exposure to herbicides 
in Vietnam. The American Legion is proud to have collaborated in this 
research effort. In its final report on the study, the IOM urgently 
recommends that epidemiological studies be undertaken now that an 
accepted exposure methodology is available. The American Legion 
strongly endorses this IOM report.
    The IOM's most recent report on veterans' herbicide exposure in 
Vietnam, Veterans and Agent Orange: Update 2006, released July 27, 
2007, added two new illnesses to the category of ``limited or 
suggestive evidence of association,'' AL amyloidosis and hypertension. 
This is a profound finding since many Vietnam War veterans suffer from 
hypertension.
    The ``limited or suggestive'' evidence finding meets the threshold 
of a positive association between the exposure of humans to a herbicide 
agent and the occurrence of a disease in humans, as set forth in title 
38, United States Code Sec. 1116, and has been used by VA to add other 
conditions, including type 2 diabetes, to the list of herbicide 
presumptive disabilities. Although the Secretary of Veterans Affairs, 
in violation of specific reporting requirements set forth in Sec. 1116, 
has yet to publish his official determination regarding this latest IOM 
report in the Federal Register, The American Legion received a letter 
from the Secretary on June 26, 2008, informing our organization that AL 
amyloidosis is the only condition, based on the July 2007 IOM report, 
that would be added to the list of disabilities presumed to be service-
connected due to herbicide exposure. The Secretary specifically stated 
that he has ``determined that the evidence available at this time does 
not warrant the establishment of a new presumption of service 
connection based on service in Vietnam for any additional diseases 
reviewed in the NAS report.''
    Since, at of the time of this writing, the Secretary has not 
published a notice of his determination in the Federal Register, which 
will include an explanation of the scientific basis for that 
determination; The American Legion is unable to comment on the 
reasoning behind VA's decision not to recognize hypertension as 
presumptively service-connected to herbicide exposure among Vietnam 
veterans. Rest assured we will carefully review the Secretary's 
determination once it is published in the Federal Register and will 
take appropriate action, including, but not limited to, seeking a 
legislative remedy to correct this injustice.
    The American Legion is extremely concerned about the timely 
disclosure and release of all information by DOD on the use and testing 
of herbicides in locations other than Vietnam during the war. Over the 
years, The American Legion has represented veterans who claim to have 
been exposed to herbicides in places other than Vietnam. Without 
official acknowledgement by the Federal Government of the use of 
herbicides, proving such exposure is virtually impossible. Information 
has come to light in the last few years leaving no doubt that Agent 
Orange, and other herbicides contaminated with dioxin, were released in 
locations other than Vietnam. This information is slowly being 
disclosed by DOD and provided to VA.
    Obtaining the most accurate information available concerning 
possible exposure is extremely important for the adjudication of 
herbicide-related disability claims of veterans claiming exposure 
outside of Vietnam. For herbicide-related disability claims, veterans 
who served in Vietnam during the period of January 9, 1962 to May 7, 
1975 are presumed by law to have been exposed to Agent Orange. Veterans 
claiming exposure to herbicides outside of Vietnam are required to 
submit proof of exposure. This is why it is crucial that all 
information pertaining to herbicide use, testing, and disposal in 
locations other than Vietnam be released to VA in a timely manner. 
Congressional oversight is needed to ensure that additional information 
identifying involved personnel or units for the locations already known 
by VA is released by DOD, as well as all relevant information 
pertaining to other locations that have yet to be identified. Locating 
this information and providing it to VA must be a national priority.
Gulf War Illness
    Gulf War research is moving away from the previous stress theories 
and is beginning to narrow down possible causes. However, research 
regarding viable treatment options is still lacking. The American 
Legion applauds Congress for having the foresight to provide funding to 
the Southwestern Medical Center's Gulf War Illness research program. 
The Center was awarded $15 million, renewable for five years, to 
further the scientific knowledge on Gulf War Veterans Illnesses 
research. This research will not only impact veterans of the 1991 Gulf 
War, but may prove beneficial for those currently serving in the 
Southwest Asia Theater and the Middle East.
    VA must continue to fund research projects consistent with the 
recommendations of the Research Advisory Committee on Gulf War 
Veterans' Illness (RACGWI). It is important that VA continues to focus 
its research on finding medical treatments that will alleviate 
veterans' suffering as well as on figuring out the causes of that 
suffering.
    Public Law 103-210, which authorized the Secretary of Veterans 
Affairs to provide priority health care to the veterans of the Persian 
Gulf War who have been exposed to toxic substances and environmental 
hazards, allowed Gulf War Veterans--and veterans of the Vietnam War--to 
enroll into Priority Group 6. The last sunset date for this authority 
was December 31, 2002. Since this date, information provided to 
veterans and VA hospitals has been conflicting. Some hospitals continue 
to honor Priority Group 6 enrollment for ill Gulf War veterans seeking 
care for their ailments. Other hospitals, well aware of the sunset 
date, deny Priority Group 6 enrollment for these veterans and notify 
them that they qualify for Priority Group 8. To these veterans' dismay, 
they are completely denied enrollment because of VA's restricted 
enrollment for Priority Group 8 since January 2003. Even more 
confounding is the fact that eligibility information disseminated via 
internet and printed materials does not consistently reflect this 
change in enrollment eligibility for Priority Group 6. VA has assured 
The American Legion that this issue will be 
rectified.
    Although these veterans can file claims for these ailments and 
possibly gain access to the health care system once a disability 
percentage rate is granted, those whose claims are denied cannot 
enroll. According to the May 2007 version of VA's Gulf War Veterans 
Information System (GWVIS), there were 14,874 claims processed for 
undiagnosed illnesses. Of those undiagnosed illness claims processed, 
11,136 claims were denied. Due to their nature, these illnesses are 
difficult to understand and information about individual exposures may 
not be available, many ill veterans are not able to present strong 
claims. They are then forced to seek care from private physicians who 
may not have enough information about Gulf War Veterans' illnesses to 
provide appropriate care.
    VA notes that veterans may still be granted service connection, if 
evidence indicates an association between their diseases and their 
exposures. This places the burden of proof on Gulf War veterans to 
prove their exposures and that the level of exposure is sufficient 
enough to warrant service connection. IOM and VA have acknowledged that 
there is insufficient information on the use of the identified solvents 
and pesticides during the Gulf War.
    VA states that Public Law 105-277 does not explain the meaning of 
the phrase, ``known or presumed to be associated with service in the 
Armed Forces in the Southwest Asia theater of operations during the 
Persian Gulf War'' and that there is no legislative history explaining 
the meaning of the phrase. VA has had adequate time to get Congress to 
clarify the statute's intent and should have clarified the intent prior 
to delivering a charge to the IOM for the report. VA's interpretation 
is that Congress did not intend VA to establish presumptions for known 
health effects of all substances common to military and civilian life, 
but that it should focus on the unique exposure environment in the 
Persian Gulf during the war. The IOM was commissioned to ascertain 
long-term health effects of service in the Persian Gulf during the war, 
based on exposures associated with service in theater during the war as 
identified by Congress, not exposures unique to the Southwest Asia 
Theater. The determination to not grant presumption for the ailments 
identified should be based solely on the research findings, not on the 
legitimacy of the exposures identified by Congress.
    The IOM has a similar charge to address veterans who served in 
Vietnam during the war. Herbicides were not unique to the operations in 
the Southeast Asia theater of conflict and there had not been, until 
recently, a definitive notion of the amounts of herbicides to which 
servicemembers had been exposed. Peer-reviewed, occupational studies 
are evaluated to make recommendations on which illnesses are associated 
with exposure the herbicides--and their components known to be used in 
theater. For ailments that demonstrate sufficient evidence of a causal 
relationship, sufficient evidence of an association, and limited 
evidence of an association, the Secretary may consider presumption. 
Gulf War and Health Volume 2 identifies several illnesses in these 
categories. However the Secretary determined that presumption is not 
warranted
    VA needs to clearly define what type of information is required to 
determine possible health effects, for instance clarification of any 
guidance or mandate for the research. VA also needs to ensure that its 
charge to the IOM is specific enough to help it make determinations 
about presumptive illnesses. VA noted that neither the report, nor the 
studies considered for the report identified increased risk of disease 
based on episodic exposures to insecticides or solvents and that the 
report states no conclusion whether any of the diseases are associated 
with ``less than chronic exposure,'' possibly indicating a lack of data 
to make a determination. If this was necessary, it should have been 
clearly identified.
    Finally, Section 1118, title 38, U.S.C., mandates how the Secretary 
should respond to the recommendations made in the IOM reports. The 
Secretary is required to make a determination of whether or not a 
presumption for service connection is warranted for each illness 
covered in the report no later than 60 days after the date the report 
is received. If the Secretary determines that presumption is not 
warranted for any of the illnesses or conditions considered in the 
report, a notice explaining scientific basis for the determination has 
to be published in the Federal Register within 60 days after the 
determination has been made. Gulf War and Health, Volume 2 was released 
in 2003, four years ago. Since then, IOM has released several other 
reports and VA has yet to publish its determination on those reports as 
well.
    The American Legion urges VA to provide clarity in the charge for 
the IOM reports concerning what type of information is needed to make 
determinations of presumption of service connection for illnesses that 
may be associated with service in the Gulf during the war.
    The American Legion urges VA to get clarification from Congress on 
the intent of the phrase ``known or presumed to be associated with 
service in the Armed Forces in the Southwest Asia theater of operations 
during the Persian Gulf War,'' get clarification from the IOM committee 
to fill in as many gaps of information as possible, and re-evaluate the 
findings of the IOM report with the clarification provided.
    The American Legion also urges Congress to provide oversight to 
ensure VA provides timely responses to the recommendations made in the 
IOM reports.
Atomic Veterans
    Since the 1980s, claims by Atomic Veterans exposed to ionizing 
radiation for a radiogenic disease, for conditions not among those 
listed in Section 1112(c)(2), title 38, U.S.C., have required an 
assessment to be made by the Defense Threat Reduction Agency (DTRA) as 
to nature and amount of the veteran's radiation dosing. Under this 
guideline, when dose estimates provided are reported as a range of 
doses to which a veteran may have been exposed, exposure at the highest 
level of the dose range is presumed. From a practical standpoint, VA 
routinely denied the claims by many atomic veterans on the basis of 
dose estimates indicating minimal or very low-level radiation exposure.
    As a result of the court decision in National Association of 
Radiation Survivors v. VA and studies by GAO and others of the U.S.'s 
nuclear weapons test program, the accuracy and reliability of the 
assumptions underlying DTRA's dose estimate procedures have come into 
question. On May 8, 2003, the National Research Council's Committee to 
Review the DTRA Dose Reconstruction Program released its report. It 
confirmed the complaints of thousands of Atomic Veterans that DTRA's 
dose estimates have often been based on arbitrary assumptions resulting 
in underestimation of the actual radiation exposures. Based on a 
sampling of DTRA cases, it was found that existing documentation of the 
individual's dose reconstruction, in a large number of cases, was 
unsatisfactory and evidence of any quality control was absent. The 
Committee concluded their report with a number of recommendations that 
would improve the dose reconstruction process of DTRA and VA's 
adjudication of radiation claims.
    The American Legion was encouraged by the mandate for a study of 
the dose reconstruction program; nonetheless, we are concerned that the 
dose reconstruction program may still not be able to provide the type 
of information that is needed for Atomic Veterans to receive fair and 
proper decisions from VA. Congress should not ignore the National 
Research Council's findings and other reports that dose estimates 
furnished VA by DTRA over the past 50 years have been flawed and have 
prejudiced the adjudication of the claims of tens of thousands of 
Atomic Veterans. It remains practically impossible for Atomic Veterans 
or their survivors to effectively challenge a DTRA dose estimate.
    It is not possible to accurately reconstruct the radiation dosages 
to which these veterans were exposed. The process prolongs claims 
decisions on ionizing radiation cases, ultimately delaying treatment 
and compensation for veterans with fatal diseases. Therefore, The 
American Legion believes the dose reconstruction program should not 
continue. We urge the enactment of legislation to eliminate this 
provision in the claim of veterans with a recognized radiogenic disease 
who were exposed to ionizing radiation during military service.
Mustard Gas Exposure
    In March 2005, VA initiated a national outreach effort to locate 
veterans exposed to mustard gas and Lewisite as participants in 
chemical warfare testing programs while in the military. For this 
recent initiative, VA is targeting veterans who have been newly 
identified by DOD for their participation in the testing, most of which 
had participated in programs conducted during WWII. DOD estimated 4,500 
servicemembers had been exposed.
    The American Legion has been contacted by veterans who contend that 
the number of participants identified was understated by tens of 
thousands and that participation in these clandestine chemical programs 
extended decades beyond the World War II era. Investigators have not 
always maintained thorough records of the events; adverse health 
effects were not always annotated in the servicemember's medical 
records; and participants were warned not to speak of the program. 
Without adequate documentation of their participation, participants may 
not be able to prove their current ailments are related to the testing.
    It is important DOD commits to investigating these claims as they 
arise to determine if they have merit. It is also important VA commit 
to locating those identified by DOD in a timely manner, as many of them 
are WWII era veterans. Congressional oversight may be necessary to 
ensure these veterans are granted the consideration they deserve.
                            blinded veterans
    There are approximately 38,000 blind veterans enrolled in the VA 
health care system. Additionally, demographic data suggests that in the 
United States, there are over 160,000 veterans with low-vision problems 
and eligible for Blind Rehabilitative services. Due to staffing 
shortages, over 1,500 blind veterans will wait months to get into one 
of the 10 blind rehabilitative centers.
    VA currently employs approximately 164 Visual Impairment Service 
Team (VIST) Coordinators to provide lifetime case management to all 
legally blind veterans and all OEF/OIF patients and 38 Blind 
Rehabilitative Outpatient Specialists (BROS) to provide services to 
patients who are unable to travel to a blind center. The training 
provided by BROS is critical to the continuum of care for blind 
veterans. The DOD medical system is dependent on VA to provide blind 
rehabilitative services.
    The American Legion urges VA to increase funding for more Blind 
Rehabilitative Outpatient Specialists.
            medical construction and infrastructure support
Major Construction
    The CARES process identified approximately 100 major construction 
projects in the VA Medical Center System, the District of Columbia, and 
Puerto Rico. Construction projects are categorized as major if the 
estimated cost is over $10 million. Now that VA has disclosed the plan 
to deliver health care through 2022, Congress has the responsibility to 
provide adequate funds. VA has not had this type of progressive 
construction agenda in decades. Major construction money can be 
significant and proper utilization of funds must be well planned. 
However, if timely completion is truly a national priority, The 
American Legion continues to have concerns due to inadequate funding.
    In addition to the cost of the proposed new facilities are many 
construction issues that have been ``placed on hold'' for the past 
several years due to inadequate funding, and the moratorium placed on 
construction spending by the CARES process. One of the most glaring 
shortfalls is the neglect of the buildings sorely in need of seismic 
correction. This is an issue of safety. The delivery of health care in 
unsafe buildings cannot be tolerated and funds must be allocated to not 
only construct the new facilities, but also to pay for much needed 
upgrades at existing facilities. Gambling with the lives of veterans, 
their families and VA employees is absolutely 
unacceptable.
    The American Legion believes VA has effectively shepherded the 
CARES process to its current state by developing the blueprint for the 
future delivery of VA health care--we urge Congress adequately fund the 
implementation of this comprehensive and crucial undertaking.
Minor Construction
    VA's minor construction program has also suffered significant 
neglect over the past several years. Maintaining the infrastructure of 
VA's buildings is no small task due to the age of these buildings, 
continuous renovations, relocations and expansions. A slight hesitation 
in provision of funding leaves a profound impact.
    The American Legion recommends Congress adequately fund the 
implementation of this program.
Information Technology Funding
    Since the data theft occurrence in May 2006, the VA has implemented 
a complete overhaul of its Information Technology (IT) division 
nationwide. Although not quite from its beginning stages, The American 
Legion is hopeful VA takes the appropriate steps to strengthen its IT 
security to renew the confidence and trust of veterans who depend on VA 
for the benefits they have earned.
    Within VA Medical Center Nursing Home Care Units, it was discovered 
there was conflict with IT and each respective VAMC regarding provision 
of Internet access to veteran residents. VA has acknowledged the 
Internet would represent a positive tool in the veteran's 
rehabilitation. The American Legion believes Internet access should be 
provided to these veterans without delay, for time is of the essence in 
the journey to recovery. In addition, veterans should not have to 
suffer due to VA's gross negligence in the matter.
    The American Legion believes there should be a complete review of 
IT security government wide. VA isn't the only agency within the 
government requiring an overhaul of its IT security protocol. The 
American Legion urges Congress to exercise its oversight authority and 
review each Federal agency to ensure that the personal information of 
all Americans is secure.
    The American Legion supports the centralization of VA's IT. The 
quantity of work required to secure information managed by VA is 
immense. The American Legion urges Congress to maintain close oversight 
of VA's IT restructuring efforts and fund VA's IT to ensure the most 
rapid implementation of all proposed security measures.
                        compensation and pension
Veterans Benefits Administration
    VA has a statutory responsibility to ensure the welfare of the 
Nation's veterans, their families, and survivors. Providing quality 
decisions in a timely manner has been, and will continue to be one of 
VA's most difficult challenges.
Claims Backlog & Staffing
    In FY 2007, more than 2.8 million veterans received disability 
compensation benefits. Providing quality decisions in a timely manner 
has been, and will continue to be, one of the VA's most difficult 
challenges. A majority of the claims processed by the Veterans Benefits 
Administration's (VBA) 57 regional offices involve multiple issues that 
are legally and medically complex and time consuming to adjudicate.
    As of August 9, 2008, there were 618,314 claims pending in VBA, 
394,201 of which are rating cases. There has been a steady increase in 
VA's pending claim backlog since the end of FY 2004 when there were 
321,458 rating cases pending. At the end of FY 2007, there were more 
than 391,000 rating cases pending in the VBA system, up approximately 
14,000 from FY 2006. Of these, more than 100,000 (25.7 percent) were 
pending for more than 180 days. Including non-rating claims pending, 
the total compensation and pension claims backlog was more than 
627,000, with 26.5 percent of these claims pending more that 180 days.
    There were also more than 164,000 appeals pending at VA regional 
offices, with more than 142,000 requiring some type of further 
adjudicative action. At the end of FY 2007, the average number of days 
to complete a claim from date of receipt (182.5 days) was up 5.4 days 
from FY 2006.
    Inadequate staffing levels, inadequate continuing education, and 
pressure to make quick decisions, resulting in an overall decrease in 
quality of work, has been a consistent complaint among regional office 
employees interviewed by The American Legion staff during regional 
office quality checks. It is an extreme disservice to veterans, not to 
mention unrealistic, to expect VA to continue to process an ever 
increasing workload, while maintaining quality and timeliness, with the 
current staff levels. The current wartime situation provides an 
excellent opportunity for VA to actively seek out returning veterans 
from OEF and OIF, especially those with service-connected disabilities, 
as well as veterans from prior wars, for employment opportunities 
within VBA. Despite the recent hiring initiatives, regional offices 
will clearly need more personnel given current and projected future 
workload demands. VBA must be required to provide better justification 
for the resources it says are needed to carry out its mission and, in 
particular, how it intends to improve the level of adjudicator 
training, job competency, and quality assurance.
    The American Legion recommends Congress increase VBA staffing 
levels, provide appropriate training support for these employees and 
increase the number of veterans of all wars hired in the VA.
Production vs. Quality
    Since 1996, The American Legion, in conjunction with the National 
Veterans Legal Services Program (NVLSP), has conducted quality review 
site visits at more than 40 regional offices for the purpose of 
assessing overall operation. This Quality Review Team visits a regional 
office for a week and conducts informal interviews with both VA and 
veterans service organization (VSO) staff. The Quality Review Team then 
reviews a random sample of approximately 30-40 recently adjudicated 
American Legion-represented claims. The Team finds errors in 
approximately 20-30 percent of cases reviewed.
    The most common errors include the following:

    <bullet> Inadequate claim development leading to premature 
adjudication of claim;
    <bullet> Failure to consider reasonably inferred claims based on 
evidence of record;
    <bullet> Rating based on inadequate VA examination; and/or
    <bullet> Under evaluation of disability (especially mental 
conditions).

    These errors are a direct reflection of VA's emphasis of quantity 
over quality of work. This seems to validate The American Legion's 
concerns that emphasis on production continues to be a driving force in 
most VA regional offices, often taking priority over such things as 
training and quality assurance. Clearly, this frequently results in 
premature adjudications, improper denials of benefits and inconsistent 
decisions.
                veterans' disability benefits commission
    In October 2007, after almost 2\1/2\ years of study, the Veterans' 
Disability Benefits Commission (VDBC or Commission), released its 
extensive report, Honoring the Call to Duty: Veterans' Disability 
Benefits in the 21st Century, to the President and Congress. Due to the 
history surrounding the establishment of the Commission, The American 
Legion and others in the VSO community feared that it would be used as 
a tool to restrict veterans' benefits. In fact, key Members of Congress 
and other Federal Government officials publicly expressed their desire 
to use the VDBC as a vehicle to institute radical changes in the VA 
disability system that would negatively impact and restrict entitlement 
to benefits for a large number of veterans. The American Legion closely 
monitored the Commission's activities and provided written and oral 
testimony, as well as other input.
    The American Legion appreciates the Commission's hard work and 
commitment and we are generally pleased with its recommendations. As 
the final report contains 113 recommendations, this statement will 
focus, for the most part, on recommendations that will directly impact 
the disability compensation system as well as those addressed as high 
priority in the Executive Summary.
    The American Legion looks forward to working with Congress and VA 
to implement many of these recommendations.
Filipino Veterans
    The American Legion fully supports the Filipino Veterans Equity Act 
and has testified in support of this legislation on a number of 
occasions for several years. The American Legion's objection rests with 
how Congress plans to pay for larger bill that contains the Filipino 
Equity Act provision. In order to meet its PAY GO obligations, Congress 
plans to repeal the Hartness v. Nicholson decision. In fact, some 
Filipino veterans may very well benefit from the Hartness v. Nicholson 
decision; especially should the Filipino Veterans Equity Act become 
law. By repealing this decision, Congress would be denying one group of 
veterans (elderly, disabled homebound) 
an earned benefit to give another group of veterans (the Filipino 
veterans and others) benefits. The American Legion believes it is wrong 
and sets an unacceptable 
precedence.
    There is nothing that would prevent Congress from next year, 
repealing the Filipino Equity Act to use that money to pay for some 
other group of veterans. Such a ``rob Peter to pay Paul'' scheme 
clearly dishonors and disrespects all veterans involved. Even worse, it 
pits veterans against veterans. Thus, while The American Legion 
strongly supports the Filipino Veterans Equity Act, it cannot support 
this proposed PAYGO funding stream. Congress must not make a grave 
mistake in the name of fairness, equality or eve fiscal responsibility.
    We urge Congress to do what is right. It has other funding 
options--not just the repeal of Hartness v. Nicholson but can waive the 
budget rules, which Congress has already done to fund other bills; or 
pass the Filipino Veterans Equity Act as part of an emergency 
supplemental appropriations.
National Cemetery Administration
    The mission of the National Cemetery Administration (NCA) is to 
honor veterans with final resting places in national shrines and with 
lasting tributes that commemorate their service to this Nation. The 
American Legion recognizes NCA's excellent record in providing timely 
and dignified burials to all veterans who opt to be buried in a 
National Cemetery. We also recognize the hard work that is required to 
restore and maintain National Cemeteries as national shrines and 
applaud NCA for its commitment and success toward that endeavor.
    The American Legion supports the ``75-mile service area/170,000 
veteran population'' threshold that currently serves as the benchmark 
for establishing a new national cemetery. However, driving (commuting) 
times should be considered as inner-city traffic can significantly 
increase travel times to distant cemeteries and driving time needs to 
be factored in when trying to determine if the veteran population is 
being served effectively.
National Cemetery Expansion
    According to NCA's estimates in the President's budget request for 
FY 2009, annual interments will increase to 111,000, a 10 percent rise 
from FY 2007. Interments in FY 2013 are expected to be about 109,000, a 
9 percent increase from FY 2007. The total number of graves maintained 
is expected to increase from almost 2.8 million in FY 2007 to over 3.3 
million in FY 2013. The American Legion recommends that monies for 
additional employees be included in the budget.
        vocational rehabilitation and employment service (vr&e)
    The mission of the VR&E program is to help qualified, service-
disabled veterans achieve independence in daily living and, to the 
maximum extent feasible, obtain and maintain suitable employment. The 
American Legion fully supports these goals. VA leadership must focus on 
marked improvements in case management, vocational counseling, and--
most importantly--job placement.
Interagency Cooperation between DOL-VETS and VA
    It is our experience that the interagency collaboration and 
communication between the VR&E program, and the Department of Labor 
(DOL) Veterans Employment and Training Service (VETS) is lacking. The 
American Legion recommends exploring possible training programs geared 
specifically for VR&E Counselors through the National Veterans Training 
Institute (NVTI). Contracting for standardized or specialized training 
for VR&E employees could very well strengthen and improve overall 
program performance.
Veterans' Preference in Job Placement
    The Federal Government has scores of employment opportunities that 
educated, well-trained, and motivated veterans can fill given a fair 
and equitable chance to compete. Working together, all Federal agencies 
should identify those vocational fields, especially those with high 
turnover rates, suitable for VR&E applicants. There are three ways 
veterans can be appointed to jobs in the competitive civil service: by 
competitive appointment through an OPM list of eligibles (or agency 
equivalent); by noncompetitive appointment under special authorities 
that provide for conversion to the competitive service; or, by Merit 
Promotion selection under the Veterans Employment Opportunities Act 
(VEOA). The American Legion recommends the number of veterans in the 
Federal Government be increased.
Provide military occupational skills and experience translation for 
        civilian employment counseling
    The American Legion notes that due to the current demands of the 
military, greater emphasis on the Reserve component of the Armed Forces 
created employment hardships for many Reservists. The American Legion 
supports amending Section 4101(5), title 38, U.S.C., to add Subsection 
(D) to the list of ``Eligible Persons'' for Job Counseling, Training, 
and Placement Service for Veterans, to include members in good standing 
of Active Guard and Reserve Units of the Armed Forces of the United 
States who have completed basic and advanced Duty for Training 
(ACDUTRA) and have been awarded a Military Occupation Specialty.
    DOD provides some of the best vocational training in the Nation for 
its military personnel and establishes measures and evaluates 
performance standards for every occupation with the Armed Forces. There 
are many occupational career fields in the Armed Forces that can easily 
translate to a civilian counterpart. Many occupations in the civilian 
workforce require a license or certification. In the Armed Forces, 
these unique occupations are performed to approved military standards 
that may meet or exceed the civilian license or certification criteria. 
Upon separation, many former military personnel, certified as 
proficient in their military occupational career, are not licensed or 
certified to perform the comparable job in the civilian workforce, thus 
hindering chances for immediate civilian employment and delaying career 
advancement. This situation creates an artificial barrier to employment 
upon separation from military service.
    A study by the Presidential Commission on Servicemembers' and 
Veterans' Transition Assistance identified a total of 105 military 
professions where civilian credentialing is required. The most easily 
identifiable job is that of a Commercial Truck Driver in which there is 
a drastic shortage of qualified drivers. Thousands of veterans must 
venture through each state's laws instead of a single national test or 
transfer of credentials from the military. We have testified alongside 
members of the trucking industry to Congress for the need for 
accelerated MGIB payments for these courses and other matters.
    The American Legion supports efforts to eliminate employment 
barriers that impede the transfer of military job skills to the 
civilian labor market, and supports efforts to DOD take appropriate 
steps to ensure that servicemembers be trained, tested, evaluated and 
issued any licensure or certification that may be required in the 
civilian workforce. The American Legion supports efforts to increase 
the civilian labor market's acceptance of the occupational training 
provided by the military.
Department of Labor Veterans Employment and Training Service (DOL-VETS)
    The mission of VETS is to promote the economic security of 
America's veterans. This stated mission is executed by assisting 
veterans in finding meaningful employment. The American Legion believes 
that by strengthening American veterans, we in turn strengthen America. 
Annually, DOD discharges approximately 300,000 servicemembers. Recently 
separated service personnel will seek immediate employment or 
increasingly have chosen some form of self-employment. In order for the 
VETS program to assist these veterans to achieve their goals, it needs 
to:

    <bullet> Improve by expanding its outreach efforts with creative 
initiatives designed to improve employment and training services for 
veterans;
    <bullet> Provide employers with a labor pool of quality applicants 
with marketable and transferable job skills;
    <bullet> Provide information on identifying military occupations 
that require licenses, certificates or other credentials at the local, 
state, or national levels;
    <bullet> Eliminate barriers to recently separated service personnel 
and assist in the transition from military service to the civilian 
labor market;
    <bullet> Strive to be a proactive agent between the business and 
veterans' communities in order to provide greater employment 
opportunities for veterans; and
    <bullet> Increase training opportunities, support and options for 
veterans who seek self-employment and entrepreneurial careers.

    The American Legion believes staffing levels for DVOPs and LVERs 
should match the needs of the veterans' community in each state and not 
be based solely on the fiscal needs of the state government. Such 
services will continue to be crucial as today's active duty 
servicemembers, especially those returning from combat in Iraq and 
Afghanistan, transition into the civilian world. Education, vocational 
and entrepreneurial training and employment opportunities will enable 
these veterans to succeed in their future endeavors. Adequate funding 
will allow the programs to increase staffing to provide comprehensive 
case management job assistance to disabled and other eligible veterans.
    The American Legion believes that military experience is essential 
to understanding the unique needs of the veteran and that all LVERs, as 
well as all DVOPs, should be veterans and should be additionally 
educated to be able to address the needs of veterans who desire 
entrepreneurial support.
    The American Legion also supports legislation that will restore 
language to Chapter 41, title 38, U.S.C., that require that half time 
DVOP/LVER positions be assigned only after approval of the DVET and 
that the Secretary of Labor would be required to monitor all career 
centers that have veterans on staff assigned. Public Law 107-288 has 
eliminated the requirement that DOL-VETS review all workforce centers 
annually and this has minimized Federal oversight of the programs since 
the ASVET has drastically cut funds allocated for this activity and 
established a policy that only 10 percent of the centers operated under 
title 38, U.S.C., will be reviewed, and Public Law 107-288 has removed 
the job descriptions of the DVOPs and LVERs from title 38, U.S.C., and 
given the States the ability to establish the duties and 
responsibilities, thus weakening the VETS program across the country by 
eliminating the language that required these staff positions provide 
services only to veterans.
Make Transitional Assistance Program (TAP)/Disabled Transitional 
        Assistance Program (DTAP) a Mandatory Program
    The American Legion is deeply concerned with the timely manner that 
veterans, especially returning wartime veterans, transition into the 
civilian sector. Annually, for the past 6 years, approximately 300,000 
servicemembers, 90,000 of them belonging to the National Guard and 
Reserve, enter the civilian sector each year.
    In numerous cases brought to the attention of The American Legion 
by veterans and other sources, many of these returning servicemembers 
have lost jobs, promotions, businesses, homes, and cars and, in a few 
cases, become homeless. The American Legion strongly endorses the 
belief that servicemembers would greatly benefit by having access to 
the resources and knowledge that the Transitional Assistance Program 
(TAP) and Disabled Transitional Assistance Program (DTAP) can provide 
and the TAP/DTAP program needs to update their program to recognize the 
large number of Guard and Reserve business owners who now require 
training, information and assistance while they attempt to salvage or 
recover from a business which they abandoned to serve their country.
    The American Legion strongly supports the Transition Assistance 
Program and Disabled Transition Assistance Program. Additionally, The 
American Legion supports that DOD require all separating, active-duty 
servicemembers, including those from Reserve and National Guard units, 
be given an opportunity to participate in Transition Assistance Program 
and Disabled Transition Assistance Program training not more than 180 
days prior to their separation or retirement from the Armed Forces.
    To ensure that all veterans, both transitioning and those looking 
for employment assistance well past their discharge, receive the best 
care; the DOL-VETS program must be adequately funded. However, we feel 
that the current funding levels are inadequate. Funding increases for 
VETS since 9/11 do not reflect the large increase in servicemembers 
requiring these services due to the Global War on Terrorism.
Military Occupational Specialty Transition (MOST) Program
    The American Legion supports legislation that will authorize $60 
million for the next ten years to fund the Service Members' 
Occupational Conversion and Training Act (SMOCTA). SMOCTA is a training 
program developed in the early 1990's for those leaving military 
service with few or no job skills transferable to the civilian market 
place. SMOCTA has been changed to the Military Occupational Specialty 
Transition (MOST) program, but the language and intent of the program 
still applies. If enacted, MOST would be the only Federal job training 
program available strictly for veterans and the only Federal job 
training program specifically designed and available for use by state 
veterans' employment personnel to assist veterans with barriers to 
employment.
    Veterans eligible for assistance under MOST are those with a 
primary or secondary military occupational specialty that DOD has 
determined is not readily transferable to the civilian workforce or 
those veterans with a service-connected disability rating of 30 percent 
or higher. MOST is a unique job training program because there is a job 
waiting for the newly trained veteran upon completion of training so 
that they can continue to contribute to the economic well being of the 
Nation.
    The American Legion recommends reauthorization of SMOCTA (now MOST) 
and adequate funding for the program.
Employment
    DVOPs provide outreach services and intensive employment services 
to meet the employment needs of eligible veterans, with priority to 
disabled veterans and special emphasis placed on those veterans most in 
need. LVERs conduct outreach to local employers to develop employment 
opportunities for veterans, and facilitate employment, training and 
placement services to veterans. In particular, many LVERs are the 
facilitators for the Transition Assistance Program employment 
workshops. There are inadequate appropriations to several states 
because of policies and practices that cause these states to receive 
fewer positions and/or less funding. This procedure caused a 
deterioration of the available services provided to veterans in those 
states, and adversely impacts the level of services provided. The 
American Legion, therefore, recommends increased funding for this 
program.
Homelessness (DOL-VETS)
    The American Legion notes that there are approximately 154,000 
homeless veterans on the street each night. This number, compounded 
with 300,000 servicemembers entering the private sector each year since 
2001 with at least a third of them potentially suffering from mental 
illness, requires that intensive and numerous programs to prevent and 
assist homeless veterans are available.
    The Homeless Veterans Reintegration Program (HVRP) is a competitive 
grant program. Grants are awarded to states or other public entities 
and non-profits, including faith-based organizations, to operate 
employment programs that reach out to homeless veterans and help them 
become gainfully employed. The purpose of the HVRP is to provide 
services to assist in reintegrating homeless veterans into meaningful 
employment within the labor force and to stimulate the development of 
effective service delivery systems that will address the complex 
problems facing veterans. HVRP is the only nationwide program focused 
on assisting homeless veterans to reintegrate into the workforce. The 
American Legion strongly supports this highly successful grant program.
Veterans Workforce Investment Program (VWIP)
    VWIP grants support efforts to ensure veterans' lifelong learning 
and skills development in programs designed to serve the most-at-risk 
veterans, especially those with service-connected disabilities, those 
with significant barriers to employment, and recently separated 
veterans. The goal is to provide an effective mix of interventions, 
including training, retraining, and support services, that lead to long 
term, higher wages and career potential jobs. The American Legion 
recommends fully funding VWIP.
Employment Rights and Veterans' Preference
    The Uniformed Services Employment and Reemployment Rights Act 
(USERRA) protects the civilian job rights and benefits of veterans and 
members of the Armed Forces, including National Guard and Reserve 
members. USERRA also prohibits employer discrimination due to military 
obligations and provides reemployment rights to returning 
servicemembers. VETS administers this law, conducts investigations for 
USERRA and Veterans' Preference cases, as well as conducts outreach and 
education, and investigates complaints by servicemembers.
    Since September 11, 2001, nearly 600,000 National Guard and Reserve 
members have been activated for military duty. During this same period, 
DOL-VETS provided USERRA assistance to over 410,000 employers and 
servicemembers.
    Veterans' Preference is authorized by the Veterans' Preference Act 
of 1944. The Veterans' Employment Opportunity Act (VEOA) of 1998 
extended certain rights and remedies to recently separated veterans. 
VETS was given the responsibility to investigate complaints filed by 
veterans who believe their Veterans' Preference rights have been 
violated and to conduct an extensive compliance assistance program.
    Veterans' Preference is being unlawfully ignored by numerous 
agencies. Whereas figures show a decline in claims by veterans of this 
conflict compared to Gulf War I, the reality is that employment 
opportunities are not being broadcast. Federal agencies as well as 
Federal contractors and subcontractors are required by law to notify 
OPM of job opportunities but more often than not these vacancies are 
never made available to the public. The VETS program investigates these 
claims and corrects unlawful practices. The American Legion recommends 
fully funding for Program Management that encompasses USERRA and VEOA.
Veteran- and Service Disabled Veteran-Owned Businesses
    The American Legion views small businesses as the backbone of the 
American economy. The impact of deployment on self-employed National 
Guard and Reserve servicemembers is tragic with a reported 40 percent 
of all businesses owned by veterans suffering financial losses and, in 
some cases, bankruptcies. Many small businesses have discovered they 
are unable to operate and suffer some form of financial loss when key 
employees (who are members of the Reserve component) are activated. The 
Congressional Budget Office in a report, ``The Effects of Reserve Call-
Ups on Civilian Employers,'' stated that it ``expects that as many as 
30,000 small businesses and 55,000 self-employed individuals may be 
more severely affected if their Reservist employee or owner is 
activated.'' The American Legion is a strong supporter of the ``Hope at 
Home Act of 2007,'' which is bipartisan legislation that would not only 
require the Federal Government to close the pay gap between their 
Reserve and National Guard servicemember's civilian and military pay 
but it would also provide tax credits up to $30,000 for small 
businesses with servicemembers who are activated.
    Additionally, the Office of Veterans' Business Development within 
the Small Business Administration (SBA) remains crippled and 
ineffective due to a token funding of $750,000 per year. This amount, 
which is less than the office supply budget for the SBA, is expected to 
support an entire nation of veterans who are entrepreneurs. The 
American Legion feels that this pittance is an insult to American 
veterans who are small business owners; consequently, this undermines 
the spirit and intent of Public Law 106-50 and continues to be a source 
of embarrassment for this country.
    The American Legion strongly supports increased funding of the 
efforts of the SBA's Office of Veterans' Business Development in its 
initiatives to provide enhanced outreach and specific community based 
assistance to veterans and self employed members of the Reserves and 
National Guard. The American Legion also supports legislation that 
would permit the Office of Veterans Business Development to enter into 
contracts, grants, and cooperative agreements to further its outreach 
goals and develop a nationwide community-based service delivery system 
specifically for veterans and members of Reserve components of the 
United States military.
    The American Legion recommends funding to enable the implementation 
of a nationwide community-based assistance program to veterans and self 
employed members of the Reserves and National Guard.
The National Veterans Business Development Corporation
    Congress enacted the Veterans Entrepreneurship (TVC) and Small 
Business Development Act of 1999 (Public Law 106-50) to assist veterans 
and service-connected disabled veterans who own small businesses by 
creating the National Veterans Business Development Corporation. 
Presently, the objectives of P.L. 106-50 (as originally envisioned) are 
not being met. The American Legion supports a close review of the 
organization.
    The American Legion encourages Congress to require reasonable 
``set-asides'' of Federal procurements and contract for businesses 
owned and operated by veterans. The American Legion also supported 
legislation that sought to add service-connected disabled veterans to 
the list of specified small business categories receiving 3 percent 
set-asides. Public Law 106-50 included veteran small businesses within 
Federal contracting and subcontracting goals for small business owners 
and within goals for the participation of small businesses in Federal 
procurement contracts. It requires the head of each Federal agency to 
establish agency goals for the participation by small businesses owned 
and controlled by service-connected disabled veterans, within that 
agency's procurement contracts.
    Agency compliance with P.L. 106-50 has been minimal with only two 
agencies self-reporting that they have met their goals (the Department 
of Veterans Affairs and the Small Business Administration). In 2004, 
President Bush issued Executive Order 13360 to strengthen opportunities 
in Federal contracting for service-disabled veteran-owned businesses.
    The American Legion recommends:

    <bullet>  Incorporate Executive Order 13360 into SBA Regulations 
and Standard Operating Procedures

    The American Legion endorses these recommendations from the ``SBA 
Advisory Committee on Veterans Business Affairs'' FY 2006 SBA report:

    <bullet> Change to Sole Source Contracting Methods
    <bullet> Develop a User Friendly Veteran Procurement Data base
                       home loan guaranty program
    VA's Home Loan Guaranty program has been in effect since 1944 and 
has afforded approximately 18 million veterans the opportunity to 
purchase homes. The Home Loan program offers veterans a centralized, 
affordable and accessible method of purchasing homes in return for 
their service to this Nation. The program has been so successful over 
past years that not only has the program paid for itself, but has also 
shown a profit in recent years. Administrative costs constitute a 
relatively small portion--less than 10 percent--of the total capital 
and operating costs. The predominant costs are claims costs and other 
costs associated with foreclosure and alternatives taken to avoid 
foreclosure. Each claim costs the Federal Government about $20,000. 
However, revenues that VA collects from different sources, including 
the funding fee that borrowers pay, property sales, and proceeds from 
acquired loans and vendee loans, offset this cost.
    The VA funding fee is required by law and is designed to sustain 
the VA Home Loan Program by eliminating the need for appropriations 
from Congress. Congress is not required to appropriate funding for this 
program; however, because veterans must now `buy' in to the program, it 
no longer serves the intent of helping veterans afford a home.
    The fee, currently 2.15 percent on no-down payment loans for a 
first-time use, is intended to enable the veteran who obtains a VA home 
loan to contribute toward the cost of this benefit and thereby reduce 
the cost to taxpayers. The funding fee for second time users who do not 
make a down payment is 3.3 percent. The idea of a higher fee for second 
time use is based on the fact that these veterans have already had a 
chance to use the benefit once, and also that prior users have had time 
to accumulate equity or save money toward a down payment.
    The following persons are exempt from paying the funding fee:

    <bullet> Veterans receiving VA compensation for service-connected 
disabilities.
    <bullet> Veterans who would be entitled to receive compensation for 
service-connected disabilities if they did not receive retirement pay.
    <bullet> Surviving spouses of veterans who died in service or from 
service-connected disabilities (whether or not such surviving spouses 
are veterans with their own entitlement and whether or not they are 
using their own entitlement on the loan).
    The funding fee makes the VA Home Loan program less beneficial 
compared to a standard, private loan in some aspects. The funding fee 
mandates the participant to buy in to the program; however that goes 
directly against the intention of the law, to provide veterans a 
resource for obtaining a home. The American Legion believes that it is 
unfair for veterans to pay high funding fees of 2 to 3 percent, which 
can add approximately $3,000 to $11,000 for a first time buyer. The VA 
funding fee was initially enacted to defray the costs of the VA 
guaranteed home loan program. The current funding fee paid to VA to 
defray the cost of the home loan has had a negative effect on many 
veterans who choose not to participate in this highly beneficial 
program. Therefore, The American Legion strongly recommends that the VA 
funding fee on home loans be reduced or eliminated for all veterans 
whether active duty, Reserve, or National Guard.
                           homeless veterans
    The American Legion supports the efforts of public and private 
sector agencies and organizations with the resources necessary to aid 
homeless veterans and their families. The American Legion supports 
proposals that will provide medical, rehabilitative and employment 
assistance to homeless veterans and their families. Homeless veteran 
programs should be granted full appropriations to provide supportive 
services such as, but not limited to outreach, health care, 
habilitation and rehabilitation, case management, daily living, 
personal financial planning, transportation, vocational counseling, 
employment and training, and education.
    The American Legion applauds the Department of Housing and Urban 
Development (HUD)--Veterans Affairs Supported Housing (VASH) program. 
This program allowed HUD and VA to make up to 10,000 supportive 
incremental housing vouchers available to homeless veterans. The 
American Legion urges continued support of this program.
Homeless Providers Grant and Per Diem Program Reauthorization
    In 1992, VA was given authority to establish the Homeless Providers 
Grant and Per Diem Program under the Homeless Veterans Comprehensive 
Service Programs Act of 1992, P.L. 102-590. The Grant and Per Diem 
Program is offered annually (as funding permits) by the VA to fund 
community agencies providing service to homeless veterans. VA can 
provide grants and per diem payments to help public and nonprofit 
organizations establish and operate supportive housing and/or service 
centers for homeless veterans. Funds are available for assistance in 
the form of grants to provide transitional housing (up to 24 months) 
with supportive services, supportive services in a service center 
facility for homeless veterans not in conjunction with supportive 
housing, or to purchase vans. The American Legion strongly supports 
increasing the funding level for the Grant and Per Diem Program.
Domiciliary Care for Homeless Veterans Program
    DCHV operates 34 sites, with 1,833 dedicated domiciliary beds, 
providing time limited residential treatment with long-term physical, 
psychological, and rehabilitative counseling and services including 
aftercare. This program annually provides residential treatment to 
nearly 5,200 homeless veterans. The American Legion supports the 
program.
Veterans Industries/Compensated Work Therapy Program
    VI/CWT offers vocational and rehabilitative services, ranging from 
evaluation and counseling to participation in compensated work and 
vocational training. Since 1994 over 32,000 veterans have been 
successfully reintegrated into society as responsible members of the 
community through this program. The American Legion supports the 
program.
Homeless Women Veterans and Children
    Homeless veterans' service providers' clients have historically 
been almost exclusively male. That is changing as more women veterans 
and women veterans with young children have sought help. Additionally, 
the approximately 200,000 female Iraq veterans are isolated during and 
after deployment making it difficult to find gender-specific peer-based 
support. Access to gender-appropriate care for these veterans is 
essential.
    Homeless veteran service providers recognize that they will have to 
accommodate the needs of the changing homeless veteran population, 
including increasing numbers of women and veterans with dependents. 
Access to family housing through the distribution of the thousands of 
new Section 8 vouchers that will be made available through the HUD-VASH 
program will offer an important new resource allowing VA staff to 
assist the veteran and her family.
    The American Legion supports adequate funding for all domiciliary 
programs for qualified veterans. This includes funding for gender-
specific, peer-based support and access to gender-appropriate care.
                                summary
    The American Legion appreciates the strong relationship we have 
developed with the Committee. With increasing military commitments 
worldwide, it is important we work together to ensure that the services 
and programs offered through VA and other government agencies are 
available to the new generation of American servicemembers who are 
returning home as well as for the veterans of prior conflicts.
    The American Legion is fully committed to working with each of you 
to ensure that America's veterans receive the benefits they have 
earned. Whether it is improved accessibility to health care, timely 
adjudication of disability compensation claims, improved educational 
benefits or employment services, each and every aspect of these 
programs touches veterans from every generation. Together we can ensure 
that these programs remain productive, viable options for the men and 
women who have chosen to answer the Nation's call to arms.
                                 ______
                                 
 Response to Post-Hearing Questions from Hon. Daniel K. Akaka to Dean 
   Stoline, Assistant Director, National Legislative Commission, The 
                            American Legion
                                  ptsd
    Just this morning, the VA Inspector General issued a report on the 
Temple, Texas situation. Many will recall that a psychologist at that 
facility wrote a strangely worded email which set off a firestorm of 
concern for those who are suffering from PTSD. In a word, the IG found 
no systemic effort on the part of VA to reduce the number of PTSD 
claims via inappropriate diagnosis.

    Question 1. Is it your view that mental health issues, and 
particularly PTSD, are receiving appropriate attention, in terms of 
both compensation and care?
    Response. With regard to compensation, there are still problems 
with VA's processing of mental disorder claims. The American Legion 
``Quality Review Team'' has visited approximately 40 of VA's 57 
regional offices. During these visits we have discovered the following 
adjudication problems with both the establishment of service connection 
and the assignment of evaluation for mental disorders, including PTSD:

    Inadequate examinations--In some cases VA doctors do not assign 
global assessment of functioning (GAF) scores that are consistent with 
the symptomatology noted in the examination report.
    Premature negative decisions by VA adjudicators--for example, they 
rate on inadequate evidence, they fail to obtain potentially positive 
evidence, and in their efforts to take work credit they fail to return 
inadequate VA examinations for clarification or amendment.
    Inconsistent application of the General Rating Formula for Mental 
Disorders (38 CFR 4.130)--for example, veterans with similar symptoms 
and GAF scores often receive drastically different ratings.
    PTSD Claims--Unnecessary development (really development to deny) 
when there is sufficient evidence to support the existence of a 
stressor in service.

    With regard to PTSD care, there is a possibility that mental health 
services could be lacking due to lack of mental health professionals, 
such as psychiatrists. If a certain amount of psychiatrists are 
warranted, there are implications that adequacy of care isn't met when 
those personnel aren't in place. To date, such are the findings during 
The American Legion's 2009 site visits. As site visits progress, The 
American Legion can determine the extent of appropriateness of care.
                      collaboration on the issues
    Question 2. How can your organizations collaborate to address the 
concerns of those who veterans who are returning after service in Iraq 
and Afghanistan?
    Response. Please look at our responses to the question regarding 
``Outreach.''
                              vba staffing
    In light of the increased funding for VBA staffing, there are high 
expectations that VBA will improve the quality of claims decisions, and 
to do so in a timely 
manner.

    Question 3. What more do you believe Congress could do to assist in 
decreasing the backlog, and at the same time, improving timeliness and 
accuracy?
    Response. Congress should continue to conduct aggressive oversight 
of VA's claims processing system. Specifically, VBA must be required to 
provide better justification for the resources it says are needed to 
carry out its mission and, in particular, how it intends to improve the 
level of adjudicator training, job competency, and quality assurance.
                           oif/oef illnesses
    The Committee and, indeed, the full Congress, has focused a great 
deal of attention on mental health and TBI matters. Yet, the most 
common health condition of returning OEF/OIF veterans is not TBI or 
mental illness, but instead muscle and joint pain.

    Question 4. Do you have proposals on how to focus on this number 
one health concern from those who have served in Iraq and Afghanistan?
    Response. It is important the muscle and joint pain issue receive 
the same attention as Traumatic Brain Injury and mental illness. Just 
as the latter, the former must be implemented when conducting the Post-
Deployment Health Assessment (PDRHA). It must also be implemented 
during the servicemember's transition from active duty to civilian 
status. The American Legion believes that during the continuum of care 
process, the Department of Defense (DOD) and the Department of Veterans 
Affairs (VA) must educate servicemembers and veterans on mode of 
treatment of the aforementioned illnesses respectively.
                                outreach
    Question 5. How are your organizations, individually or in some 
cooperative fashion, working to outreach to veterans and encourage them 
to take advantage of VA care and services?
    Response. American Legion Outreach Programs:
Department (State) Service Officers
    American Legion Department Service Officers conduct direct outreach 
to veterans and their families regarding benefits available from VA. 
They also have specialized training and experience with VA regulations 
and are familiar with the many VA programs and services. They provide 
an invaluable service to veterans by representing them in the VA claims 
process or providing other assistance as needed. This service is free 
and the veteran does not have to be member to take advantage of it. 
When a veteran contacts The American Legion National Headquarters, 
views our Web site, or speaks to a Legion member, they are referred to 
that state's Department Service Officer. A Post Service Officer's Guide 
is distributed to 14,000 posts nationwide to help answer benefit 
questions which also serves as a referral source for veterans wishing 
to file claims.
Heroes to Hometowns
    In an effort to increase transparency and cooperation between DOD 
and the American people, The American Legion entered into an 
understanding with the Office of the Secretary of Defense's (OSD) 
Office of Military Community and Family Policy (MCFP) under the 
authority of the Deputy Under Secretary of Defense for Military 
Community and Family Policy, Leslye A. Arsht, to assist in outreach and 
assistance efforts to transitioning severely injured servicemembers. 
The American Legion agreed to provide outreach support to the military 
community's severely injured as they transitioned home through a 
program known as Heroes to Hometowns. This program embodies The 
American Legion's long standing history of caring for those ``* * * who 
have borne the battle * * *'' and their families.
    Heroes to Hometowns is designed to welcome home servicemembers who 
no longer serve in the military. The American public's strong support 
for our troops is especially evident in their willingness to help 
servicemembers who are severely injured in the war, and their ever-
supportive families, as they transition from the hospital environment 
and return to civilian life. Heroes to Hometowns is a program that 
focuses on reintegration back into the community, with networks 
established at the national and state levels to better identify the 
extraordinary needs of returning families before they return home and 
with the local community to coordinate government and non-government 
resources as necessary for as long as needed.
    There are three charter members in each State's Heroes to Hometowns 
Executive Committee, each uniquely able to contribute to overall 
support with the ability to tap into their national, state, and local 
support systems to provide essential links to government, corporate, 
and non-profit resources at all levels and to garner the all important 
hometown support.
    State Heroes to Hometowns Committees are the link between the 
Military Treatment Facilities and the community. The charter members 
consist of the State Office of Veterans Affairs, the State Transition 
Assistance Office and the State's veterans community represented by The 
American Legion. Heroes to Hometowns is a collaborative effort and The 
American Legion leads communities in preparation to support returning 
servicemember in areas such as:

    Financial assistance;
    Finding suitable homes and adapting as needed;
    Home and vehicle repairs;
    Transportation for veterans to medical appointments;
    Employment and educational assistance;
    Child care support;
    Arrange ``welcome home'' celebrations; and,
    Sports and recreation opportunities.

    When a transitioning veteran requests assistance via a web-form or 
brochure available through The American Legion, the veteran's contact 
information is shared with the State Executive Committee. The American 
Legion State offices refer the veteran's request to the local Post, 
which connects with the veteran to provide assistance. The American 
Legion focuses on those needs not provided by Federal and state 
agencies.
    To assist in the coordination of community resources, The American 
Legion 
supports OSD's Military Homefront Online Support Network for military 
personnel and community organizations to connect and collaborate. 
Located at www.homefrontconnections.mhf.dod.mil, this online network is 
dedicated to citizens and organizations that support America's service 
men and women. Through the support network, veterans can easily 
identify and quickly connect with national, state and community support 
programs.
    In 2007, the Heroes to Hometowns program expanded its vision to 
include all transitioning servicemembers, to include the underserved 
National Guard and Reserve components. Currently, the National Guard 
and Reserve do not have mandated TAP briefings when demobilizing. This 
hard-to-reach population primarily lives in rural America, disconnected 
from the traditional services provided by DOD or VA. The American 
Legion, with its 2.7 million members and 14,000 posts, reaches into 
these rural communities conveying a consistent message of strong 
support for America's military personnel; the veteran who return home; 
care for the veteran's family; and a patriotic pride in America. With 
the Heroes to Hometowns program, The American Legion reaches out to 
provide support long after the deployment is over.
Department of Veterans Affairs Voluntary Service (VAVS) Program
    The American Legion is a staunch supporter of VA's Voluntary 
Service (VAVS) program. In Fiscal Year 2007, some 7,527 regularly 
scheduled Legionnaires volunteered 909,137 hours at 167 VA facilities. 
Legionnaires volunteer at VA medical centers (VAMCs), Community-Based 
Outpatient Clinics, Vet Centers, and many other locations in support of 
hospitalized veterans.
    The American Legion recently entered into a pilot program with VA 
in creating Heroes to Hometowns VA Volunteer Coordinators at 10 VAMCs. 
These coordinators will work with the VAMC Social Work offices and 
identify transitioning servicemembers' needs with community resources. 
Currently, The American Legion is working with the VAVS program to 
increase the level of community support at VAMCs. By providing 
volunteer outreach training and resources to support a sustained 
outreach program, The American Legion is working to prepare the 
American Homefront for the return of our fighting men and women.
Department of Veterans Affairs OEF/OIF Welcome Home Celebration
    The American Legion is an active participant in the annual OIF/OEF 
``Welcome Home'' Celebration Event held at VAMCs nationwide. This event 
is designed to provide outreach services and offer valuable 
information, education and support to transitioning servicemembers and 
their families. Legionnaires answer questions about veterans' benefits, 
filing claims and military discharge review requests. Here in 
Washington, DC, during the Welcome Home event held at the DC VAMC, 
medical staff enrolled transitioning Marines into the VA medical system 
for their five years of free medical services, while community 
volunteers provided an environment of support with live music, food and 
valuable information about veterans' benefits and local community 
resources.
The American Legion Magazine
    The American Legion uses a multimedia approach to its outreach. The 
American Legion Magazine has historically provided valuable and timely 
information on the issues facing America's veterans. This tradition is 
carried on into the 21st Century via The American Legion Web site, 
www.legion.org, a hub for information, resources and specific points of 
contact for local assistance. A full library of informative brochures 
outline the leading issues facing America's veterans today to the 
furthest reaches of the American landscape. At any point, a 
transitioning veteran may receive assistance from The American Legion 
via informational brochures, printed media, web-based request forms, a 
1-800 call center, state veterans' service officers and most 
importantly, the local American Legion post.
The American Legion Local Post
    The American Legion Post is important in providing direct outreach 
as it provides a common meeting place for veterans and their families. 
The local Post may be the first place a veteran stops when returning 
home. It may be the first place where the community as a whole thanks a 
returning veteran for their service and sacrifice.
    Department of Virginia American Legion Post 270 is a leading 
example of the support provided by The American Legion family. Each 
year the food manufacturer ``Newman's Own'' awards financial grants to 
organizations that support the military. In 2004, Post 270 was awarded 
the Newman's Own ``Best Volunteer Program in the Country Supporting Our 
Active Duty Military and their Families'' for the post's outreach to 
Walter Reed Army Medical Center (WRAMC). All across America, American 
Legion Posts have partnered with businesses to assist returning 
veterans find gainful employment. Most notably, The American Legion has 
partnered with Military.com and Recruit Military on veteran-targeted 
job fairs.
    Within the past month, The American Legion worked with WRAMC to 
host a career and benefits fair for the injured servicemembers in 
outpatient care. Employers, many veterans themselves, meet with injured 
servicemembers and their supporting family member in a relaxed 
atmosphere. Servicemembers and family members were able to have dinner 
and meet with employers from all across the Nation.
    The American Legion works closely with DOD, VA and the Department 
of Labor (DOL) to assist transitioning veterans in accessing their 
benefits and resources in order to reach their fullest potential, 
regardless of location or disabilities. The American Legion believes 
that more emphasis should be placed on Heroes to Hometowns and programs 
that allow transparency within the government and utilizes the 
established resources with communities to fulfill the unmet needs of 
transitioning servicemembers. The American Legion has a proud history 
of securing and protecting the earned benefits of America's veterans. 
The American Legion stands ready to continue this legacy today by 
caring for those veterans returning from the current conflicts.
    The American Legion's departments and posts are in constant 
communication with their respective National Guard and Reserve units, 
nearest deployment posts, TAPs programs, and Standown hosts to ensure 
veterans have received or are receiving information and guidance on 
various issues that affects their concerns. In addition, The American 
Legion also informs these veterans of PDRHA times and locations to 
ensure these veterans and servicemembers aren't falling through the 
cracks.
                             women veterans
    Question 6. VA has said that sufficient programs and funding 
already exist to care for women veterans. What would you point to as 
specific problems or shortfalls with respect to women veterans and what 
do you recommend that the Committee do to address these concerns?
    Response. The issue of continuum of care remains a major issue 
among this Nation's women veterans. In addition, for those women 
veterans who suffer from Military Sexual Trauma (MST) and are 
apprehensive about going to their local VA medical centers, they 
(mainly by word of mouth) resort to the comfort of the Vet Center only 
to find that the Vet Center doesn't have a qualified MST counselor to 
accommodate the veteran. Consequently, there is a problem providing MST 
counselors to those suffering from MST. Although there is the challenge 
of providing adequate counseling to men suffering from MST, the 
additional challenge for women veterans is their adamant desire for 
anonymity. One remedy would be to have clinics with separate entrances 
for men and women veterans and more female counselors.
                               paperwork
    Question 7. What is your organization's opinion of VA's expanded 
paperwork protection policy that came about as a result of the 
Inspector General's audit which found that VA regional office personnel 
had mishandled some claims documents--is VA's new policy on shredding 
appropriate?
    Response. The American Legion is pleased that VA took quick and 
decisive action to address this situation. However, there are concerns 
that the measures put in place are ``overkill'' and actually hinder the 
regional office employee's efficiency and productivity. The American 
Legion's Quality Review Team will be closely monitoring the impact of 
this new policy during our regional office site visits and will be in a 
better position to answer this question in more detail later this year. 
Furthermore, VA should not be destroying a veteran's evidence. VA 
currently has regulations that allow VA to return duplicate information 
to the veteran and it should do so, rather than spend the staff time 
and money to shred evidence than at some future point in time might be 
relevant to the veteran's claim.
                                stimulus
    Question 8. The Senate stimulus package includes appropriations for 
VA, especially $3.7 billion included for VA infrastructure projects. 
What are your views?
    Response. We believe that VA should strive to award contracts to 
veteran-owned and service-disabled veteran-owned small businesses and 
that veterans should be employed to perform this work to the maximum 
extent possible and the Congress should oversee the expenditures of 
these funds to ensure these goals.
                                 ______
                                 
 Response to Post-Hearing Questions from Hon. Bernard Sanders to Dean 
   Stoline, Assistant Director, National Legislative Commission, The 
                            American Legion
              extended and different hours for va services
    As I mentioned in my opening remarks, I have heard from many 
veterans who want to get to the VA for care but they can't make it 
because of work. I believe we need to increase accessibility of the VA 
to all types of veterans, including those with full-time jobs, by 
providing evening and weekend hours so that people won't have to choose 
between going to work and keeping a VA appointment. This could also 
help reduce missed appointments which waste time and resources of VA 
staff. My office is currently exploring what kind of authority VA needs 
to begin providing extended hours on a one night a week and one weekend 
day a week basis, possibly in the form of a pilot program.

    Question. What do members of the panel think about this idea?
    Response. The VA implemented the Advanced Clinic Access (ACA) to 
prevent long delays in providing care throughout the Medical Center; 
alleviating the wait list was accomplished by conducting evening and 
weekend clinics. It is The American Legion's contention that the same 
could be done to accommodate those who work hours not conducive to VA's 
regular hours.

    Chairman Akaka. Thank you very much, Mr. Stoline.
    Now we will hear from Mr. Atizado.

STATEMENT OF ADRIAN M. ATIZADO, ASSISTANT NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Atizado. Mr. Chairman, Ranking Burr and other Members 
of the Committee, thank you for inviting the DAV to testify at 
this important hearing and to listen to our priorities for the 
111th Congress. We do appreciate your consideration as you 
prepare your legislative agenda.
    Our priorities include VA health care funding reform, 
disability compensation improvements, family caregiver support 
services, women veterans' health care, Traumatic Brain Injury, 
and mental health care and substance use disorders. For the 
sake of brevity, I will highlight only our recommendations and 
refer you to my written testimony for further details.
    On VA health care funding reform, the DAV thanks Chairman 
Akaka and the eight co-sponsors for introducing in the 110th 
Congress the Veterans' Health Care Budget Reform Act which 
received bipartisan support to achieve sufficient, timely and 
predictable veterans' health care funding. This bill would 
allow Congress to fund VA health care 1 year in advance and 
address transparency in VA's internal budget process. Advanced 
appropriation retains full Congressional discretion to set 
funding levels and Congress' ability to provide strong 
oversight over VA programs, services and policies.
    We look forward to its reintroduction and passage in the 
111th Congress.
    To improve VA's disability claims process, the cumbersome 
and lengthy administrative claims and appeals process can be 
streamlined by eliminating redundancies and creating an 
integrated electronic claims process. Training, quality 
assurance and accountability changes must be approached in that 
order while resisting hasty broad-brush approaches. Sir, our 
broad view is that VA should empower personnel with expertise 
to manage and reduce the claims backlog without eroding decades 
of progress.
    In the same vein, disabled servicemembers should have a 
seamless transition primarily by restructuring the substandard 
military disability evaluation system.
    For family caregivers and support services: Just as 
severely disabled veterans face daunting and lifelong 
challenges, so do their family caregivers who help maintain a 
veteran's quality-of-life and independence as they live in the 
community. While this role can exact a high cost on family 
caregivers, they seldom receive sufficient support services or 
financial assistance. In addition to psychosocial support 
services, VA should conduct individual needs assessment on 
family caregivers of severely disabled veterans as well as 
conduct a periodic national survey for planning and policy 
purposes.
    Women veterans' health care: To address existing health 
disparities, legislation is needed to ensure women veterans' 
health programs are properly assessed and enhanced so that 
access, quality, safety, and satisfaction with care is equal 
for women and men. VA should improve its ability to assess and 
treat women who have experienced combat or military sexual 
trauma and increase the use of gender-specific evidence-based 
treatments. Also, we believe VA should receive the resources to 
have at least one provider with women's health expertise in 
each VA medical center.
    Traumatic Brain Injury or TBI is the signature injury to 
Iraq and Afghanistan war veterans, which can cause devastating 
and often debilitating and permanent damage. An increase in DOD 
and VA specialists with TBI expertise is needed, just as more 
research is needed to sustain the emerging evidence base for 
TBI. And while mild to moderate TBI can be much harder to 
diagnose, which often leads to lasting physical and 
psychological problems, proper screening and personalized 
recovery plans are essential to detect and treat TBI.
    Mental health care and substance abuse disorder: Although 
VA has improved its programs in recent years, the scope of care 
provided and its distribution across VA does not meet the needs 
of veterans. Studies looking at the trends of mental health and 
substance use disorders in Iraq and Afghanistan war veterans 
drive the need to ensure access to and make available robust 
services. Programs that integrate the best research evidence, 
clinical expertise and patient needs are critical to avoid 
long-term health consequences.
    The DAV thanks this Committee for its efforts last Congress 
in passing the Veterans Mental Health and Other Care 
Improvements Act of 2008, now Public Law 110-387.
    In conclusion, Mr. Chairman, we would like to thank you as 
well as Senators Durbin and Murray for introducing S. 252, the 
Veterans' Health Care Authorization Act of 2009. This bill, 
drawn in large part from a staff conference package based on 
S. 2969, the Senate bill in the 110th, contains many provisions 
that address our concerns I outlined herein.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions you or this Committee may have.
    [The prepared statement of Mr. Atizado follows:]
 Prepared Statement of Adrian Atizado, Assistant National Legislative 
                  Director, Disabled American Veterans
    Mr. Chairman, Ranking Member Burr and other Members of the 
Committee: Thank you for inviting the Disabled American Veterans (DAV) 
to testify at this important hearing of the Committee on Veterans' 
Affairs. DAV is an organization of 1.3 million service-disabled 
veterans, and devotes its energies to rebuilding the lives of disabled 
veterans and their families.
    As you may be aware, our DAV advocacy campaign, Stand Up For 
Veterans, is well underway. Its purpose is to generate greater public 
understanding and build support for changes in veterans' health care 
programs, benefits, and services for all the men and women injured or 
disabled in service to the Nation, including those from the wars in 
Iraq and Afghanistan, as well as those from prior eras and conflicts. 
In this effort, our campaign focuses our organization's priorities 
which we hope this Committee will consider as it prepares its 
legislative agenda for the 111th Congress:

    <bullet> VA Health Care Funding Reform
    <bullet> Disability Compensation Improvements
    <bullet> Family Caregiver Support and Services
    <bullet> Women Veterans Health Care
    <bullet> Traumatic Brain Injury
    <bullet> Mental Health Care and Substance-use Disorder
                     va health care funding reform
    While great strides have been made in Congress to increase the 
level of Department of Veterans Affairs (VA) health care funding during 
the past several years, there is a long history of significant delays 
in receiving those funds. Notwithstanding notable improvements in the 
past two years, VA has received its annual funding for veterans' health 
care late in 19 of the past 22 years. Unlike Medicare or Medicaid, the 
VA must rely on Congress and the President to pass a new appropriations 
law each year to provide VA hospitals and clinics with the funding they 
need to treat sick and disabled veterans.
    Due to the late and unpredictable budget process, VA is 
increasingly challenged to properly treat the physical and mental scars 
of war for all veterans needing care. Further, not knowing when or at 
what level VA will receive funding from year to year--or whether 
Congress will approve or oppose the Administration's proposals--hinders 
the ability of VA officials to efficiently plan and responsibly manage 
VA health care.
    Broken financing causes unnecessary delays and backlogs in the 
system: hiring key staff is put off, or just not done, while injuries 
like PTSD or TBI are too often not diagnosed or treated in a timely 
manner. Since 2001, the number of VA patients has grown by two 
million--a 50 percent increase--and our newest generation of veterans 
has increasingly complex mental and physical health care needs that 
will require a lifetime of care. Moreover, a 2007 report by the VA's 
Office of Inspector General concluded that 27% of the injured veterans 
seeking treatment at VA facilities had to wait more than 30 days for 
their appointments.
    For the past decade, the DAV and its allies in the Partnership for 
Veterans Health Care Budget Reform--a coalition of nine veterans 
service organizations with a combined membership of eight million 
veterans--have sought to fundamentally change the way veterans health 
care is funded. While mandatory funding has been the focus over the 
past several years, the Partnership helped develop and fully endorsed 
S. 3527, the Veterans Health Care Budget Reform Act, introduced in the 
110th Congress. This legislation has also been endorsed by The Military 
Coalition, comprised of 35 organizations representing more than 5.5 
million members of the uniformed services--active, reserve, retired, 
survivors, veterans--and their families. The DAV thanks the Chairman of 
this Committee and his eight co-sponsors for introducing this measure 
which received bipartisan support and has been endorsed by then 
President-elect Obama and [the recently confirmed] VA Secretary Eric 
Shinseki.
    We believe this legislation proposes a reasonable alternative to 
achieve the same goals as mandatory funding, by authorizing Congress to 
appropriate funding for veterans' health care one year in advance and 
adding transparency to VA's internal budget process. With the goal of 
ensuring sufficient, timely, and predictable veterans health care 
funding through advance appropriations, Congress retains full 
discretion to set funding levels for each fiscal year, and the 
legislation does not eliminate, reduce or diminish Congress' ability to 
provide strong oversight over VA programs, services and policies.
    Introduction and passage of the Veterans Health Care Budget Reform 
Act in the 111th Congress would address DAV's highest priority in VA 
health care.
                 improving va disability claims process
    The Department of Veterans Affairs (VA) disability claims process 
is a complex and burdensome system whose timeliness has declined in 
recent years to unacceptable levels, resulting in more than 800,000 
backlogged claims. The complexity of this challenge ensures that there 
is no ``magic bullet'' solution capable of quickly resolving the claims 
backlog. Our broad view is that it is imperative that VA empower 
personnel with exceptional knowledge of current processes to manage and 
reduce the claims backlog without eroding decades of progress. The DAV 
believes the cumbersome and lengthy administrative claims and appeals 
process can be streamlined (1) by merging and eliminating redundancies 
within the benefits delivery system, and (2) integrating its electronic 
framework into a single, state-of-the-art information system to create, 
as much as practical, a new electronic claims process.
    Another reality intertwined with the foregoing is that the quality 
assurance and training programs in use by the Veterans Benefits 
Administration are inadequate as tools to sample the validity of 
decisions on claims. The VA must fundamentally change its quality 
assurance/accountability systems and training programs in order to 
successfully reform the compensation system. However, the underlying 
challenge here is that it must do so without significant infrastructure 
changes.
    Similar to the claims process itself, the Veterans Benefits 
Administration's (VBA) training programs are plagued by a lack of 
accountability that perpetuates VA's inability to produce accurate and 
equitable decisions on claims. Training, quality assurance, and 
accountability changes must be approached in that order, while VBA 
resists hasty broad-brush approaches. Subject matter experts from all 
corners of the veterans' benefits arena should collaborate toward one 
goal--improve training in order to improve rating quality, and hold 
employees accountable in order to assure a quality product.
    Military personnel injured on active duty have been hamstrung with 
a Department of Defense (DOD) disability evaluation system that 
discharges them from active duty with unacceptable variances in 
disability ratings. These outcomes are the result of the current system 
which is unmanageable and inconsistent. The problem has been a focus of 
veterans service organizations for a substantial period of time and our 
observations were validated by the Veterans' Disability Benefits 
Commission which was chartered by the National Defense Authorization 
Act of 2004. In its review, the commission found for example that the 
Army is less likely than other military groups to assign a disability 
rating of 30% or more, the cutoff for a person to receive lifetime 
retirement payments and health care. The Pentagon has a strong 
incentive to assign ratings of less than 30% so the Services can avoid 
paying higher disability benefits.
    The military announced on November 7, 2008 an expansion of the 
Disability Evaluation System Pilot with all military services now 
taking part in a follow-on of the National Capitol Region test program. 
Now wounded servicemembers leaving the military may have easier, 
quicker access to their veterans' benefits under this expanded pilot 
program that will offer streamlined disability evaluations. That is, 
provided they are of the fortunate few assigned to one of the 19 
military installations. The initial phase of the expansion started on 
October 1, at Fort Meade, Maryland and Fort Belvoir, Virginia. The 
remaining 17 installations will begin upon completion of site 
preparations and personnel orientation and training, during an eight-
month period from November 2008 to May 2009.
    Although the Disability Evaluation System Pilot is a notable 
improvement, its productivity pace was slow with only 700 
servicemembers who participated in the pilot having their cases 
finalized over a ten-month period. The issues that hinder the timely 
resolution of disability claims by the VA for veterans are the same as 
those for active duty servicemembers transitioning to veteran status.
                 family caregivers support and services
    The nature, prevalence, and degree of injuries that veterans of 
Operations Enduring and Iraqi Freedom (OEF/OIF) are sometimes so severe 
that family members, whose lives and livelihoods have been interrupted 
to care for their loved ones, need increased Federal support and 
assistance.
    They face daunting and life-long challenges. Often, they must drop 
everything to be at the bedside and take care of the physical and 
mental injuries of their sons, daughters, spouses, or parents. They 
must deal with a complex system of overlapping and changing support 
programs which poses a great challenge for family caregivers to 
understand and navigate, too often resulting in a state of confusion 
for the caregiver.
    Once severely disabled veterans return home, their family 
caregivers provide the needed support to maintain the veteran's quality 
of life and independence while living in their community. Even though 
it is widely recognized that informal caregiving can delay or avoid 
institutionalization of the veteran, caring for a severely disabled 
veteran exacts a high cost on family caregivers. They often shoulder 
physical burdens, mental strain, and psychosocial challenges as a 
result of their caregiving responsibilities. They face the disruption 
and change of their family's life, withdrawal from school or loss of 
employment and employer-based benefits, often sacrificing their own 
health, well-being, and economic future in order to care for a loved 
one.
    Although close family members are often willing to bear the burden 
of being primary caregivers for severely disabled veterans--thus 
relieving VA of that obligation or the cost of institutionalization--
they seldom receive sufficient support services or financial assistance 
from the government.
    The DAV believes these informal caregivers should receive a 
comprehensive array of support services, to include respite care, 
financial compensation, vocational counseling, basic health care, 
relationship, marriage and family counseling, and mental health care to 
address the multiple burdens they face. Among other things, a 
``Caregiver Toolkit'' should be provided to family caregivers, to 
include a concise ``recovery roadmap'' to assist families in 
understanding and maneuvering through the complex systems of care and 
Federal, state, and local resources available to them. Moreover, 
policymaking and planning to better serve family caregivers of severely 
injured veterans should include statistically representative data from 
a periodic national survey and individual assessments of family 
caregivers of severely injured and disabled veterans. By supporting the 
caregiver, we support the disabled veteran.
                       women veterans health care
    Although women have historically been a very small percentage of 
patients in the VA health care system, VA estimates that the number of 
women using VA health care services will double in less than five years 
if the current enrollment rate continues. In addition, of the more than 
102,000 women who have served and separated from military deployment in 
Iraq and Afghanistan, over 48,000 have already received health care 
from VA. With an unprecedented and increasing number of women in the 
military and serving in Iraq and Afghanistan, VA is challenged to 
provide consistent, comprehensive, quality health care services to 
women veterans today and in the future.
    Women returning from combat theaters have unique physical and 
mental health care needs. More women servicemembers are being exposed 
to combat situations, have experienced sexual trauma during military 
service, and need specialized post-deployment and mental health care 
services. The increasing demand for services and changing demographics 
of this population, coupled with the need to have more clinicians with 
women's health expertise, will challenge VA resources and service 
delivery systems.
    According to VA's own data, women veterans receive lower quality 
health care than men and do not consistently receive the recommended 
health care services to meet current VA standards. Unfortunately, VA 
has moved away from comprehensive women's health clinics in recent 
years, favoring a health services model that is fragmented and fails to 
adequately address the comprehensive needs of women veterans. It is 
critical that women veterans gain access to high quality primary and 
gender-specific care, as well as mental health services from qualified 
clinicians.
    Legislation is needed to ensure women veterans' health programs are 
properly assessed and enhanced so that access, quality, safety, and 
satisfaction with care are equal for women and men. To improve quality 
and reduce disparities in health care services for women receiving VA 
care, the Department should conduct a comprehensive long-term, 
longitudinal study on the unique health challenges facing women 
veterans who have served in combat theatres.
    VA must also redesign its women veterans care delivery model and 
establish an integrated system of health care delivery that covers a 
comprehensive continuum of care and serves as a best practice in the 
field. To accomplish this, VA should:

    <bullet> Identify and implement the best clinical models of care to 
meet the comprehensive health care needs of women veterans using the VA 
health care system;
    <bullet> Improve its ability to assess and treat women who have 
experienced combat and/or military sexual trauma; and increase the use 
of gender specific, evidence-based treatments; and
    <bullet> Receive sufficient resources to have at least one provider 
with women's health care expertise on duty at every VA medical 
facility.
                         traumatic brain injury
    Traumatic Brain Injury (TBI), a common injury to OEF/OIF veterans, 
can cause devastating and often permanent damage. Even mild-to-moderate 
TBI, which can be much harder to diagnose, will often lead to lasting 
physical and psychological problems. In addition, many OEF/OIF veterans 
have suffered ``mild''--but pathologically significant--brain injuries 
that have gone undiagnosed and largely untreated. Behavioral problems, 
memory loss, disruptive acts, depression and substance-use disorder are 
common symptoms associated with TBI.
    According to a RAND study released in April 2008, 19 percent of 
returning OEF/OIF servicemembers report possible TBI. The RAND study 
estimated that over 300,000 servicemembers had experienced TBI, but 
only 44 percent of these had been evaluated by a physician. Veterans 
with TBI often have difficulty communicating their health status or 
seeking proper assistance. Complicating this situation, many rural 
veterans are unable or unwilling to overcome the barrier of distance to 
reach the nearest VA medical facility.
    In order to detect and treat TBI, proper screening and personalized 
recovery plans are essential, particularly for those cases that are 
mild-to-moderate in severity. There is also a need to increase DOD and 
VA specialists with TBI expertise to assist in identifying and managing 
the complex conditions prevalent in this population. To date, DOD lacks 
a system-wide approach for identification, management, and surveillance 
of individuals who sustain mild-to-moderate TBI in combat, and VA 
programs addressing the needs of servicemembers with mild-to-moderate 
TBI have not been fully developed or implemented.
    More research is necessary to understand the long-term consequences 
of TBI, as well as the development of best practices in treating these 
injuries. These studies should also focus on older veterans who may 
have suffered these injuries in earlier wars, detect mild-to-moderate 
cases of TBI, and study their consequences. With Congressional 
oversight, we are hopeful that these needs will be met by the Defense 
and Veterans Brain Injury Center, one of the Defense Centers of 
Excellence, whose mission is to serve active duty military, their 
dependents and veterans with TBI through state-of-the-art medical care, 
innovative clinical research initiatives, and educational programs. In 
addition, we believe that a VA Central Office-based TBI program should 
be established which would be an effective means of organizing and 
improving VA's responsiveness to veterans with TBI.
                           mental health care
    According to VA, as of August 2008, over 945,000 OEF/OIF 
servicemembers have separated from military service. Of those, over 
400,000 OEF/OIF veterans have sought VA health care since 2002, and 
over 178,483 have received a diagnosis of a possible mental health 
disorder. Within that group, 105,465 have been given a probable 
diagnosis of Post Traumatic Stress Disorder (PTSD).
    The above-mentioned 2008 RAND study estimated that approximately 
300,000 OEF/OIF veterans had symptoms of PTSD or major depression with 
the best predictor for these conditions being exposure to combat trauma 
during deployment. Further, the report stated 53 percent of 
servicemembers with PTSD or depression sought help from a provider, but 
that 50 percent of those who sought care received minimally adequate 
treatment.
    Current research strongly suggests that PTSD can be treated 
successfully with appropriate therapies and evidence-based treatments. 
Although VA has improved its mental health programs in recent years, 
the scope of care provided, and its distribution across the 1,400 
existing VA sites of health care does not meet the needs of veterans 
with post-deployment PTSD, depression, and co-morbid substance use 
disorders. VA's National Mental Health Strategic Plan also reveals 
systematic shortfalls in veterans' access, and documents gaps in scope 
and quality of VA behavioral health programs nationwide.
    Congress should continue to oversee implementation of the VA's 
National Mental Health Strategic Plan and its Uniform Mental Health 
Services initiative. Frequent reports to document progress should be 
made to Congressional committees, consumer councils, veterans' service 
organizations including DAV, and to VA's Committee on Care of Veterans 
with Serious Mental Illness.
    VA should reformulate its approach to mental health to focus on 
recovery consistent with the principles of the New Freedom Commission 
on Mental Health, and VA should fully implement the recommendation of 
the Institute of Medicine to embrace these recovery therapies, while 
furthering research in PTSD, including research in improved screening 
methodologies and stigma reduction techniques.
                         substance-use disorder
    Substance-use disorders are occurring at high rates among OEF/OIF 
veterans, based on converging evidence from studies of active duty 
personnel and recently discharged veterans. Studies of returning 
reservists and active duty members indicate that approximately one 
quarter acknowledge an alcohol problem. Rates are higher for those with 
multiple deployments, a growing cohort as the war continues. This is 
consistent with national studies that find rates of substance use twice 
as high among those exposed to serious stress.
    Substance use occurs on a continuum ranging from non-problematic 
use to hazardous/harmful misuse to abuse to full dependence. For many 
of these OEF/OIF veterans their alcohol misuse or abuse is new. Binge 
drinking and citations for driving under the influence (DUI) are 
characteristic of misuse and abuse in this age population. Many of 
these veterans could benefit from short-term and early interventions, 
such as motivational counseling, which have proven their efficacy.
    Recent surveys of OEF/OIF veterans returning from deployment have 
found increasing incidence of alcohol and other substance misuse in 
this population. In an anonymous study of active duty personnel by the 
DOD, 23 percent of respondents acknowledged having a significant 
alcohol problem. Also, an Army study of soldiers serving in Iraq 
concluded that while about 12 percent of soldiers reported alcohol 
misuse, only 0.2 percent were referred for treatment. Of those 
referred, only a small number received care within 90 days of 
screening.
    Over the past decade, VA's substance use disorder treatment and 
rehabilitation services have been in decline. Only recently has VA 
begun to re-evaluate, rebuild and expand these specialized programs and 
to coordinate these services to address post-deployment mental health 
co-morbidities. Currently VA substance abuse treatment programs are 
targeted to veterans with severe substance abuse or dependence. Short-
term interventions specifically targeted to veterans with hazardous or 
harmful levels of use or early abuse are generally not available.
    VA should focus intensive efforts to improve and increase early 
intervention and prevention of substance-use disorder in the veteran 
population. Ready access to robust mental health and substance-use 
treatment programs are critical to avoiding long-term health 
consequences post-deployment. VA must also continue moving forward with 
a Uniform Mental Health Services policy initiative that includes proper 
screening and access to a full continuum of care for substance-use 
disorders at all VA facilities. While some progress has been made, the 
pace needs to increase.
    The DAV thanks this Committee for its efforts last Congress in 
passing S. 2162, the Veterans' Mental Health and Other Care 
Improvements Act of 2008 (Public Law 110-387). This act, supported by 
DAV, requires VA to provide a full continuum of care for substance-use 
disorders, including consistent and universal periodic screening in all 
its health-care facilities and programs involving OEF/OIF combat 
veterans--especially those in primary care. Congress must provide 
strong oversight and VA should aggressively enforce and implement these 
specialized programs, and ensure that sufficient funding is made 
available to achieve these goals.
    DAV has been pleased by Congressional responsiveness to many of the 
proposals emanating from our Stand Up For Veterans campaign that we 
have shared and discussed with Members of this Committee, your staff, 
and others in Congress. We thank the Chairman for introducing S. 252, 
the Veterans Health Care Authorization Act of 2009. This bill, drawn in 
large part from a staff conference package based on S. 2969 of the 
110th Congress, contains many provisions that would address our 
priorities and concerns. We urge its passage early in this Congress.

    Mr. Chairman, this concludes my statement and I would be happy to 
answer questions on these issues from you or other Members of the 
Committee.
                                 ______
                                 
Response to Post-Hearing Questions from Hon. Daniel K. Akaka to Adrian 
M. Atizado, Assistant National Legislative Director, Disabled American 
                                Veterans
                                  ptsd
    Just this morning, the VA Inspector General issued a report on the 
Temple, Texas situation. Many will recall that a psychologist at that 
facility wrote a strangely worded email which set off a firestorm of 
concern for those who are suffering from PTSD. In a word, the IG found 
no systemic effort on the part of VA to reduce the number of PTSD 
claims via inappropriate diagnosis.

    Question 1. Is it your view that mental health issues, and 
particularly PTSD, are receiving appropriate attention, in terms of 
both compensation and care?
    Response.
Compensation:
    The VBA recently improved/updated the Rating Schedule criteria for 
Traumatic Brain Injury (TBI), which was long overdue. We mention this 
because of the interplay between TBI and mental health disability. It 
therefore follows that the next logical step is to update the actual 
mental health rating criteria for PTSD, which we understand VBA to be 
undertaking. These moves by the Administration indeed show a proactive, 
albeit slow, approach to implementing changes that are vital to 
ensuring this generation's servicemembers receive compensation 
commensurate with their disabilities and their resulting limitations.
    With regards to obtaining service connection for PTSD, VBA still 
requires a veteran to show combat exposure via official military 
records, except in certain circumstances, such as diagnosis during 
service. For many veterans, this remains a virtual impossibility 
because of poor military record keeping, poor Department of Veterans 
Affairs (VA) claims' development procedures, or both. As VBA updates 
its rating criteria to incorporate 21st century understanding of 
disabilities, it too must update its ability, whether through 
application or through presumption, to determine who is and is not 
considered a combat veteran. We raise this issue in part to bring 
attention to the demoralizing reality of, following combat with the 
enemy, VA denying compensation to a veteran suffering from the 
debilitating effects of PTSD because his/her government refuses to 
accept that he/she actually saw combat with the enemy.
Care:
    Based on VA's quarterly report on VA health care utilization by 
veterans from the wars in Iraq and Afghanistan, the number of VA's 
possible diagnoses of PTSD has risen over the past seven years and at a 
greater rate of increase between each of the quarterly reports. Such 
trends allow VA to better determine the demand for health care services 
in the future.
    VA has undertaken a monumental transformation of its programs and 
services to focus on recovery from mental health conditions and post-
deployment readjustment issues and is under tremendous pressure to 
ensure implementation of the VA Mental Health Strategic Plan (MHSP) and 
Uniformed Mental Health Services (UMHS) package.
    Although the DAV is pleased about VA's UMHS initiative, we are 
extremely concerned about the estimated timeline, resources and 
staffing levels necessary to establish and freely implement the 
initiative. There are many features of the UMHS package that require 
transformations, such as recovery-oriented care that clinicians believe 
will take years to accomplish. With a national shortage of behavioral 
health personnel, we continue to hear reports from mental health 
practitioners in the field that the difficulty of recruiting and 
retaining behavioral health staff is a major contributing factor to the 
delay in spending mental health funding.
    Furthermore, VA has been a leader in research on efficacious 
interventions for severe PTSD, but, as documented in a November 2007, 
Institute of Medicine (IOM) report titled Gulf War and Health: Volume 6 
Physiologic, Psychologic, and Psychosocial Effects of Deployment 
Related Stress, these effective approaches are complex, expensive, and 
time consuming. Prolonged exposure therapy, an intensive specialized 
counseling treatment, was highlighted in the IOM report as being one of 
the few proven effective treatments supported by evidence-based 
research studies. The DAV is concerned that VA does not currently have 
the capacity to deliver intensive exposure therapy.
    We urge Congress to provide concentrated oversight of spending on 
mental health services and require VA to provide a full accounting and 
breakdown of resource allocation, distribution and outcomes of the 
initiative goals. Oversight of these programs will be critical to their 
success.
    The DAV believes we too must do our part of oversight as veterans' 
advocates. We believe the current advisory committee (the Committee on 
Care of Veterans with Serious Mental Illness Liaison Council) should be 
re-designated as a Secretary-level committee on mental health, armed 
with independent reporting responsibility to Congress. With the 
critical new focus on recovery moving away from the paternalistic 
doctor patient relationship toward the patient being a partner in 
determining the goals and the interventions necessary to achieve 
recovery, the DAV believes it is critical to develop recovery 
partnerships between VA planners, managers, clinicians, and the veteran 
users themselves. The new committee should include experts from both 
inside and outside VA; veteran consumers and consumer advocates, such 
as veterans service organizations (including the IBVSOs); and mental 
health associations concerned about VA programs and the veterans they 
serve.
                      collaboration on the issues
    Question 2. How can your organizations collaborate to address the 
concerns of those who veterans who are returning after service in Iraq 
and Afghanistan?
    Response. As a coauthor of The Independent Budget (IB), the DAV 
contributed to several articles within the document addressing the 
specific needs and concerns of veterans returning from the wars in Iraq 
and Afghanistan. The DAV is also one of nine veterans service 
organizations that constitute the Partnership for Veterans Health Care 
Budget Reform. Recognizing that a change is necessary to ensure that 
all eligible veterans--including those injured in Iraq, Afghanistan and 
elsewhere--have timely access to the quality medical care they need and 
deserve. The Partnership supports legislation in Congress that 
guarantees sufficient, timely and predictable funding for veterans 
health care.
                              vba staffing
    In light of the increased funding for VBA staffing, there are high 
expectations that VBA will improve the quality of claims decisions, and 
to do so in a timely manner.

    Question 3. What more do you believe Congress could do to assist in 
decreasing the backlog, and at the same time, improving timeliness and 
accuracy?
    Response. In the past couple of years, Congress has provided a 
level of VBA funding that has allowed the VA to finally hire what will 
hopefully prove to be a sufficient number of claims adjudicators. 
However, training and experience both take time. It would be unwise to 
remain idle during this interim. Congress must do its part to ensure 
that VBA now has the best tools possible to assist both new and 
seasoned employees in carrying out the mission of providing timely and 
accurate decisions on benefits claims.
    In order to meet this goal, the claims' processing system must 
become more efficient, but not at the expense of current benefits or 
fundamental rights provided by a grateful Nation. The DAV does not 
believe such sacrifices are necessary. Congress should seek the 
expertise of those that understand the benefits delivery system, 
whether inside or outside the agency. Together with these chosen 
experts, Congress and the agency should formulate a plan that will 
maximize every opportunity for the efficient administration of the 
claims process while seeking to enhance training and accountability 
without disrupting that process. Simultaneously, the agency should 
begin phase-in of new information systems that will allow for partial 
electronic claims processing.
    If Congress and the VBA can merge these goals into a comprehensive 
and cohesive plan, we believe the veterans' community is ready to lend 
its support as well so that all may enjoy a claims process worthy of 
the sacrifices of those it serves.
                           oif/oef illnesses
    The Committee and, indeed, the full Congress, has focused a great 
deal of attention on mental health and TBI matters. Yet, the most 
common health condition of returning OEF/OIF veterans is not TBI or 
mental illness, but instead muscle and joint pain.

    Question 4. Do you have proposals on how to focus on this number 
one health concern from those who have served in Iraq and Afghanistan?
    Response. To be battle-ready, soldiers deployed to Afghanistan and 
Iraq carry, on average, a combat load of about 92.6 lbs (13 lbs for 
electronics, 55 lbs for Uniform and Equipment, 24 lbs for the Weapon) 
but can often carry 120 pounds or more including body armor, helmets, 
canteens, weapons and other gear that soldiers strap in addition to the 
``monster rucksack.''
    For purposes of prevention against the natural rigors of military 
service, the DAV believes much work has been done and is currently 
underway to address the weight distribution and burden of the foot 
soldier to decrease the potential work-related musculoskeletal 
injuries. For example, weight reduction and function improvement in 
products include: Lightweight Helmets (Marines)/Modular Integrated 
Communication Helmet (Army). Both have about a 40 percent improvement 
in impact protection, increased durability and ergonomics, and a half-
pound reduction. The Improved Load Bearing Equipment (Marines), or 
rucksack, weighs 8.43 pounds and can hold up to 120 pounds and like the 
Army's Modular Lightweight Load-carrying Equipment, both systems are an 
improvement in load-carrying ability, with new suspension systems that 
are adjustable for varying torso lengths and better weight distribution 
at the shoulders and hips. The Modular Tactical Vest (Marines) weighs 
1-2 lbs more than the decade-old Interceptor body armor, but offers 
more protection with the side armor, and several other additions, and 
is designed to more effectively distribute its weight throughout the 
wearer's torso. The Army's Interceptor Outer Tactical Vest is more than 
3 pounds lighter than its predecessor, but provides an equal level of 
protection over an increased area. Other improvements have been made to 
individual equipment such as the Modular Sleep System which weighed 
less than its predecessor and a replacement with an Improved Sleeping 
System is underway.
    Body armor, rapid transport, and other life saving inventions have 
exponentially improved survival and care for soldiers during the wars 
in Iraq and Afghanistan. However, the treatment of their pain during 
medical transit from battlefield to combat hospitals is still often 
treated only with morphine which can cause side effects such as nausea, 
vomiting and respiratory depression, which are not experienced with the 
use of regional anesthesia. We believe that the innovative work being 
conducted by Army Lt. Col. (Dr.) Chester C. Buckenmaier III, chief of 
the regional anesthesia section at Washington's Walter Reed Army 
Medical Center (WRAMC) warrants the Committee's attention.
    Regional anesthesia affects a specific part of the body and allows 
for a patient to remain mostly cognizant during an operation, whereas 
general anesthesia affects the entire body. Patients that undergo 
regional anesthesia are found to have a quicker recovery time after 
surgery than those that undergo general anesthesia because they are not 
completely sedated, and they do not suffer the negative side effects of 
general anesthesia. Using a type of regional anesthesia called 
continuous peripheral nerve block (CPNB) is considered by experts as an 
important therapeutic tool in the anaesthetic and analgesic management 
of combat casualties at WRAMC.
    Lt. Col. Buckenmaier moved CPNB closer to the battlefield (21st 
Combat Support Hospital in Balad, Iraq) where he performed the first 
successful application of CPNB for pain management on SPC Brian Wilhelm 
in theater through evacuation. Expanding this program would require 
more physicians and CRNAs in the Army with the necessary training in 
advanced regional anesthesia.
    It is clear that the use of regional anesthesia such as CPNB is not 
meant as a primary anesthetic for every situation and it is not meant 
as a total replacement for the use of general anesthesia. However, 
benefits to the patient in the immediate are apparent. Research shows 
early and effective pain management in acute pain care is important to 
prevent the development of chronic painful conditions.
    In the VA, a recent study of Operation Iraqi Freedom and Operation 
Enduring Freedom (OIF/OEF) servicemembers receiving treatment in VA 
Polytrauma Centers found that pain is highly prevalent. The study also 
noted in its clinical implications that pain should be consistently 
assessed, treated, and regularly documented. The report concluded that 
poly-traumatically injured patients are at potential risk for 
development of chronic pain, and that aggressive and multidisciplinary 
pain management (including medical and behavioral specialists) is a 
necessity. The report suggested the phenomenon of pain is a new 
opportunity for VA research in evaluating long term outcomes; 
developing and evaluating education or policy initiatives designed to 
improve the consistency of assessment and treatment of pain across the 
VA continuum of care; and developing and evaluating valid pain 
assessment measures for the cognitively impaired.
    Regarding pain assessment and treatment for the cognitively 
impaired, OIF/OEF servicemembers and veterans, who suffer from 
Traumatic Brain Injury, or TBI, pose a unique problem with assessing 
pain. Poly-traumatic injury includes veterans suffering from TBI and 
amputation, auditory and visual impairments, spinal cord injury, mental 
health conditions and burns, not to mention a whole host of fractures 
and crushing and soft tissue trauma.
    According to the Defense and Veterans Brain Injury Center (DVBIC), 
some experts have estimated the incidence of TBI among wounded 
servicemembers to be as high as 22%. Between January 2003 and March 31, 
2008, DVBIC military, VA and civilian sites combined have seen a total 
of 6,602 patients with TBI. According to the VA, 60% or more of 
polytrauma survivors have some degree of brain injury. Brain injury is 
the most frequent problem treated at Polytrauma Rehabilitation Centers. 
With impaired cognition and communication skills, servicemembers and 
veterans suffer from attention and concentration deficits; memory 
problems; Problems with learning new skills and higher order reasoning. 
Such things affect a patient's ability to report pain, its severity and 
effectiveness of treatment. Moreover, an impaired patient is vulnerable 
to under-treatment and over-treatment.
    While there are consensus statements regarding assessing pain in 
cognitively impaired and non-verbal patients, these guidelines are 
based on studies in the elderly, children and persons who are intubated 
or unconscious. No tools have been validated for cognitively impaired 
polytrauma patients--younger adults with brain injuries--even though 
prevalence of pain after TBI has been estimated at 44% or more 
(Martelli et al, 2004; Sherman, et al, 2006).
    Given our concerns about implementation and standardization of pain 
assessment and treatment across the VA system, the DAV testified on 
June 5, 2008, before the House Committee on Veterans' Affairs 
Subcommittee on Health and on October 23, 2007, before the Senate 
Committee on Veterans' Affairs on the Veterans Pain Care Act of 2008, 
H.R. 6122 and S. 2160, respectively. We thank the Committee for its 
work to include the provisions of this bill, which were included in the 
Veterans' Mental Health and Other Care Improvements Act of 2008 (Public 
Law 110-387, Sec. 501). We believe the goals of this provision are 
laudable and in accord with providing high quality, comprehensive 
health care services to sick and disabled veterans. Having been signed 
into law, we believe strong oversight of VA's progress implementing 
these provisions is necessary.
                                outreach
    Question 5. How are your organizations, individually or in some 
cooperative fashion, working to outreach to veterans and encourage them 
to take advantage of VA care and services?
    Response. The DAV has an outreach program that includes our 
National Service Program for Veterans and Military Servicemembers, 
Mobile Service Office (MSO) Program, Information Seminars, Homeless 
Veterans, and Disaster Relief.
National Service Program for Veterans:
    Our largest endeavor in fulfilling our mission to serve our 
Nation's service-connected disabled veterans, their dependents and 
survivors is our National Service Program. In 88 offices throughout the 
United States and in Puerto Rico, the DAV employs a corps of 
approximately 260 National Service Officers (NSOs) who represent 
veterans and their families with claims for benefits from the VA, the 
DOD and other government agencies. Veterans need not be DAV members to 
take advantage of this outstanding assistance, which is provided free 
of charge.
    NSOs function as attorneys-in-fact, assisting veterans and their 
families in filing claims for VA disability compensation and pension; 
vocational rehabilitation and employment; education; home loan 
guaranty; life insurance; death benefits; health care and much more. 
They provide free services, such as information seminars, counseling 
and community outreach. NSOs also represent veterans and active duty 
military personnel before Discharge Review Boards, Boards for 
Correction of Military Records, Physical Evaluation Boards and other 
official panels.
National Service Program for Military Servicemembers:
    Transition Service Officers (TSOs) conduct or participate in pre-
discharge transition assistance briefings, the Disability Transition 
Assistance Program (DTAP), the Transition Assistance Program (TAP), 
review service treatment records, and confer with Department of Defense 
and Department of Labor facilitators and other participants in the 
discharge process. The TSO program also allows DAV to assist 
servicemembers in the development of evidence, completion of required 
applications and prosecution of claims for veterans benefits 
administered under Federal, state and local laws.
Mobile Service Office Program:
    Part of their outreach activities involves DAV's MSO Program 
designed to educate disabled veterans and their families on specific 
veterans' benefits and services.
    This outreach program generates considerable claims work on behalf 
of veterans and their families. NSOs, often aided by Department and 
Chapter Service Officers, travel to communities across the country to 
counsel and assist veterans with development of evidence, completion of 
required applications and prosecution of claims for veterans benefits 
administered under Federal, state and local laws.
    This program was revitalized in March 2001 and is the most 
extensive outreach effort in the history of our organization. Thanks to 
the generosity of a $1 million pledge from the Harley-Davidson 
Foundation in 2007, the DAV expanded the sites visited by the MSO to 
include Harley-Davidson dealerships, where benefits assistance is 
offered to veterans of all generations in communities where they live.
    These distinctive-looking and well equipped ``offices on wheels'' 
eliminate long trips some veterans in smaller towns and rural 
communities must take to visit our National Service Offices. The MSO 
program enhances DAV service to more veterans and their families.
Information Seminars:
    DAV's Veterans Information Seminars program is designed to educate 
disabled veterans and their families on specific veterans' benefits and 
services.
    This outreach program generates considerable claims work on behalf 
of veterans and their families. The job of the NSO is to seek out 
veterans, to discover if they have a claim, and to follow that claim 
through to a successful conclusion.
    DAV NSOs conduct these workshops and offer the best counseling and 
claim filing assistance to veterans and their dependents. This 
exceptional service is available free of charge and does not require 
DAV membership to take advantage of this 
service.
Homeless Veterans:
    The DAV helps homeless veterans make the transition from life on 
the streets to one of productivity and normalcy. Our motto, ``We Don't 
Leave our Wounded Behind,'' is a heartfelt principle, a rule, and a 
promise that we, as a grateful Nation, must keep. We must remain 
steadfast in our efforts to fulfill our promise to veterans by ensuring 
that no veteran who honorably served his or her country is ever left 
behind.
    The DAV Homeless Veterans Initiative, which is supported by DAV's 
Charitable Service Trust and Columbia Trust, promotes the development 
of supportive housing and necessary services to assist homeless 
veterans become productive, self-sufficient members of society. Our 
goal is to establish a partnership between the DAV and Federal, state, 
county, and local governments to develop programs to assist homeless 
veterans in becoming self-sufficient.
    Without question, proper VA assistance--including health care, 
substance abuse treatment, mental health services, education, and job 
training, etc.--will enable homeless veterans to improve their 
situations and begin the transition to once again become productive 
members of the society they served and defended.
Disaster Relief:
    The September 11, 2001 terrorist attacks were tragic and terrifying 
to say the least. Many veterans and their families who were adversely 
impacted by the tragic events visited our NSOs who provided these 
individuals with DAV Disaster Relief grants on the spot, without 
lengthy delays or red tape.
    The Gulf Coast hurricanes, the Iowa floods, tornados and fires are 
just some of the natural disasters that have adversely impacted 
veterans and their families. As many residents of stricken areas were 
evacuated to other communities, the DAV assisted qualified veterans at 
the various evacuation sites, and participated in outreach events 
coordinated by the VA.
    The DAV has provided millions of dollars in disaster relief grants 
in the aftermath of natural disasters and other emergencies in various 
areas around the Nation. DAV disaster relief grants may be issued for 
the purpose of providing food, clothing, and temporary shelter, or to 
obtain relief from injury, illness, or personal loss resulting from 
natural/national disasters that are not covered by insurance or other 
disaster relief agencies.
                             women veterans
    Question 6. VA has said that sufficient programs and funding 
already exist to care for women veterans. What would you point to as 
specific problems or shortfalls with respect to women veterans and what 
do you recommend that the Committee do to address these concerns?
    Response. The numbers of women now serving in our military forces 
are unprecedented in U.S. history and today, women are playing 
extraordinary roles in the conflicts in Afghanistan and Iraq. They 
serve as combat pilots and crew, heavy equipment operators, convoy 
truck drivers, and military police officers and serve in many military 
occupational specialties that expose them to the risk of combat, 
serious injury and death.
    As the population of women veterans undergoes exponential growth 
over the next decade, VA must act now to prepare to meet the 
specialized needs of the women who served. Overall, the culture of VA 
needs to be transformed to be more inclusive of women veterans and must 
adapt to the changing demographics of its women 
veteran users, taking into account their unique characteristics as 
young working women with child care and elder care responsibilities. VA 
needs to ensure that women veterans' health programs are enhanced so 
that access, quality, safety, and satisfaction with care are equal for 
women and men. We refer you to specific recommendations outlined in the 
``Women Veterans Health and Health Care Programs'' article in the 
Fiscal Year 2010 IB document, which is accessible online at 
www.independentbudget.org.
                               paperwork
    Question 7. What is your organization's opinion of VA's expanded 
paperwork protection policy that came about as a result of the 
Inspector General's audit which found that VA regional office personnel 
had mishandled some claims documents--is VA's new policy on shredding 
appropriate?
    Response. The DAV is glad to see that VA's own internal controls 
discovered the issue of document shredding. We are also pleased with 
VBA's actions downstream of their discovery. Government employees 
normally enjoy a presumption of law that they carried out their duties 
absent evidence they did not. It was therefore a near total requirement 
that such presumption be relaxed in the face of systematic record 
destruction.
    We are nonetheless concerned with the seemingly arbitrary dates VA 
chose to employ in the foregoing relaxed standards. That noted, we 
realize the difficulty in choosing any set of dates to relax 
evidentiary standards of proof regarding record submission.
    Moreover, the veteran community wants to see accountability. VA 
employees that destroy records that may otherwise prove beneficial to 
claimants perpetrate fraud upon VA beneficiaries. Title 38, United 
States Code, contains clear guidelines for punishment, such as fines 
and imprisonment, for claimants who defraud the government, but no 
equal guidelines for VA employees who commit similar acts. Such a 
legislative amendment would go far in healing wounds caused by these 
dishonorable acts.
                                stimulus
    Question 8. The Senate stimulus package includes appropriations for 
VA, especially $3.7 billion included for VA infrastructure projects. 
What are your views?
    Response. The stimulus package recommends a total of $3.574 billion 
to address VA's infrastructure needs, including support, oversight, 
implementing a new ``energy efficiency initiative,'' and an additional 
$195 million for development of paperless claims processing and 
development of systems required to implement the Post-9/11 G.I. Bill.
    The DAV has a resolution from its membership urging VA to redouble 
its efforts to request adequate funding in future budgets to ensure at 
minimum that VA fulfills the intent of its Capital Asset Realignment 
for Enhanced Services (CARES) initiative while examining other needs 
beyond those identified within the five-year period of the CARES 
initiative. Moreover, the resolution also urges Congress to provide 
appropriated funding sufficient to fulfill the needs for infrastructure 
identified through the CARES process, plus any other infrastructure 
needs VA identifies and justifies in the post-CARES period.
    As part of the IB, the DAV believes the ongoing implementation of 
VA's CARES indicates a large number of significant construction 
priorities. While Congress has provided $4.9 billion since fiscal year 
2004, the current backlog of partially funded CARES projects requires 
additional funding for completion. Furthermore, VA recently estimated 
major facility projects over the next five years would require over 
$6.5 billion. As the IB recommended a total of $2.252 billion for VA 
construction.
    The DAV also recognized the importance of State Veterans Homes that 
is providing more of VA's long-term care services to our Nation's aging 
and disabled veterans. Based on VA's mandated priority list for pending 
State Home construction grant applications for fiscal year 2009, there 
exists $434 million in Priority Group 1 applications for which the 
State has set aside matching funds. Applications in Priority Group 2-7 
would require $531 million. We support the $258 million provision in 
the stimulus package for the construction grants of State Veterans 
Homes.
    Finally, in our testimony before the Committee, the DAV believes 
the cumbersome and lengthy administrative claims and appeals process 
can be streamlined (1) by merging and eliminating redundancies within 
the benefits delivery system, and (2) integrating its electronic 
framework into a single, state-of-the-art information system to create, 
as much as practical, a new electronic claims process. Accordingly, we 
support the $195 million provision for the development of a paperless 
claims processing system.
                                 ______
                                 
  Questions for the Record from Senator Bernard Sanders to Adrian M. 
  Atizado, Assistant National Legislative Director, Disabled American 
                                Veterans
              extended and different hours for va services
    As I mentioned in my opening remarks, I have heard from many 
veterans who want to get to the VA for care but they can't make it 
because of work. I believe we need to increase accessibility of the VA 
to all types of veterans, including those with full-time jobs, by 
providing evening and weekend hours so that people won't have to choose 
between going to work and keeping a VA appointment. This could also 
help reduce missed appointments which waste time and resources of VA 
staff. My office is currently exploring what kind of authority VA needs 
to begin providing extended hours on a one night a week and one weekend 
day a week basis, possibly in the form of a pilot program.

    Question. What do members of the panel think about this idea?
    Response. As then Secretary of Veterans Affairs Jim Nicholson 
stated, ``Illness doesn't follow a 9-to-5 schedule.'' He directed VA 
medical centers to provide extended hours to ensure veterans are able 
to receive the medical care they earned. (June 15, 2007 VA Press 
Release).
    Moreover, in an attempt to better manage patient access to care, VA 
began a process several years ago of reengineering its clinic patient 
flow through the ``Advanced Clinic Access Initiative'' developed by the 
Institute for Health Improvement (IHI). The strategy emphasizes 
managing demand in order to improve patient flow and thus access to 
services, all within existing capacity constraints.
    In the VA New Jersey Health Care System, staff applied advanced 
access strategies first to primary care clinics and then specialty 
clinic. In reporting the results of this implementation, working down 
the backlog of appointments required adding appointments and clinic 
hours for a finite period of time--again, within existing resources.
    VHA contracted Booz Allen Hamilton to conduct an independent review 
of its scheduling process and metrics in response to VA Office of 
Inspector General (OIG) reports in 2005, 2007, and 2008, that found 
reported outpatient waiting times to be unreliable. In its final 
report, Booz Allen Hamilton made a number of recommendations including 
VA needing to take aggressive steps to use fixed infrastructure more 
efficiently. These strategies include providing services at off-peak 
hours, such as early mornings, evenings, and Saturdays, when fixed 
assets are, currently, largely unused. To do this effectively, 
facilities should conduct surveys to understand which veterans would 
use which services during alternate hours.
    We believe extending operating hours of VA clinics is a reasonable 
solution to increase capacity and access if there is corresponding 
increase in resources to mitigate any adverse effects of increased 
workload on participating health care providers and support personnel.

    Chairman Akaka. Thank you very much, Mr. Atizado. And now 
we will hear from Mr. Bowers.

STATEMENT OF TODD BOWERS, DIRECTOR OF GOVERNMENT AFFAIRS, IRAQ 
              AND AFGHANISTAN VETERANS OF AMERICA

    Mr. Bowers. I would just like to point out he got that in 
at 5 minutes exactly. Well done.
    Mr. Chairman, Ranking Member and Members of the Committee, 
thank you for inviting the Iraq and Afghanistan Veterans of 
America to testify here today and for giving us the opportunity 
to present our 2009 legislative agenda.
    On behalf of IAVA and our more than 125,000 members and 
supporters, I would also like to thank you for your unwavering 
commitment to our Nation's veterans.
    And I would also like to thank you all for braving the ice 
this morning to make it to this hearing. Maybe next year, we 
can do it in Hawaii, though that is not a formal 
recommendation.
    After 7 years of war, it has never been more critical to 
care for our Nation's veterans. I know because I am one of 
them. I still serve as a staff sergeant in the United States 
Marine Corps, and I should point out that my testimony today 
does not reflect the views or opinions of the Marine Corps.
    At IAVA, we are committed to making sure that no 
servicemember and no veteran is ever left behind. The mission 
of IAVA is to improve the lives of more than 1.7 million Iraq 
and Afghanistan veterans and their families.
    IAVA is proud to have worked with our fellow VSOs in local 
communities, with the media and in Washington to draw attention 
to the issues facing our troops and veterans, and to get those 
problems solved. Over the past 4 years, IAVA has grown into a 
driving force behind many legislative victories for veterans.
    In 2008, we saw unprecedented success. First and foremost 
was the passage of the new GI Bill which will ensure affordable 
college education for all veterans of Iraq and Afghanistan. 
IAVA also worked to increase health care funding by $4.5 
billion, to improve benefits for disabled veterans, to expand 
suicide prevention and to improve treatment for Traumatic Brain 
Injury. We have effectively partnered with many other veteran 
and military service organizations and also the Department of 
Defense, the Department of Veterans Affairs and Members of 
Congress to make these successes a reality.
    In 2008, IAVA launched a historic public service 
advertising campaign in partnership with the Ad Council. The 
groundbreaking multiyear effort seeks to ease the readjustment 
for servicemembers coming home from Iraq and Afghanistan. 
Extensive research was conducted to develop the Veteran Support 
Campaign, including focus groups around the country, extensive 
consultation with Iraq and Afghanistan veterans and the 
involvement of a panel of top mental health experts.
    All PSAs direct viewers to the first and only online 
community exclusive to Iraq and Afghanistan veterans. This 
innovative Web site will help veterans connect with one another 
and link them with comprehensive services, benefits assistance 
and mental health resources.
    A companion PSA campaign will be launched in 2009 that will 
engage and support the families and loved ones of Iraq and 
Afghanistan veterans. This is the most extensive veterans' 
public outreach by a non-profit in history, and we hope it will 
provide not only much-needed services but innovations and 
lessons learned to be shared and replicated by the VA and DOD.
    While we have accomplished landmark successes in 2008, 
thanks in large part to the work of this Committee, there is 
still more to do. We are hopeful the new administration and the 
new Congress will continue to focus on veterans' issues.
    Our 2009 legislative agenda, based on extensive processes 
of polling and seeking feedback from our 125,000-strong 
membership, makes recommendations in four areas crucial to 
today's veterans: mental health, homecoming, health care and 
government accountability.
    Attached you will find the complete legislative agenda and 
the IAVA legislative priorities. We have also provided hard 
copies for your convenience.
    At this time, I would like to highlight just a few of the 
most urgent issues facing Iraq and Afghanistan veterans.
    Ensuring thorough, professional and confidential screening 
for invisible injuries: IAVA supports mandatory, face-to-face 
and confidential mental health and TBI screenings by a licensed 
medical professional for all servicemembers before and after 
their combat tour. The goal of this is to remove the stigma and 
seal the crack that many veterans and servicemembers tend to 
fall through.
    Senator Burr, I could not agree with your comments more, 
that getting veterans in fast is the key to solving these 
problems.
    Of our membership that we were able to poll, those who 
sought treatment, 70 percent said it was useful. So the key is 
getting them in the door.
    Advance fund veterans' health care. Advance fund veterans' 
health care, emphasis. The best way to ensure timely funding of 
veterans' health care is to fully fund the Department of 
Veterans Affairs health care budget 1 year in advance. In 
addition, IAVA endorses the annual Independent Budget produced 
by leading veterans service organizations, including IAVA, as a 
blueprint for VA funding levels.
    I also agree with many of my members at the table today 
that this is key to ensuring that servicemembers get the 
appropriate care they need.
    Ending the passive VA System: The VA has traditionally been 
a passive, inward-looking system. Veterans must overcome 
tremendous bureaucratic obstacles to get the funding and 
services that the VA provides. Many veterans do not even know 
the benefits they are eligible for. The VA must develop a 
national strategy to promote the use of its services including 
advertising VA benefits, expanding VA outreach and modernizing 
the VA's online presence.
    Of our poll, we found that 72 percent of our members had 
visited the VA Web site, and their responses are, well, I just 
will not say any here today.
    We also had in our priorities veterans in the economic 
stimulus package. We have seen great successes already, and I 
thank the Committee for your work on this issue.
    Finally, to correctly implement the new GI bill: The 
historic Post-9/11 GI Bill, passed last year, included a 
provision to allow servicemembers to transfer their GI Bill 
education funding to a spouse or dependent. But the Congress 
and the Administration can and must keep the bureaucracy moving 
to keep this benefit a reality. Our office regularly receives 
phone calls where servicemembers are wondering when they are 
going to have this benefit and how will they understand it? And 
we do not have those answers yet.
    That concludes my testimony at this time. I thank the 
Committee. I will be happy to answer any questions.
    [The prepared statement of Mr. Bowers follows:]
Prepared Statement of Todd Bowers, Director of Government Affairs, Iraq 
                  and Afghanistan Veterans of America
    Mr. Chairman, Ranking Member, and Members of the Committee, thank 
you for inviting Iraq and Afghanistan Veterans of America (IAVA) to 
testify today, and for giving us the opportunity to present our 2009 
Legislative Agenda. On behalf of IAVA and our more than 125,000 members 
and supporters, I would also like to thank you for your unwavering 
commitment to our Nation's veterans.
    After seven years of war, it has never been more critical to care 
for our Nation's newest warriors. I know, because I am one of them. I 
still serve as Staff Sergeant in the United States Marine Corps. I have 
served two tours in Iraq, and just returned from an additional 
deployment last summer. At IAVA, we are committed to making sure that 
no servicemember, and no veteran, is ever left behind. The mission of 
IAVA is to improve the lives of the more than 1.7 million Iraq and 
Afghanistan veterans and their families. IAVA addresses critical issues 
facing our newest generation of heroes, including psychological and 
neurological injuries, a flawed disability benefits system, and the 
implementation of the historic new GI Bill. Founded in 2004 by a small 
group of Iraq veterans, IAVA is dedicated to educating the public about 
the wars in Iraq and Afghanistan, advocating on behalf of those who 
have served, and fostering a community for troops, veterans, and their 
families.
    IAVA is proud to have worked in local communities, with the media, 
and in Washington to draw attention to the issues facing our troops and 
veterans, and to get those problems solved. Over the past four years, 
IAVA has grown into a driving force behind many legislative victories 
for veterans. In 2008, we saw unprecedented success. First and foremost 
was the passage of the new GI Bill, which will ensure an affordable 
college education for all veterans of Iraq and Afghanistan. IAVA also 
worked to increase veterans' health care funding by $4.5 billion, to 
improve benefits for disabled veterans, to expand suicide prevention, 
and to improve treatment for Traumatic Brain Injury. We have 
effectively partnered with many other Veteran and Military Service 
Organizations, the Department of Defense, the Department of Veterans 
Affairs and Members of Congress to make these successes a reality. 
We're the new kids on the block, but we have made a substantial impact, 
in a very short time. All in all, IAVA saw progress on 20 of our 28 
legislative recommendations in 2008.
    In 2008, IAVA also launched a historic Public Service Advertising 
(PSA) campaign in partnership with the Ad Council. The groundbreaking, 
multiyear effort seeks to ease the readjustment for servicemembers 
returning home from Iraq and Afghanistan. Joining such iconic Ad 
Council PSA campaigns as ``Only You Can Prevent Forest Fires'' and 
``Friends Don't Let Friends Drive Drunk,'' the groundbreaking Veteran 
Support campaign will feature TV, radio, print and online PSAs, both in 
English and in Spanish. Extensive research was conducted to develop the 
Veteran Support Campaign, including focus groups around the country, 
extensive consultation with Iraq and Afghanistan veterans, and the 
involvement of a panel of top mental health experts. All PSAs direct 
viewers to the first and only online community exclusive to Iraq and 
Afghanistan veterans, www.CommunityofVeterans.org. This innovative Web 
site will help veterans connect with one another and link them with 
comprehensive services, benefits assistance, and mental health 
resources. A companion PSA campaign launching in 2009 will engage and 
support the families and loved ones of Iraq and Afghanistan veterans. 
This is the most extensive veterans public outreach by a non-profit in 
history, and we hope it will provide not only much needed services, but 
innovation and lessons learned to be shared and replicated by the VA, 
and DOD.
    While we have accomplished landmark successes in 2008, thanks in 
large part to the work of this Committee, there is still more to do. We 
are hopeful the new Administration, and the new Congress, will continue 
to focus on veterans issues. Our 2009 IAVA Legislative Agenda, based on 
an extensive process of polling and seeking feedback from our 125,000-
strong membership, makes recommendations in four areas crucial to 
today's veterans: Mental Health, Homecoming, Healthcare and Government 
Accountability.
    Attached you will find out complete Legislative Agenda, and the 
IAVA Legislative Priorities. At this time, I'd like to highlight just a 
few of the most urgent issues facing Iraq and Afghanistan veterans.
    Ensure Thorough, Professional, and Confidential Screening for 
Invisible Injuries. IAVA supports mandatory, face-to-face and 
confidential mental health and TBI screening by a licensed medical 
professional, for all servicemembers, before and after their combat 
tour.
    Advance-Fund Veterans' Health Care. The best way to ensure timely 
funding of veterans' health care is to fully fund the Department of 
Veterans Affairs (VA) health care budget one year in advance. In 
addition, IAVA endorses the annual Independent Budget, produced by 
leading veterans' organizations (including IAVA), as a blueprint for 
the VA funding levels.
    End the Passive VA System. The VA has traditionally been a passive, 
inward-looking system. Veterans must overcome tremendous bureaucratic 
obstacles to get the benefits and services that the VA provides. Many 
veterans do not even know what benefits they are eligible for. The VA 
must develop a national strategy to promote the use of its services, 
including advertising VA benefits, expanding VA outreach, and 
modernizing the VA's online presence.
    Prioritize Veterans in the Economic Stimulus Package. Caring for 
our veterans isn't just the right thing to do--it a sound economic 
investment. IAVA calls for tax credits for patriotic employers that 
hire new veterans and reservists, support for veterans struggling with 
student loans, and investment in shovel-ready projects like repairing 
veterans' hospitals and cemeteries.
    Correctly Implement the New GI Bill. The historic Post-9/11 GI 
Bill, passed last year, included a provision to allow servicemembers to 
transfer their GI Bill education funding to a spouse or dependent. But 
Congress and the Administration can and must keep the bureaucracy 
moving to make this benefit a reality.
    Thank you for your time.
                                 ______
                                 
                Iraq and Afghanistan Veterans of America
                        2009 Legislative Agenda
                         legislative priorities
    The IAVA Legislative Priorities are the most urgent actions 
Congress must take to ensure that veterans of Iraq and Afghanistan get 
the care and support they have earned.
A. Ensure Thorough, Professional, and Confidential Screening for 
        Invisible Injuries
    IAVA supports mandatory, face-to-face and confidential mental 
health and TBI screening by a licensed medical professional, for all 
servicemembers, before and after their combat tour. See recommendation 
1.1.
B. Advance-Fund Veterans' Health Care
    The best way to ensure timely funding of veterans' health care is 
to fully fund the Department of Veterans Affairs (VA) health care 
budget one year in advance. In addition, IAVA endorses the annual 
Independent Budget, produced by leading veterans' organizations 
(including IAVA), as a blueprint for the VA funding levels. See 
recommendation 3.1.
C. End the Passive VA System
    The VA has traditionally been a passive, inward-looking system. 
Veterans must overcome tremendous bureaucratic obstacles to get the 
benefits and services that the VA provides. Many veterans do not even 
know what benefits they are eligible for. The VA must develop a 
national strategy to promote the use of its services, including 
advertising VA benefits, expanding VA outreach, and modernizing the 
VA's online presence. See recommendations 1.2, 2.4, and 3.2.
D. Combat Veterans' Unemployment
    IAVA supports the expansion of employment training for troops 
leaving the military, tax credits for employers who hire troops and 
veterans, and a new ``Green-to-Green'' program to retrain veterans for 
high-paying jobs in the clean energy economy. See recommendation 2.3.
E. Cut the Claims Backlog in Half
    Hundreds of thousands of disabled veterans are awaiting an answer 
on their VA benefits claims. Errors in claims decisions are a primary 
source of the backlog. IAVA recommends a new evaluation system that 
holds claims processors accountable for the accuracy of their work. See 
recommendation 3.2.
F. Improve Health Care for Female Veterans
    11 percent of Iraq and Afghanistan veterans are women. They deserve 
the same access to health care as any other American veteran. IAVA 
supports prioritized hiring of female practitioners and outreach 
specialists, increased funding for specialized in-patient women-only 
PTSD clinics, and significant expansion of the resources available to 
women coping with Military Sexual Trauma. See recommendations 1.2, 3.3 
and 3.5.
G. Eradicate Homelessness Among Veterans
    About 150,000 veterans are homeless on any given night, and 
foreclosure rates in military towns are increasing at four times the 
national average. IAVA calls for 20,000 new HUD-VA Supportive Housing 
vouchers, an increase in the Grant and Per Diem allowances for 
community organizations to help homeless veterans, and an extensive 
outreach campaign to promote VA home loan and financial counseling 
services. See recommendation 2.4.
                            i. mental health
    Rates of psychological and neurological injuries among troops and 
new veterans are high and rising. But many troops and veterans are not 
getting the treatment they need.
    In a landmark 2008 RAND study, ``Invisible Wounds of War,'' almost 
20 percent of Iraq and Afghanistan veterans screened positive for Post 
Traumatic Stress Disorder (PTSD) or major depression. But less than 
half of those suffering from mental health injuries are receiving 
sufficient treatment. Multiple tours and inadequate time at home 
between deployments increase rates of combat stress.
    Troops in Iraq and Afghanistan are also facing neurological damage. 
When troops are near an exploding mortar or roadside bomb, the blast 
can damage their brains, often without leaving a visible injury. The 
vast majority of Traumatic Brain Injuries (TBIs) are mild or moderate. 
But the injury is widespread: 19 percent of troops report a probable 
TBI during deployment. Tens of thousands of troops are suffering from 
both psychological and neurological injuries.
    Untreated mental health problems can and do lead to family issues, 
substance abuse, homelessness and suicide. For female servicemembers in 
particular, divorce rates are very high; female soldiers faced an 8.8 
percent annual divorce rate, more than 2.5 times the national average. 
As of December 2008, there have been at least 196 military suicides in 
Iraq and Afghanistan. These numbers do not include the many veterans 
who commit suicide after their service is complete, whose fatalities 
are not tracked or reported.
    Troops and veterans face significant barriers to mental health 
care. The Department of Defense (DOD) relies on an ineffective, 
antiquated system of paperwork to conduct mental health evaluations, 
and access to mental health care is difficult. According to the 
Pentagon's Task Force on Mental Health, the military's ``current 
complement of mental health professionals is woefully inadequate.'' The 
National Defense Authorization Act for 2009 singled out mental health 
professionals as a critically short wartime specialty, and authorized 
new recruitment and multi-year retention bonuses for psychologists. But 
as of December 2008, the bonuses had yet to be implemented.
    Effective treatment is also scarce for veterans who have left the 
military. The VA has given mental health diagnoses to more than 178,000 
Iraq and Afghanistan veterans, or 45 percent of new veterans who visit 
the VA. But VA care is not always convenient. Veterans in rural 
communities are especially hard hit, and the availability and quality 
of health care for female veterans ranges widely.
    Exacerbating the problem of inadequate screening and treatment is 
the heavy stigma associated with receiving mental health treatment. 
More than half of soldiers and Marines in Iraq who test positive for a 
psychological injury report concern that they will be seen as weak by 
their fellow servicemembers. One in three of these troops worry about 
the effect of a mental health diagnosis on their career. As a result, 
many troops who need care do not seek it out.
    To learn more about troops' and veterans' psychological injuries, 
please see the 2009 IAVA Issue Report, ``Invisible Wounds: 
Psychological and Neurological Injuries Confront a New Generation of 
Veterans.'' All IAVA reports are available at www.iava.org/reports.
Mental Health Recommendations
1.1 Ensure Thorough, Professional, and Confidential Screening for 
Invisible Injuries
    <bullet> The Defense Department must supply mandatory, face-to-face 
and confidential mental health and TBI screening by a licensed medical 
professional, for all servicemembers, before and between 90 and 180 
days after return from combat.
    <bullet> To maximize the effectiveness of the TBI Veterans Health 
Registry, the DOD and the VA should establish a joint protocol to share 
existing and future operational situation reports (SITREPS) of all 
servicemembers exposed to blasts and other causes of head and neck 
injury.

1.2 Advertise VA Mental Health Services
    <bullet> The VA must receive specially-allocated funds to research, 
test and implement an effective national and local media strategy, that 
includes use of new and traditional media, to combat stigma and to 
promote the use of VA services such as Vet Centers and the Suicide 
Prevention hotline. The VA's campaign strategy should include a 
comprehensive plan to involve Veterans Service Organizations, and 
should promote behavioral and mental health services to underserved 
groups, including homeless veterans, rural veterans and female 
veterans.

1.3 Increase Mental Health Support for Military Families
    <bullet> Vet Centers should be authorized and funded to provide 
services to active-duty military servicemembers and their families. 
IAVA supports the expansion of VA mental health services to veterans' 
families, including children, parents, siblings and significant others, 
if the veteran is receiving VA treatment for mental health or 
behavioral health problems.
    <bullet> Adequate funding must be provided to implement fully the 
National Guard and Reserve Yellow Ribbon Reintegration Program, which 
provides reintegration training to reserve component troops and their 
families.
    <bullet> IAVA calls for a study to better identify the causes of 
marital strain and high divorce rates among active and reserve 
component servicemembers, including multiple deployments, mental health 
injuries, and gaps in family support programs, particularly for the 
families of female servicemembers.
    <bullet> IAVA supports funding for an independent review of the 
scope of family violence in the military, and an analysis of the 
effectiveness of the Department of Defense's response to the problem.

1.4 Combat the Shortage of Mental Health Professionals
    <bullet> DOD must implement a full range of special pays, including 
accession and multi-year retention bonuses, as well as incentive and 
bonus pays, at a sufficient level to effectively recruit and retain 
critically needed behavioral and mental health professionals. Congress 
should require a biannual report on the implementation and 
effectiveness of the current recruitment and retention bonuses for 
mental health professionals.
    <bullet> IAVA supports providing suicide prevention training within 
combat life-saver training, the emergency medical training troops 
receive from combat medics.

1.5 Address the Mental Health Needs of Female Troops and Veterans
    <bullet> IAVA supports increased funding for specialized in-patient 
women-only PTSD clinics.
    <bullet> To improve the quality of health care for female veterans, 
Vet Centers and VA medical facilities must be encouraged to hire female 
practitioners and outreach specialists, and especially female veterans.
    <bullet> The veterans' suicide hotline operators should receive 
additional training to respond to sexual assault-related calls.
    <bullet> IAVA supports increased funding for the Department of 
Defense's Sexual Assault Prevention and Response Office in order for it 
to expand its oversight role.

1.6 End Discrimination against Psychologically Wounded Troops
    <bullet> To ensure that servicemembers suffering from service-
connected psychological or neurological injuries have not been 
improperly discharged, IAVA recommends imposing an immediate moratorium 
on personality disorder discharges for combat veterans until an audit 
of past personality discharges is completed.
    <bullet> When troops seek voluntary alcohol and substance-abuse 
counseling and treatment, command notification should be at the 
discretion of the treating mental health professional.
                             ii. homecoming
    Even in the best of times, troops coming home from war face serious 
challenges reintegrating into civilian life. But as the economy 
falters, our newest veterans are being hit especially hard.
    Troops are facing serious challenges returning to the civilian 
workforce. Among Iraq and Afghanistan-era veterans of the active-duty 
military, the unemployment rate was over 8 percent in 2007, about 2 
percent higher than their civilian peers. In addition, National 
Guardsmen and Reservists, ``citizen soldiers'' who leave behind their 
civilian lives to serve alongside active-duty troops, are inadequately 
protected against job discrimination.
    In the most severe cases, economic hardship can push veterans into 
homelessness. Foreclosure rates in military towns are increasing at 
four times the national average, and almost 2,000 Iraq and Afghanistan 
veterans have already been seen in the Department of Veterans Affairs' 
homeless outreach program. Given the state of the economy, the problem 
is likely to worsen in the coming years.
    One major step forward for improving veterans' economic 
opportunities is almost complete. IAVA led the fight to provide today's 
veterans with the same kind of education benefits America provided to 
veterans of World War II. In June 2008, we won. The new ``Post-9/11'' 
GI Bill makes college affordable to 1.7 million veterans of Iraq and 
Afghanistan, but a number of technical fixes are necessary in 2009 to 
maximize the GI Bill's effectiveness.
    For more information about the transition challenges of new 
veterans, please see the 2009 IAVA Issue Reports, ``Careers After 
Combat: Employment and Education Challenges for Iraq and Afghanistan 
Veterans'' and ``Coming Home: The Housing Crisis and Homelessness 
Threaten New Veterans.'' All IAVA reports are available at 
www.iava.org/reports.
Homecoming Recommendations
2.1 Streamline and Simplify the Post-9/11 GI Bill
    <bullet> IAVA calls on Congress to oversee the accurate and timely 
implementation of all portions of the ``Post-9/11 GI Bill,'' including 
the tuition benefit, housing allowance, book stipend, and 
transferability provisions.
    <bullet> Eliminate the confusion of multiple education benefits by 
ensuring that the Post-9/11 GI Bill covers all types of education 
programs.
    <bullet> Veterans pursuing vocational and distance learning 
programs should be entitled to the same tuition benefits as veterans 
attending traditional colleges.
    <bullet> Rather than an unwieldy state-by-state benefit system, the 
Post-9/11 GI Bill benefit should have a national tuition cap tied to 
the price of the most expensive public school (currently about $13,000/
yr). Partial tuition payments should be based on a percentage of this 
cap, not individual tuition costs.
    <bullet> The Yellow Ribbon Program, which provides matching Federal 
funds for private school scholarships given to GI Bill recipients, 
should be universally available to those in reserve component.
    <bullet> Veterans with remaining educational entitlement should be 
able to use their benefit to pay back student loans.
    <bullet> Veterans attending school part time should receive a pro-
rated housing benefit.
    <bullet> Active Guard Reserve (AGR) service should be counted 
toward benefits calculations.

2.2 Defend Troops Against Job Discrimination
    <bullet> USERRA, the Uniformed Services Employment and Reemployment 
Rights Act, protects National Guardsmen and Reservists from 
discrimination based on their military service. IAVA supports the 
extension of USERRA protections to servicemembers working in domestic 
response operations, such as hurricane or wildfire missions.
    <bullet> Processing of USERRA claims should be consolidated within 
the jurisdiction of a single agency.
    <bullet> Federal and state governments should be held to the same 
standard of USERRA compliance as private sector employers.
    <bullet> Employers who knowingly violate USERRA job protections 
should face civil and criminal prosecution. Congress must direct tough 
enforcement of USERRA by the Departments of Justice and Labor, and give 
these agencies specific resources for this function. Violation of 
USERRA should be explicitly added to the list of offenses for which 
suspension or debarment from eligibility for Federal Government 
contracts is authorized.
    <bullet> Servicemembers who face employment discrimination based on 
their military service must be afforded their day in court, as intended 
by the original USERRA statute. USERRA complaints should be exempt from 
pre-dispute binding arbitration agreements.
    <bullet> To prevent employers from firing an employee while a 
USERRA claim is being processed, courts hearing USERRA complaints 
should be required to use their full range of legal powers, including 
injunctions.
    <bullet> The DOD should implement a notification program for 
servicemembers' employers specifically informing employees of their 
USERRA obligations.

2.3 Combat Veterans' Unemployment
    <bullet> The employment training in the Transition Assistance 
Program for separating servicemembers should be modernized and made 
mandatory for all active-duty troops leaving the military.
    <bullet> IAVA recommends tax credits for employers who, when their 
reserve component employees are called to active-duty for over 90 days, 
continue to support their employees by paying the difference between 
the servicemembers' civilian salary and their military wages.
    <bullet> IAVA supports a tax credit to promote the hiring of 
homeless veterans by reimbursing the employer for a percentage of the 
salary of the hired veteran.
    <bullet> Any economic stimulus proposals that promote ``green 
collar'' jobs should include a ``Green-to-Green'' program to retrain 
veterans for the new clean energy economy, and to encourage green 
employers to hire veterans.
    <bullet> The DOD should conduct a study of the differences between 
DOD and civilian vocational certifications in order to ease the 
transition of certifications into the civilian world.
    <bullet> To help mitigate the effect of frequent and lengthy 
deployments, IAVA supports new programs to provide small businesses 
owners in the National Guard and Reserves with additional access to 
capital, insurance, and bonding.

2.4 Eradicate Homelessness Among Veterans
    <bullet> IAVA calls for a one-year moratorium on mortgage 
foreclosure for any servicemember returning from a combat tour. This 
provision should not sunset before 2012, at the earliest. Lenders who 
fail to abide by the moratorium should face stiff civil and criminal 
penalties.
    <bullet> Congress should appropriate funding for a VA outreach and 
advertising campaign in regions hard-hit by the mortgage crisis that 
have high veteran and servicemember populations. The campaign should 
promote VA home loan and financial counseling services. Adequate 
funding should also be provided to ensure that the VA has enough loan 
counselors to cope with call volume.
    <bullet> IAVA calls for a dramatic expansion of the HUD-VA 
Supportive Housing voucher program, to include the funding of an 
additional 20,000 housing vouchers. To ensure that vouchers are 
reaching eligible homeless veterans, a study must be conducted to 
examine voucher utilization rates, barriers to finding housing, service 
delivery and coordination, and housing retention among veterans 
participating in the program.
    <bullet> The Grant and Per Diem (GPD) program payment rate should 
better match the actual cost to help a homeless veteran. The VA should 
be given the discretion to increase GPD payment rates up to 150% of the 
daily rate for programs that are high-cost due to their location or 
range of services.
    <bullet> IAVA supports a pilot program to test preventative 
strategies against homelessness at VA facilities. Potential strategies 
should include emergency cash assistance, help with utilities, and 
short-term rental subsidies.
    <bullet> IAVA endorses a VA ``GreenHomes'' program that would 
convert underutilized VA properties into energy-efficient permanent 
housing for homeless veterans.

2.5 Protect Servicemembers from Unfair Contracts
    <bullet> Students who are deployed overseas should be reimbursed by 
their college or university for tuition paid toward interrupted 
coursework.
    <bullet> Servicemembers should be protected from early termination 
fees if a servicemember terminates a lease due to a deployment.
    <bullet> Protections allowing servicemembers to suspend or cancel 
cell phone contracts should be extended to servicemembers whose service 
contract is a part of a shared family account.
    <bullet> Active-duty and recently separated servicemembers and 
their families should not be denied in-state tuition rates at local 
public universities due to a failure to meet state residency 
requirements.

2.6 Steer Veterans to Alternative Sentencing
    <bullet> A pilot program should be funded to test the effects of 
alternative sentencing for veterans suffering from combat related 
stress injuries who are arrested for non-violent crimes. The pilot 
should build on the work of the Veterans Court in Buffalo, NY. The 
results of this pilot should be used to create guidelines for other 
states on effective alternative sentencing programs.
    <bullet> The VA should repeal the standing prohibition on treatment 
for incarcerated veterans, and should coordinate with local 
municipalities to develop counseling, recovery, and peer-support 
services for veterans in the criminal justice system.
                     iii. health care and benefits
    Far too many military families and veterans are struggling with the 
bureaucratic barriers to health care and benefits. Accessing medical 
care requires long waits for appointments, and is often too far away. 
Even when a wounded veteran is too disabled to work, the disability 
compensation process can take years.
    Millions of veterans rely on the health care and benefits provided 
by the Department of Veterans Affairs (VA), and about 42 percent of 
eligible Iraq and Afghanistan veterans have already gone to the VA for 
health care. But accessing the system is often a problem. Wait times 
for appointments can be months long, and hospitals and clinics are 
frequently inconveniently located. As of 2003, more than 25% of 
veterans enrolled in VA health care live over an hour from any VA 
hospital. The VA has already taken steps to expand access to health 
care but much more must be done.
    A fundamental problem with VA health care is unreliable funding 
from Congress. Unlike the allocations for Medicaid and Medicare, 
funding for the Veterans Health Administration is not mandatory. As a 
result, veterans' groups must fight each year to ensure that Congress 
provides adequate funding. In the past two years, however, Congress 
finally made veterans a priority, providing the VA with record budget 
increases. But when the VA budget is passed late, as it has been 17 of 
the past 20 years, hospitals are forced to ration care and scrape by 
with temporary funding bills. Appropriating funding for the VA one year 
in advance would allow veterans' hospitals to better plan their 
budgets, cut wait times, and ensure veterans have access to the care 
they need--and it would cost no additional money.
    The VA also provides benefits to promote veterans' education, to 
help veterans buy a home, to compensate for combat-related 
disabilities, to provide for veterans' funerals, and to support troops 
and veterans' survivors. Almost 4 million veterans receive VA benefits, 
but for many, accessing the benefits they have earned is a difficult 
process. The DOD and the VA each have their own complicated and 
confusing disability benefits systems. As troops transition from the 
DOD to the VA, medical records and military service records regularly 
get lost in the shuffle, leading to long waits for benefits processing. 
Even within the VA system, veterans face inexcusable delays. With over 
800,000 claims filed annually, the current average wait time of 6 
months is unacceptable. According to the VA's own numbers, about 12% of 
ratings decisions are inaccurate. These wrongly-decided claims can take 
two years to complete the appeal process, and are the primary source of 
the claims backlog.
    Since the scandal at Walter Reed Army Medical Center in 2007 drew 
attention to the bureaucratic red tape that wounded troops face, the VA 
has added more claims processors. However, the current VA system 
rewards the quantity of claims processed, not the quality of 
processors' decisions. The VA must refocus its efforts to effectively 
train the new workforce and to link performance reviews to both 
quantity and quality of claims processed. With these systems in place, 
stories of VA backdating claims or shredding paperwork could finally 
become a distant memory.
    For more on troops and veterans' health care and compensation 
issues, consult the 2008 IAVA Issue Report: ``Battling Red Tape: 
Veterans Struggle for Care and Benefits.'' All IAVA reports are 
available at www.iava.org/reports.
Health Care and Benefits Recommendations
3.1 Reform Veterans' Health Care Funding
    <bullet> To ensure timely and predictable funding, the VA budget 
should be appropriated at least one year in advance.
    <bullet> IAVA endorses the annual Independent Budget, produced by 
leading veterans' organizations (including IAVA) as the blueprint for 
VA funding levels.
    <bullet> The Government Accountability Office should audit the VA's 
internal budget model. The VA must be prepared to accurately project 
the number of veterans who will use VA health care, taking into account 
increases in demand due to an influx of Iraq and Afghanistan veterans 
and the downturn in the economy.

3.2 Cut the Claims Backlog in Half
    <bullet> IAVA supports the Veterans' Disability Benefits 
Commission's call to mandate a 50% decrease in the claims backlog in 2 
years. To make this possible, IAVA recommends a new evaluation system 
that rewards claims processors based on the accuracy of their work, not 
just the quantity of claims processed.
    <bullet> To make claims more consistent between regional offices, 
the VBA must reassess training requirements. Claims processors at the 
VA regional offices should receive annual standardized training 
specific to the errors found in each office's processing during the 
previous fiscal year. The VBA should hold claims processors and their 
managers accountable for meeting the annual training requirement, and 
should provide opportunities for knowledge-sharing, in the model of 
CompanyCommand.army.mil and PlatoonLeader.army.mil.
    <bullet> IAVA believes it is the VA's responsibility to clearly 
inform veterans about the requirements to substantiate a claim. The VA 
should publicize the criteria for claims establishment, and the VA's 
``Duty to Notify'' should include providing the claimant with a 
thorough explanation of the elements needed to substantiate a claim.
    <bullet> Veterans should be able to waive the waiting period for 
evidence submission if the claim is fully developed.
    <bullet> Appeals forms should be sent out with Notice of Decision 
letters, to expedite the process if the veteran chooses to appeal.

3.3 Improve Access to Care
    <bullet> Military families face significant barriers to receiving 
mental health care under TRICARE, including inaccurate lists of local 
providers, low provider reimbursement rates, and high levels of 
paperwork. IAVA recommends a study to determine the extent of these 
barriers and how they can be minimized.
    <bullet> IAVA recommends that the VA mandate uniform services at 
women's clinics. Currently, women's clinics vary in the services they 
deliver, from gender-specific care to general primary care. Women 
veterans should have access to female primary care providers when 
requested, and if necessary, the VA should contract with local health 
care providers to offer this service.
    <bullet> The Secretary of the VA should design and implement 
national guidelines to instruct VA facilities when it is appropriate to 
contract with local community health care providers in areas where 
rural veterans do not have reasonable access to care.
    <bullet> VA funding should be provided to promote, oversee, and 
evaluate a pilot program that creates a network of drivers for veterans 
struggling to find transportation to the nearest VA hospital.

3.4 Smooth the Transition from the Military to the VA
    <bullet> Enrollment in VA health care should be required for all 
troops leaving active-duty service, whether from the active or reserve 
component, with the opportunity to opt out, rather than opt in. 
Participation in the Benefits Delivery at Discharge program must be 
mandatory.
    <bullet> The disability process should be streamlined, so that the 
DOD determines fitness for duty, and the VA determines disability 
compensation. The DOD should perform a thorough medical examination for 
all troops prior to their separation, and DOD records, including the 
DD-214, should be electronic and interoperable with a state-of-the-art 
VA system. The DD-214 should be updated to include email addresses.
    <bullet> Benefit Resource Counselors should be available for all 
National Guard and Reserve units. An incentivized training program 
should be established in coordination with the DOD and VA that would 
train at least one member of every National Guard and Reserve unit on 
available Federal and state benefits for servicemembers and their 
families.

3.5 Ensure Benefits are Fair
    <bullet> The VA disability benefits schedule should be revised to 
provide adequate compensation for both loss of earning capacity and 
quality of life, and to accommodate new kinds of disability, including 
Post Traumatic Stress Disorder. While the Rating Schedule is revised, 
all compensation rates should be increased as recommended by the 
Veterans' Disability Benefits Commission.
    <bullet> As recommended by the VA's Advisory Committee on Women 
Veterans, the Veterans Benefits Administration should put in place a 
procedure to identify, track and report to Congress the outcomes of 
disability claims that involve Military Sexual Trauma (MST), in order 
to better understand the number of MST-related claims submitted 
annually, length of processing times, denial rates, and the types of 
disabilities that are associated with MST.
    <bullet> IAVA supports concurrent receipt of veterans' disability 
and military separation or retirement benefits.
    <bullet> IAVA urges the complete repeal of the Widow and Widower's 
Tax.
    <bullet> All National Guardsmen and Reservists who are veterans of 
the wars in Iraq and Afghanistan should qualify for early retirement 
based on the length of their active-duty service.

3.6 Expand Health Tracking for Iraq and Afghanistan Veterans
    <bullet> Congress should fund a pre- and post-deployment 
longitudinal study that bridges the gap from Department of Defense and 
the Department of Veterans Affairs to track veterans' mental health 
problems, diseases and mortality.
    <bullet> Troops returning from a tour in Iraq or Afghanistan should 
be required to enroll in the Gulf War Registry Program, with the 
opportunity to opt out, rather than opt in.

3.7 Care for the Caregivers
    <bullet> IAVA recommends the creation and expansion of pilot 
programs to certify and train family caregivers of veterans as personal 
care attendants, so that they can receive compensation from the 
Department of Veterans Affairs.
    <bullet> The VA should build on its current partnership with local 
universities to provide respite care to family caregivers. Graduate 
students should be trained to provide respite care for families caring 
for wounded warriors.
                     iv. government accountability
    American troops and military families have responded to the demands 
of a prolonged two-front war with tremendous courage and dedication. 
But the government has not consistently shown the same commitment to 
supporting those called to serve.
    The wars in Iraq and Afghanistan have been a heavy burden for our 
Armed Forces, who represent less than one half of one percent of the 
American people. The military now regularly requires troops to serve 
multiple, extended combat tours. As General Peter Schoomaker, the 
former Chief of Staff of the United States Army, warns: ``While our 
Soldiers are responding with extraordinary commitment, particularly in 
the face of adversity and personal hardships, we cannot allow this 
condition to persist.''
    At the same time, funding for the Iraq and Afghanistan wars has 
become a political football, used by politicians on both sides of the 
aisle to disguise the wars' cost and fund unrelated pet projects.
    Finally, although our troops and military families prove their 
dedication to our country every day, they are all too often stripped of 
their rights as citizens. Military voters regularly receive their 
absentee ballots too late to allow them to vote. In addition, over 
40,000 non-citizens serve in the U.S. military today, but they receive 
little protection for themselves or their families against unfair 
application of immigration laws. The last thing troops in the American 
military should be worrying about while deployed is the possibility 
that their spouses at home may be deported.
Government Accountability Recommendations
4.1 Issue a National Call to Service
    <bullet> IAVA supports Congressional efforts to expand nonmilitary 
service opportunities. The President must call on all Americans to show 
their support for our Nation's troops and veterans by joining them in 
serving the Nation in the military or on the homefront.

4.2 Prevent Military Voter Disenfranchisement
    <bullet> All too often, military personnel receive their ballots 
too late to be counted. States should provide uniform, simple access 
procedures for military and military dependent absentee voting that is 
valid in all 50 states. These procedures should include a re-
examination of the dates limiting how early one can apply for an 
absentee ballot, to ensure troops can feasibly apply for and receive a 
ballot in time to cast their ballots. Election mail must be protected 
and prioritized, so that troops overseas receive their ballots on time.

4.3 Provide a Road to Citizenship for Military Families
    <bullet> IAVA believes that the deportation of spouses of troops 
deployed to a combat zone should be deferred until at least two years 
after the deployed servicemember returns from combat. In addition, 
surviving widows and widowers of those killed in action should be 
eligible for expedited citizenship and/or ``bereavement visas'' to 
allow them to visit family in their country of origin in the years 
after their spouse's death.

4.4 End Abuse of the Emergency Supplemental Process
    <bullet> IAVA recommends that the DOD be obligated to report 
detailed equipment reset expenditures within the procurement accounts 
in a way that confirms that funds appropriated for reset are expended 
for the correct purposes.
    <bullet> Emergency supplemental funding undercuts Congressional 
oversight of spending. While supplemental funding is crucial for real 
emergencies, IAVA opposes the use of emergency supplemental to fund 
predictable military needs.
                                 ______
                                 
 Response to Post-Hearing Questions from Hon. Daniel K. Akaka to Todd 
 Bowers, Director of Government Affairs, Iraq and Afghanistan Veterans 
                               of America
                                  ptsd
    Just this morning, the VA Inspector General issued a report on the 
Temple, Texas situation. Many will recall that a psychologist at that 
facility wrote a strangely worded email which set off a firestorm of 
concern for those who are suffering from PTSD. In a word, the IG found 
no systemic effort on the part of VA to reduce the number of PTSD 
claims via inappropriate diagnosis.

    Question 1. For each of you, is it your view that mental health 
issues, and particularly PTSD, are receiving appropriate attention, in 
terms of both compensation and care?
    Response. It is IAVA's belief that there needs to be full review of 
all previous congressionally mandated and chartered commission and 
their recommendations that pertain to PTSD compensation. Commissions' 
such as the Presidents Commission on Returning Wounded Warriors and the 
Veterans Disability Benefits Commission have made multiple 
recommendations that IAVA fully supports but have yet to be 
implemented. Congress must review these recommendations and prioritize 
the implementation based on veteran needs and gaps based on the VA 
FY2008 Performance and Accountability Report.
    The VA disability benefits schedule should be revised to provide 
adequate compensation for both loss of earning capacity and quality of 
life, and to accommodate new kinds of disability, including Post 
Traumatic Stress Disorder. While the Rating Schedule is revised, all 
compensation rates should be increased as recommended by the Veterans' 
Disability Benefits Commission.
                      collaboration on the issues
    Question 2. How can your organizations collaborate to address the 
concerns of those who veterans who are returning after service in Iraq 
and Afghanistan?
    Response. To draft IAVA 2009 Legislative Agenda, IAVA conducted 
direct polling of our membership to establish a solid foundation of the 
priorities that OIF and OEF veterans seek to have addressed this year. 
These priorities have been identified as:

    <bullet> Ensure thorough, Professional, and Confidential screening 
for invisible injuries. IAVA supports mandatory, face-to-face and 
confidential mental health and TBI screening by a licensed medical 
professional, for all servicemembers, before and after their combat 
tour.
    <bullet> Advance-Fund veterans' Health Care. The best way to ensure 
timely funding of veterans' health care is to fully fund the Department 
of Veterans Affairs (VA) health care budget one year in advance. In 
addition, IAVA endorses the annual Independent Budget, produced by 
leading veterans' organizations (including IAVA), as a blueprint for 
the VA funding levels.
    <bullet> End the Passive VA system. The VA has traditionally been a 
passive, inward-looking system. Veterans must overcome tremendous 
bureaucratic obstacles to get the benefits and services that the VA 
provides. Many veterans do not even know what benefits they are 
eligible for. The VA must develop a national strategy to promote the 
use of its services, including advertising VA benefits, expanding VA 
outreach, and modernizing the VA's online presence.
    <bullet> Combat veterans' Unemployment. IAVA supports the expansion 
of employment training for troops leaving the military, tax credits for 
employers who hire troops and veterans, and a new ``Green-to-Green'' 
program to retrain veterans for high-paying jobs in the clean energy 
economy.
    <bullet> Cut the Claims Backlog in Half. Hundreds of thousands of 
disabled veterans are awaiting an answer on their VA benefits claims. 
Errors in claims decisions are a primary source of the back-log. IAVA 
recommends a new evaluation system that holds claims processors 
accountable for the accuracy of their work.
    <bullet> Improve Health Care for Female veterans. 11 percent of 
Iraq and Afghanistan veterans are women. They deserve the same access 
to health care as any other American veteran. IAVA supports prioritized 
hiring of female practitioners and outreach specialists, increased 
funding for specialized in-patient women-only PTSD clinics, and 
significant expansion of the resources available to women coping with 
Military Sexual Trauma.
    <bullet> Eradicate Homelessness among veterans. About 150,000 
veterans are homeless on any given night, and foreclosure rates in 
military towns are increasing at four times the national average. IAVA 
calls for 20,000 new HUD-VA Supportive Housing vouchers, an increase in 
the Grant and Per Diem allowances for community organizations to help 
homeless veterans, and an extensive outreach campaign to promote VA 
home loan and financial counseling services.

    All of these priorities have been shared with every Veteran Service 
Organization as registered with the Department of Veterans Affairs. It 
is IAVA's goal to serve as a conduit between our newest generations of 
veterans.
    For the past three years, IAVA has been in full support of the 
Independent Budget as established by the leading veteran Service 
Organizations. In addition, IAVA supports many of the recommendations 
and resolutions established by The Military Coalition. IAVA has been a 
member of The Military Coalition as of June, 2008. IAVA will continue 
to pursue effective VSO partnerships to ensure veterans are 
appropriately represented from all generations.
                              vba staffing
    In light of the increased funding for VBA staffing, there are high 
expectations that VBA will improve the quality of claims decisions, and 
to do so in a timely manner.

    Question 3. What more do you believe Congress could do to assist in 
decreasing the backlog, and at the same time, improving timeliness and 
accuracy?
    Response. IAVA supports the Veterans' Disability Benefits 
Commission's call to mandate a 50% decrease in the claims backlog in 2 
years. To make this possible, IAVA recommends a new evaluation system 
that rewards claims processors based on the accuracy of their work, not 
just the quantity of claims processed.
    To make claims more consistent between regional offices, the VBA 
must 
reassess training requirements. Claims processors at the VA regional 
offices should receive annual standardized training specific to the 
errors found in each office's 
processing during the previous fiscal year. The VBA should hold claims 
processors and their managers accountable for meeting the annual 
training requirement, and should provide opportunities for knowledge-
sharing, in the model of CompanyCommand.army.mil and 
PlatoonLeader.army.mil.
    IAVA believes it is the VA's responsibility to clearly inform 
veterans about the requirements to substantiate a claim. The VA should 
publicize the criteria for claims establishment, and the VA's ``Duty to 
Notify'' should include providing the claimant with a thorough 
explanation of the elements needed to substantiate a claim.
                           oif/oef illnesses
    The Committee and, indeed, the full Congress, has focused a great 
deal of attention on mental health and TBI matters. Yet, the most 
common health condition of returning OEF/OIF veterans is not TBI or 
mental illness, but instead muscle and joint pain.

    Question 4. Do any of you have proposals on how to focus on this 
number one health concern from those who have served in Iraq and 
Afghanistan?
    Response. A recent report from the Washington Post highlighted that 
current combat loads carried by servicemembers in Iraq and Afghanistan 
are resulting in large amounts of orthopedic injuries. During their 
combat tours in Iraq and Afghanistan, it is common for servicemembers 
to carry loads as heavy as half their body weight. Depending on the 
length of their deployment, this constant strain can last up to 15 
months and recovery time is shortened due to inadequate dwell time 
between multiple deployments. The numbers of non-deployable Army 
personnel is increasing at a staggering rate and other branches are 
also feeling the strain. Never before have servicemembers been 
subjected to such heavy loads for such extended periods of time and at 
a constant rate.
    IAVA recommends that a joint review be conducted by DOD and VA into 
the long term effects of carry large combat loads has on acute 
orthopedic injuries and musculoskeletal system of OIE and OEF veterans.
                                outreach
    Question 5. How are your organizations, individually or in some 
cooperative fashion, working to outreach to veterans and encourage them 
to take advantage of VA care and services?
    Response. IAVA has recently launched a multi-tiered veteran's 
outreach campaign in partnership with the Ad Council. The goal of this 
national media effort is to drive veterans to the Nation's first online 
social networking Web site exclusive for OIF and OEF veterans. This Web 
site communityofveterans.org has established a secure online community 
for veterans to voice their concerns about issues ranging from PTSD 
disability compensation to difficulty accessing VA care. Below are 
highlights from the campaign.
Campaign Overview:
    <bullet> IAVA has partnered with the Ad Council to launch a 
groundbreaking Public Service Advertising (PSA) campaign on Veterans 
Day 2008. This multiyear, national effort addresses readjustment issues 
and seeks to ease the transition for veterans returning home from Iraq 
and Afghanistan.
    <bullet> The campaign will feature two distinct series of PSAs 
(including TV, radio, print, outdoor, Web and rich media); one focused 
on Iraq and Afghanistan veterans and a second on the families and loved 
ones of veterans who are also impacted by transitional issues.
    <bullet> The new campaign was developed in partnership with the Ad 
Council, a non-profit organization that has created some of the 
country's most iconic PSA campaigns including ``Friends Don't Let 
Friends Drive Drunk'' and Smokey Bear.
Strategy:
    <bullet> The Ad Council, IAVA and ad agency BBDO conducted 
extensive research to develop this campaign. We held several rounds of 
focus groups in three cities across the country with veterans, their 
families, and members of the general public. We also regularly 
consulted with a panel of distinguished mental health experts about the 
direction of the campaign. We will continue to hold briefings with a 
range of experts to solicit feedback and input going forward.
Online Component:
    <bullet> The works aimed at veterans directs them to the first and 
only online community exclusive to Iraq and Afghanistan veterans 
through a new social networking Web site, communityofveterans.org
    <bullet> The innovative Web site will offer a platform for veterans 
to connect with one another and act as a portal for comprehensive 
mental health resources, with the goal of increasing the number of 
veterans who seek treatment for issues including PTSD and depression.
    <bullet> The campaign takes advantage of web 2.0 by reaching the 
modern veterans online--where they are already. It will act as a 
MySpace or Facebook plus exclusively for veterans, transforming the way 
that veterans interact with one another and talk about transitional 
issues.
About the Ad:
    <bullet> Created pro bono by ad agency BBDO in New York, the 
compelling TV PSA, Alone, follows a young servicemember when he returns 
from Iraq. He is filmed in a completely empty airport terminal, alone 
on a subway and walking through desolate New York City streets. 
Eventually, he is approached by another Iraq veteran who extends his 
hand and welcomes him home. When the two men shake hands, the deserted 
city comes alive, illustrating the power of connecting with another 
veteran.
    <bullet> The magnitude of this shoot was incredible and required 
extraordinary help from the city of New York. With the City's aid, we 
shut down an entire terminal at JFK International Airport, a subway car 
on the 7 line, and multiple New York City blocks, including in front of 
the Flat Iron Building and in the financial district.
Issue Background:
    <bullet> IAVA and Ad Council developed this campaign to address the 
urgent challenges facing America's newest generation of veterans. There 
are 1.7 million men and women who have served, or are currently 
serving, in Iraq and Afghanistan.
    <bullet> 1 in 5 Iraq and Afghanistan veterans will suffer from a 
mental health problem, ranging from depression to Post Traumatic Stress 
Disorder (PTSD), and over time, as many as 30-40% of new veterans could 
face serious psychological injuries.
    <bullet> Untreated mental health conditions can cause or aggravate 
other debilitating problems in the Veterans' community including high 
rates of unemployment, homelessness, substance abuse, divorce, child 
abuse, and suicide. Many avoid seeking help because of the stigmas 
around seeking treatment or being diagnosed with a mental illness.
Campaign Long-term Objective:
    <bullet> The challenges facing returning veterans are broad and 
multi-faceted and will not be solved overnight. There is no quick fix 
or cookie cutter solution. This campaign's long-term objective is to 
gradually decrease the depression and PTSD-related outcomes among 
returning veterans and encourage them to take that safe, first step in 
getting help. Through this campaign we can begin to change the way that 
both private citizens and the government talk about and address these 
issues.
Family Campaign:
    <bullet> A complementary PSA effort that will launch in the coming 
months will seek to engage the families and loved ones of these 
veterans. That body of work will empower veterans' loved ones to start 
a conversion and encourage the veteran to seek help if necessary. A Web 
site dedicated to providing resources and information for families, 
supportyourvet.org, will also launch in the coming months.
                             women veterans
    VA has said that sufficient programs and funding already exist to 
care for women veterans.

    Question 6. What would you point to as specific problems or 
shortfalls with respect to women veterans and what do you recommend 
that the Committee do to address these concerns?
    Response. 11 percent of Iraq and Afghanistan veterans are women. 
They deserve the same access to health care as any other American 
veteran.
    IAVA supports increased funding for specialized inpatient women-
only PTSD clinics.
    To improve the quality of health care for female veterans, Vet 
Centers and VA medical facilities must be encouraged to hire female 
practitioners and outreach specialists, and especially female veterans.
    The veterans' suicide hotline operators should receive additional 
training to respond to sexual assault-related calls.
    IAVA supports increased funding for the Department of Defense's 
Sexual Assault Prevention and Response Office in order for it to expand 
its oversight role.
    IAVA recommends that the VA mandate uniform services at women's 
clinics.
    Currently, women's clinics vary in the services they deliver, from 
gender-specific care to general primary care. Women veterans should 
have access to female primary care providers when requested, and if 
necessary, the VA should contract with local health care providers to 
offer this service.
    As recommended by the VA's Advisory Committee on Women Veterans, 
the Veterans Benefits Administration should put in place a procedure to 
identify, track and report to Congress the outcomes of disability 
claims that involve Military Sexual Trauma (MST), in order to better 
understand the number of MST-related claims submitted annually, length 
of processing times, denial rates, and the types of disabilities that 
are associated with MST.
                               paperwork
    Question 7. What is your organization's opinion of VA's expanded 
paperwork protection policy that came about as a result of the 
Inspector General's audit which found that VA regional office personnel 
had mishandled some claims documents--is VA's new policy on shredding 
appropriate?
    Response. IAVA agrees with the chairman's statement that the 
current freeze of document shredding as established by former Secretary 
Peake is not a long term solution. We look forward to finding out the 
status of the current policy changes that will take effect when the 
Committee receives testimony next month regarding this issue. It is 
paramount, that veterans are not shortchanged by destruction of their 
supporting documents when filing Disability Claims. The VA must also 
prioritize the importance of destruction of documentation containing 
personal information to ensure the privacy of veterans is protected.
                                stimulus
    Question 8. The Senate stimulus package includes appropriations for 
VA, especially $3.7 billion included for VA infrastructure projects. 
What are your views?
    Response. IAVA is grateful for what Congress has provided in the 
stimulus package. IAVA fully supported the Senate version.
                                 ______
                                 
 Response to Post-Hearing Questions from Hon. Bernard Sanders to Todd 
 Bowers, Director of Government Affairs, Iraq and Afghanistan Veterans 
                               of America
              extended and different hours for va services
    As I mentioned in my opening remarks, I have heard from many 
veterans who want to get to the VA for care but they can't make it 
because of work. I believe we need to increase accessibility of the VA 
to all types of veterans, including those with full-time jobs, by 
providing evening and weekend hours so that people won't have to choose 
between going to work and keeping a VA appointment. This could also 
help reduce missed appointments which waste time and resources of VA 
staff. My office is currently exploring what kind of authority VA needs 
to begin providing extended hours on a one night a week and one weekend 
day a week basis, possibly in the form of a pilot program.

    Question 1. Mr. Bowers, the IAVA has also discussed the important 
of changing the VA from a passive to an active institution when it 
comes to helping veterans. Is this a proposal that the IAVA would 
support?
    Response. Yes. IAVA fully supports any initiative that effectively 
increases outreach of services and benefits to OIF and OEF 
servicemembers and veterans. This legislation matches our 2009 
Legislative Agenda recommendation #1.2.

1.2 Advertise VA Mental Health Services
    <bullet> The VA must receive specially-allocated funds to research, 
test and implement an effective national and local media strategy, that 
includes use of new and traditional media, to combat stigma and to 
promote the use of VA services such as Vet Centers and the Suicide 
Prevention hotline. The VA's campaign strategy should include a 
comprehensive plan to involve Veterans Service Organizations, and 
should promote behavioral and mental health services to underserved 
groups, including homeless veterans, rural veterans and female 
veterans.
    automatic enrollment in va for members of the guard and reserve
    Mr. Cullinan and Mr. Bowers, in both of your prepared testimonies 
you mentioned the importance of improving the hand off between the 
Department of Defense and the VA. I am working on legislation that 
would automatically enroll members of the National Guard and Reserve 
into VA health and dental care while they are going through discharge. 
This does not force these servicemembers to use the VA system but it 
does cut down on the process of applying for VA care later and allows 
VA care to be there if a veteran who doesn't think they need the care 
realizes later in life that they want it. If the VA is meant to provide 
care of these veterans, we should not make it so hard for them to sign 
up for the care.

    Question 2. Mr. Bowers, is this a proposal that the VFW IAVA could 
support?
    Response. Yes. IAVA fully supports any initiative that will 
streamline the transition from Active Duty to Veteran status. When I 
returned from my second deployment, my unit leadership proactively 
encouraged all servicemembers returning from OIF to register with a VA 
representative from the Washington DC area Vet Center that was present 
during our demobilization process. By having all of our Marines 
register with the VA before demobilizing it removed any individual from 
falling through the cracks. This issue is addressed in our 2009 
Legislative Agenda under item #3.4.

3.4 Smooth the Transition from the Military to the VA
    <bullet> Enrollment in VA health care should be required for all 
troops leaving active-duty service, whether from the active or reserve 
component, with the opportunity to opt out, rather than opt in. 
Participation in the Benefits Delivery at Discharge program must be 
mandatory.

    Chairman Akaka. Thank you very much, Mr. Bowers.
    Mr. Blake, your testimony.

    STATEMENT OF CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Blake. Chairman Akaka, Ranking Member Burr, Members of 
the Committee, on behalf of Paralyzed Veterans of America, I 
would like to thank you for the opportunity to testify today.
    As you know, PVA continues to work on issues that are 
important to our members, specifically those veterans with 
spinal cord injury or dysfunction, but also for all veterans.
    With this mind, I would like to outline our priorities for 
the 111th Congress. They include, first and foremost, advanced 
appropriations for the VA health care system; elimination of 
health care copayments for catastrophically disabled Priority 
Group 4 veterans; proceeding with the construction of a 
freestanding tertiary care hospital in Denver, Colorado, that 
includes a spinal cord injury center in accordance with the 
recommendations of the CARES commission; improving recruitment 
and retention bonuses and incentives for nurses and allied 
health professionals; an increase in the adaptive automobile 
grant with an annual index to increase the value of the grant 
with the cost of inflation.
    Senator Sanders, I would like to thank you for your 
leadership in trying to improve this benefit during the 110th 
Congress, and we look forward to working on this again this 
year.
    Finally, but certainly not the least important, 
improvements to the claims process, including through updated 
information systems technology, and, of course, as mentioned by 
my colleague from IAVA, smooth implementation of the GI Bill.
    I would like to focus my attention on only a couple of the 
issues that I mentioned.
    Chairman Akaka, we were pleased that during the 110th 
Congress you introduced legislation, the Veterans' Health Care 
Budget Reform Act, S. 3527, that would reform the VA budget 
process by providing advanced appropriations for VA health 
care. The legislation was developed in consultation with the 
Partnership for Veterans' Health Care Budget Reform, a group 
that includes nine major veterans service organizations 
including Paralyzed Veterans of America.
    The Veterans' Health Care Budget Reform Act would ensure 
that the goals of the partnership--sufficient, timely and 
predictable funding--are met. Historically, advance 
appropriations have been used to make a program more efficient 
and effective, better aligned with funding cycles of the 
program recipients or provide insulation from annual political 
partisan maneuvering. By moving to advance appropriations, 
veterans' health care programs would accrue all three of these 
benefits.
    Once again, we appreciate your support for this proposal 
during the 110th Congress, and we look forward to the 
introduction of similar legislation for the 111th, and we hope 
to build a broader base of bipartisan support for the 
legislation.
    In 1985, Congress approved legislation which opened the VA 
health system to all veterans. In 1996, Congress again revised 
that legislation with a system of rankings establishing 
priority ratings for enrollment. Within that context, PVA 
worked hard to ensure that those veterans with catastrophic 
disabilities would be placed in a higher enrollment category.
    To protect their enrollment status, veterans with 
catastrophic disabilities were allowed to enroll in Priority 
Group 4 even though their disabilities were non-service-
connected and regardless of their incomes. However, unlike 
other Priority Group 4 veterans, if they would otherwise have 
been in Priority Group 7 or 8 due to their incomes, they would 
still be required to pay all fees and co-payments, just as 
others in those categories do now for every service they 
receive from VA.
    PVA believes this is unjust. VA recognizes their unique 
specialized status on the one hand by providing specialized 
service for them in accordance with its mission. The system 
then makes them pay for those very same services. 
Unfortunately, these veterans are not casual users of the VA 
health care system. Because of the nature of their disabilities 
they require a lot of care and a lifetime of services.
    We were pleased that the House Committee on Veterans' 
Affairs approved and the House of Representatives eventually 
passed legislation, H.R. 6445, that would eliminate this 
financial burden placed on catastrophically disabled veterans 
during the 110th Congress. In fact, the House bill had a rare 
triumvirate of bipartisan support of the House Democrats and 
Republicans and the VA. Unfortunately, the Senate never took 
action on the measure and the legislation was never enacted.
    We hope that with your leadership, and Senator Burr's 
efforts as well, we will finally be able to resolve this issue 
during the 111th Congress.
    Finally, Mr. Chairman, I would like to thank you and 
Senator Burr for your efforts during the 110th. Veterans have 
certainly realized a lot of successes legislatively, and we 
look forward to working with you again.
    Just as sort of a housekeeping note, I would like to inform 
the Committee that The Independent Budget, which has already 
been mentioned, for fiscal year 2010 will be available for 
download on the Internet next Monday, February 2. The Web site 
for that document will be www.independentbudget.org. We hope to 
be able to deliver hard copies to the Committee staff and to 
the individual Committee offices shortly thereafter. Many of 
the issues discussed here by my colleagues today and that I 
also discussed will be discussed in further detail in that 
document.
    This concludes my testimony, Mr. Chairman. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Blake follows:]
   Prepared Statement of Carl Blake, National Legislative Director, 
                     Paralyzed Veterans of America
    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
on behalf of Paralyzed Veterans of America (PVA), I would like to thank 
you for the opportunity to present our priorities for the 111th 
Congress. We hope that the Senate Committee on Veterans' Affairs will 
take our concerns under consideration as it prepares its legislative 
and policy agenda this year. We appreciate the legislative successes 
that veterans have realized under your leadership and we look forward 
to continued success in the future.
    PVA continues to work on issues important to our members, veterans 
with spinal cord injury or dysfunction, specifically, and to all 
veterans. With this in mind, I would like to outline our priorities for 
the 111th Congress. They are:

    <bullet> Advance appropriations for VA health care.
    <bullet> Elimination of health care co-payments for 
catastrophically disabled Priority Group 4 veterans.
    <bullet> Proceeding with the construction of a free-standing, 
tertiary care hospital in Denver, CO that includes a spinal cord injury 
center in accordance with the recommendations of the CARES commission.
    <bullet> Improving recruitment and retention bonuses and incentives 
for nurses and allied health professionals.
    <bullet> Increase in the adaptive automobile grant and an annual 
index to increase the value of the grant with the cost of inflation.
    <bullet> Improvements to the claims process, including through 
updated information systems technology, and smooth implementation of 
the 21st Century GI Bill.
                         advance appropriations
    Chairman Akaka, we were pleased that in September of last year you 
introduced legislation--S. 3527, the ``Veterans' Health Care Budget 
Reform Act''--that would reform the VA budget process by providing 
advance appropriations for veterans' health care. The legislation was 
developed in consultation with the Partnership for Veterans Health Care 
Budget Reform (Partnership)--a group that consists of nine major 
veterans service organizations, including Paralyzed Veterans of 
America. For more than a decade, the Partnership has worked to achieve 
a sensible and lasting reform of the funding process for veterans' 
health care. While the Partnership has long advocated converting VA's 
medical care funding from discretionary to mandatory funding, there has 
been virtually no movement in Congress in this direction.
    The Veterans Health Care Budget Reform Act would ensure that the 
goals of the Partnership--sufficient, timely, and predictable funding--
are met. Historically, advance appropriations have been used to make a 
program function more effectively, better align with funding cycles of 
program recipients, or provide insulation from annual partisan 
political maneuvering. By moving to advance appropriations, veterans' 
health care programs would accrue all three of these benefits.
    To enhance the budget process even further, the proposed 
legislation includes provisions to add transparency and oversight to 
VA's internal budget forecasting model. Due to the complex nature of 
VA's actuarially-based Model, S. 3527 would require GAO to conduct an 
annual audit and assessment of the Model to determine its validity and 
accuracy, as well as assess the integrity of the process and the data 
upon which it is based. GAO would submit public reports to Congress 
each year that would assess the Model and include an estimate of the 
budget needs for VA's medical care accounts for the next two fiscal 
years. Providing Congress with access to the Model and its estimates of 
VA health care's resource needs, would provide greater confidence in 
the accuracy of advance appropriations for veterans' medical care, as 
well as validate future requests for emergency supplemental 
appropriations. Once again, we appreciate your support for this 
proposal during the 110th Congress, and we look forward to the 
introduction of similar legislation and your continued support as we 
try to advance this legislation during the 111th Congress.
           elimination of co-payments for category 4 veterans
    In 1985, Congress approved legislation which opened the VA health 
system to all veterans. In 1996, Congress again revised that 
legislation with a system of rankings establishing priority ratings for 
enrollment. Within that context, PVA worked hard to ensure that those 
veterans with catastrophic disabilities would be placed in a higher 
enrollment category. To protect their enrollment status, veterans with 
catastrophic disabilities were allowed to enroll in Priority Group Four 
even though their disabilities were non-service-connected and 
regardless of their incomes. However, unlike other Category Four 
veterans, if they would otherwise have been in Category Seven or Eight, 
due to their incomes, they would still be required to pay all fees and 
co-payments, just as others in those categories do now for every 
service they receive from VA.
    PVA believes this is unjust. VA recognizes their unique specialized 
status on the one hand by providing specialized service for them in 
accordance with its mission to provide for special needs. The system 
then makes them pay for those services. Unfortunately, these veterans 
are not casual users of VA health care services. Because of the nature 
of their disabilities they require a lot of care and a lifetime of 
services. In most instances, VA is the only and the best resource for a 
veteran with a spinal cord injury, and yet, these veterans, supposedly 
placed in a higher priority enrollment category, have to pay fees and 
co-payments for every service they receive as though they had no 
priority at all.
    We were pleased that the House Committee on Veterans' Affairs 
approved and the House of Representatives eventually passed 
legislation--H.R. 6445--to eliminate this financial burden placed on 
catastrophically disabled veterans during the 110th Congress. In fact, 
the House bill received unanimous support from Republicans and 
Democrats as well as the VA. Unfortunately, the Senate never took 
action on the measure and the legislation was never enacted. We hope 
that with your leadership, we will finally be able to resolve this 
issue during the 111th Congress.
                  denver/fitzsimmons va medical center
    As you may be aware, there has been a great deal of controversy 
concerning the VA plan for providing health care in the Denver/Rocky 
Mountain region. The ongoing controversy surrounding the Department of 
Veterans Affairs' decision to stop construction planning for a free-
standing replacement hospital in Denver, Colorado and, instead, lease 
space from the University of Colorado Medical Center in a tower it 
plans to construct continues to generate opposition. The long awaited 
replacement facility which was to include a thirty bed spinal cord 
injury center was first approved by VA in 2002 and planning and design 
began in 2007 once Congress had appropriated funds.
    Unfortunately, in early 2008 the VA suddenly and without notice 
stopped all development on a free-standing medical facility and began 
planning to lease space in a new medical center to be built by the 
University of Colorado, with financing by the VA. Moreover, the VA 
jettisoned the plan for the recommended 30-bed spinal cord injury 
center in Denver as outlined by the Capital Asset Realignment for 
Enhanced Services (CARES) report. The VA has since made additional 
changes to the plan for SCI care simply as a means to ease the concerns 
of PVA.
    However, we believe the VA will not be able to meet several 
important benchmarks for SCI care while leasing in the new University 
of Colorado tower. First, we believe the spinal cord injury unit will 
not be created to meet VA's own design guidelines, including first 
floor location in the proposed new tower and dedicated SCI/D parking. 
Second, we do not believe that staffing requirements for the unit will 
be consistent with the guidelines agreed to by VA and Paralyzed 
Veterans of America. Third, we believe the new leasing arrangement will 
prevent PVA from the same access afforded us in other VA spinal cord 
injury centers to both counsel veterans and conduct site visits. 
Finally, VA's guidelines call for the establishment of spinal cord 
injury centers at a tertiary care hospital to ensure that the center is 
supported by the full range of medical and ancillary health services. 
We do not believe this new leased facility will support all the 
necessary medical specialties and services with VA staff.
    Veterans' organizations on the national level have joined with 
their local affiliates in opposing this action by VA. In a letter sent 
to the previous Secretary of Veterans Affairs, James Peake, national 
veterans' organizations, including Paralyzed Veterans of America and 
the union representing VA employees, articulated our opposition and 
concerns and questioned whether this change in strategy was a first 
step in altering how VA has historically provided care. Veterans are 
rightly concerned that this may well be an approach that leads to 
greater privatization of services and ultimately lead to a diminution 
of VA and, specifically, its specialized services.
    It is time for the VA to return to the previous long-term plan to 
construct a free-standing, tertiary care hospital in Denver, CO that 
includes a spinal cord injury center in accordance with the 
recommendations of the CARES commission. In the meantime, we hope that 
the Committee will monitor this situation closely so as to ensure that 
the VA is not laying the groundwork in Denver for a long-term health 
care delivery plan that could ultimately lead to lower quality of care 
across the entire VA health care system.
    recruitment/retention of nurses and allied health professionals
    Given the VHA's leadership position as a health system, it is 
imperative that VA aggressively recruit health-care professionals and 
work within established relationships with academic affiliates and 
community partners to recruit new employees. In order to make gains on 
these needs, VA must update and streamline its human resource processes 
and policies to adequately address the needs of new graduates in the 
health sciences, recruits, and current VA employees. Today's health-
care professionals and other staff who work alongside them need 
improved benefits, such as competitive salaries and incentives, child 
care, flexible scheduling, and generous educational benefits. VA must 
actively address the factors known to affect current recruitment and 
retention, such as fair compensation, professional development and 
career mobility, benevolent supervision and work environment, respect 
and recognition, technology, and sound, consistent leadership, to make 
VA an employer of choice for individuals who are offered many 
attractive alternatives in other employment settings.
    VA's ability to sustain a full complement of highly skilled and 
motivated personnel will require aggressive and competitive employment 
hiring strategies that will enable it to successfully compete in the 
national labor market. VA's employment success within the VHA will 
require constant attention by the very highest levels of VA leadership. 
Additionally, Members of Congress must understand the gravity of VA 
personnel issues and be ready to provide the necessary support and 
oversight required to ensure VA's success.
                      adaptive automobile benefits
    PVA believes that an increase in the adaptive automobile assistance 
grant to an amount commensurate with the original intent of this 
benefit is essential. VA provides certain severely disabled veterans 
and servicemembers with grants for the purchase of automobiles or other 
conveyances. This grant also provides for adaptive equipment necessary 
for safe operation of these vehicles. When the grant was created, 
Congress initially fixed the amount of the automobile grant to cover 
the full cost of the automobile.
    Because adjustments have not kept pace with increased costs, the 
value of the automobile allowance has been substantially eroded through 
the years. In 1946, the $1,600 allowance represented 85 percent of 
average retail cost of a new vehicle and was sufficient to pay the full 
cost of automobiles in the ``low-price field.'' For 2008, the National 
Automobile Dealers Association confirmed that the average price of a 
new car was $28,500. The current $11,000 automobile allowance 
represents only about 39 percent of the average cost of a new 
automobile. In accordance with the recommendations of The Independent 
Budget, we recommend that the grant be increased to 80 percent of the 
value of a new car. In order to achieve this level, the allowance 
should be increased to $22,800. Furthermore, an automatic annual 
adjustment must be established, similar to what was provided for the 
Specially Adapted Housing grant in the Housing Recovery bill enacted 
during the 110th Congress, in order to maintain the automobile grant's 
purchasing power as well.
             va claims process and the 21st century gi bill
    Finally, we believe that a number of issues within the claims 
process must be closely monitored as the VA seeks to update and 
modernize the process. We were particularly pleased with the fact that 
Congress appropriated significant increases in funding for VBA over the 
last couple of years. Likewise, we appreciate the emphasis placed on 
hiring many new claims adjudication personnel. We have long argued that 
the only way to give the VA a fighting chance at overcoming the rapidly 
growing claims backlog is to provide for adequate staffing.
    However, it is important to note that simply hiring additional 
staff is not enough. Equally important is to ensure proper training and 
accountability of claims adjudication staff at all levels of the 
process. While it is easy to blame first-line claims staff for improper 
ratings decisions, much of the blame also has to fall to the management 
within VBA. Performance measures for all levels of adjudication staff 
have wrongly focused too much on quantity of claims decided rather than 
quality.
    PVA is also concerned that VBA is not really spending the new 
funding Congress has provided in the last couple of years in the manner 
that Congress intended and the veterans service organizations (VSO) 
desired. Specifically, we believe that VA is spending too much of this 
new funding on pilot projects and special programs rather than on basic 
hiring and systemic needs.
    Moreover, we believe that VBA must accelerate the progress toward 
an electronic claims record system. As long as VA continues to use a 
paper file shipped around the country, the claims and appeals process 
will be done in an expensive and antiquated manner. Under the current 
system, VA staff need the actual claims file to act on claims. In a 
paperless, environment VA staff could act on claims without having to 
access a claimant's actual claims file. Additionally, transition to a 
paperless system will permit claims work to be seamlessly transferred 
to any of VA's regional offices, allowing for quicker decisionmaking on 
claims. As demonstrated by the Veterans Health Administration's 
outstanding electronic medical record system, similar gains in access 
to records can be realized in the claims and appeals process. We urge 
Congress to accelerate funding of VA's transition to an electronic 
claims record.
    Recent hearings have demonstrated how far behind the VBA is in 
using information technology in its claims adjudication process. While 
we believe that the entire claims process cannot be automated, there 
are many aspects and steps that certainly can. We have long complained 
to the VA that it makes no sense for severely disabled veterans to 
separately apply for the many ancillary benefits to which they are 
entitled. Their service-connected rating immediately establishes 
eligibility for such benefits as the Specially Adapted Housing grant, 
adaptive automobile equipment, and education benefits. However, they 
still must file separate application forms to receive these benefits.
    Furthermore, certain specific disabilities require an automatic 
rating under the disability ratings schedule. For example, it does not 
take a great deal of time and effort to adjudicate a below knee single-
leg amputation. An advanced information technology system can determine 
a benefit award for just such an injury quickly. We believe that it is 
time for the VA to automate consideration of ancillary benefits and 
specific ratings disabilities that are generally automatic.
    Finally, we are very concerned about the implementation of the 21st 
Century GI Bill, set to become available to eligible veterans and 
servicemembers in August. Progress toward an effective implementation 
plan began with much difficulty. While we believe that the VA is being 
as proactive as possible to ensure that the benefit is available 
accurately and on time, we remain concerned about whether the VA will 
actually be ready to go when the effective date arrives. The VA has 
continued to offer monthly updates on its progress and we believe 
continued oversight by the veterans service organizations and Congress 
will be critical throughout the spring and summer. In the end, any 
problems that lead to inaccurate payment of benefits or delayed 
payments will be unacceptable.
    PVA appreciates the opportunity to provide our views on these 
important issues that the Senate Committee on Veterans' Affairs will 
address in coming months. If you need additional information on each of 
the topics outlined here, they will be discussed in much greater detail 
in the 23rd edition of The Independent Budget, which will be released 
within the next two weeks. In the meantime, we will be happy to provide 
you with any additional information that you request.
    Finally, we recognize that paying for many of these improvements 
will be difficult. However, we believe that this is a cost burden that 
this country must bear as veterans who have served this Nation with 
distinction and honor should be a top priority.

    This concludes my testimony. I will be happy to answer any 
questions you may have.
                                 ______
                                 
 Response to Post-Hearing Questions from Hon. Daniel K. Akaka to Carl 
  Blake, National Legislative Director, Paralyzed Veterans of America
                                  ptsd
    Just this morning, the VA Inspector General issued a report on the 
Temple, Texas situation. Many will recall that a psychologist at that 
facility wrote a strangely worded email which set off a firestorm of 
concern for those who are suffering from PTSD. In a word, the IG found 
no systemic effort on the part of VA to reduce the number of PTSD 
claims via inappropriate diagnosis.

    Question 1. Is it your view that mental health issues, and 
particularly PTSD, are receiving appropriate attention, in terms of 
both compensation and care?
    Response. It is apparent that the prevalence of mental health 
concerns in the current generations of veterans is more serious than 
ever before. While we believe that VA is making every effort to provide 
timely and effective treatment, we realize that it will take time to 
implement the level of care that is needed across the board. PVA does 
believe that VA is moving in the right direction. However, one 
hindrance to progress is the lack of training, compassion, and 
understanding that was evidenced by the particular clinician that 
created the need for the cited investigation. PVA has heard of cases 
where some treating physicians just did not believe that Post Traumatic 
Stress Disorder (PTSD) is a valid diagnosis, or that VA should be 
compensating veterans for it. Education and training of clinicians, VA 
disability evaluators, and other staff involved in working with 
veterans with mental health issues is paramount. Every VA employee 
should be held accountable for treating mentally ill veterans with the 
same compassion, understanding, and care that is expected for the 
physically disabled population.
    As to the question of compensation for PTSD, PVA generally believes 
that compensation does not go far enough for veterans being compensated 
for serious disability, such as 100% total and permanent and those 
veterans receiving Special Monthly Compensation. Our view holds for 
veterans being compensated for physical disabilities, mental 
disabilities, or both.
                      collaboration on the issues
    Question 2. How can your organizations collaborate to address the 
concerns of those who veterans who are returning after service in Iraq 
and Afghanistan?
    Response. As one of the four co-authors of The Independent Budget, 
we have already begun incorporating the concerns of this newest 
generation of veterans into the policy portion of our document. In 
fact, in order to enlighten our discussion in the best way possible, we 
have included representatives from the Iraq and Afghanistan Veterans of 
America (IAVA) into the debate about what we will include in our 
recommendations. Moreover, the Partnership for Veterans Health Care 
Budget Reform has included IAVA in many of the discussions as we have 
developed our main policy priority for the 111th Congress--advance 
appropriations for VA health care.
    Collaboration between groups such as IAVA, Student Veterans of 
America, and the larger veterans' service organization community was 
also critical in the passage of the Post-9/11 GI Bill. Throughout the 
development of that legislation, these groups, and the current 
generation of veterans that they represent, were turned to as the 
subject matter experts for what the final legislation passed by 
Congress should look like. In fact, we are currently in discussions 
with these groups to make additional changes to the legislation that 
was enacted to ensure that the best education benefit is available on 
August 1, 2009.
                              vba staffing
    In light of the increased funding for VBA staffing, there are high 
expectations that VBA will improve the quality of claims decisions, and 
to do so in a timely 
manner.

    Question 3. What more do you believe Congress could do to assist in 
decreasing the backlog, and at the same time, improving timeliness and 
accuracy?
    Response. While we appreciate the emphasis placed on hiring many 
new claims adjudication personnel, it is important to note that simply 
hiring additional staff is not enough. Equally important is to ensure 
proper training and accountability of claims adjudication staff at all 
levels of the process. While it is easy to blame first-line claims 
staff for improper ratings decisions, much of the blame also has to 
fall to the management within VBA. Performance measures for all levels 
of adjudication staff have wrongly focused too much on quantity of 
claims decided rather than 
quality.
    Moreover, we believe that VBA must accelerate the progress toward 
an electronic claims record system. As long as VA continues to use a 
paper file shipped around the country, the claims and appeals process 
will be done in an expensive and antiquated manner. Under the current 
system, VA staff need the actual claims file to act on claims. In a 
paperless environment VA staff could act on claims without having to 
access a claimant's actual claims file. Additionally, transition to a 
paperless system will permit claims work to be seamlessly transferred 
to any of VA's regional offices, allowing for quicker decisionmaking on 
claims. As demonstrated by the Veterans Health Administration's 
outstanding electronic medical record system, similar gains in access 
to records can be realized in the claims and appeals process, as well 
as significant cost savings as VBA and the BVA move toward a ``Virtual 
VA.'' We urge Congress to accelerate funding of VA's transition to an 
electronic claims record.
    Recent hearings have demonstrated how far behind the VBA is in 
using information technology in its claims adjudication process. While 
we believe that the entire claims process cannot be automated, there 
are many aspects and steps that certainly can. We have long complained 
to the VA that it makes no sense for severely disabled veterans to 
separately apply for the many ancillary benefits to which they are 
entitled. Their service-connected rating immediately establishes 
eligibility for such benefits as the Specially Adapted Housing grant, 
adaptive automobile equipment, and education benefits. However, they 
still must file separate application forms to receive these benefits. 
That makes no sense whatsoever.
    Furthermore, certain specific disabilities require an automatic 
rating under the disability ratings schedule. For example, it does not 
take a great deal of time and effort to adjudicate a below knee single-
leg amputation. An advanced information technology system can determine 
a benefit award for just such an injury quickly. We believe that it is 
time for the VA to automate consideration of ancillary benefits and 
specific ratings disabilities that are generally automatic.
    With this thought in mind, we believe that it is essential that VBA 
expeditiously adjudicate claims that can be adjudicated quickly. By 
tying into an advanced information technology system, the VA could 
identify and decide claims that can be granted quickly. We have 
observed through our national service officers in the field that 
oftentimes the VA continues to develop evidence in cases where the 
evidence already developed supports the grant of claimed benefits.
    PVA also believes that centralized training better prepares ratings 
specialists at all levels. Training of rating specialists was 
historically conducted at the local level by the more senior staff. The 
VA now provides centralized training at its Veterans Benefits Academy 
located in Baltimore, Maryland and via the VA intranet. The 
Compensation and Pension Service also issues Decision Assessment 
Documents (DAD) in response to Court precedent opinions to inform staff 
of these decisions. The VA should be lauded for these actions. 
Furthermore, as we have called for in The Independent Budget, co-
authored by PVA, AMVETS, Disabled American Veterans, and the Veterans 
of Foreign Wars, Congress should fully fund VA's training initiatives. 
Improved and continued centralized training should help reduce 
inconsistencies and disparities between Regional Offices and should 
improve consumer confidence.
    Meanwhile, we believe the VBA should use experienced adjudicators 
to decide initial claims and to prepare Veterans Claims Assistance Act 
(VCAA) notice letters. Rather that using its most inexperienced 
adjudication staff to perform initial review of claims, VA should 
employ more experienced adjudication personnel to review claims to 
determine what information or evidence each claimant should submit to 
VA in order to support their claims. After identifying the evidence or 
information that is needed to substantiate each claim these more 
experienced VA adjudication personnel should then have the 
responsibility to prepare and send VCAA notice letters to each claimant 
advising each claimant of the evidence or information they need to 
submit to VA in order to substantiate their claims.
    It also is important to realize that decisions made on appeal 
require greater expertise and often involve more complex questions of 
medicine and law. As such, it takes years to train a competent ratings 
specialist. Trainees and other adjudications staff with little claims 
rating experience should simply not be conducting appellate review due 
to the complexity of these decisions. Increases in staffing today 
should be seen as an investment in the future. Unfortunately, in the 
end, staffing issues do not have a quick fix.
    With regards to the VCAA notice letters, we believe that there is 
much room for improvement in their quality and readability. The only 
individuals impacted by what we deem to be substandard VCAA notice 
letters are veterans. Current VCAA notice letters issued by the VA tend 
to be long and contain complicated legal language that most average 
veterans cannot comprehend. By simplifying VCAA notice letters, 
claimants will have less confusion and will have a better understanding 
of the information and evidence that the VA needs to grant their 
claims.
    We also believe that VA should not be reluctant to issue 
regulations overruling court opinions that have required the VA to 
provide unnecessary information in VCAA notice letters. VA often 
complains that much of the delays that it experiences in developing and 
adjudicating cases result from Court opinions ``interpreting'' the 
nature and content of an adequate VCAA notice letter. Congress should 
consider amending the law to direct VA to fill in the contours of an 
adequate VCAA notice letter by regulation.
    The VA and veterans' service organizations can also explore 
opportunities to share resources for training. For example, PVA has 
prepared a Guide for Special Monthly Compensation (SMC) that has been 
adopted by the VA for use when training ratings specialists. This 
information has been included on the VA's intranet. The PVA Guide has 
also been distributed via BVA Special Monthly Compensation training. 
PVA staff also interacts with other veterans' service organizations at 
their training events. Moreover, Congress should require the VA to 
provide greater access for veterans' service organizations to VA's 
training modules.
    We remain concerned that VA does not readily accept medical 
statements and medical opinions prepared by private physicians. 
Congress should enact legislation that requires VA to accept a medical 
report or a medical opinion provided by a private physician unless VA 
is able to articulate sound reasons for declining to accept the private 
medical opinion. Experience seems to suggest that VA adjudicators are 
disinclined to accept private physician statements or medical opinions 
simply because the statements or medical opinions are prepared by 
private physicians and not VA doctors. These actions occur regardless 
of whether the private physicians' findings are sound. By refusing to 
credit private medical statements or medical opinions, VA unnecessarily 
delays adjudication in many claims.
    The veterans' service organizations play an active role in 
assisting veterans through their national service officer programs. As 
such, in recognition of the professionalism and expertise of the 
service officers who already work very close with VA staff, we believe 
certain opportunities to assist veterans filing claims should be 
expanded. First, Congress should authorize accredited veterans' service 
organization representatives to file any type of claim for the veteran 
without obtaining the veteran's signature. This will allow veterans to 
access benefits that they may not know are available in an expeditious 
manner. The VA should also authorize accredited service officers access 
to VA computer systems to input important data such as updates to 
personal information. This would relieve VA staff of some of the 
minutia that accompanies their own job responsibilities. It will also 
ensure that otherwise critical information impacting the claim filed by 
a veteran is updated in a timely manner.
                           oif/oef illnesses
    The Committee and, indeed, the full Congress, has focused a great 
deal of attention on mental health and TBI matters. Yet, the most 
common health condition of returning OEF/OIF veterans is not TBI or 
mental illness, but instead muscle and joint pain.

    Question 4. Do you have proposals on how to focus on this number 
one health concern from those who have served in Iraq and Afghanistan?
    Response. During the 110th Congress, PVA testified in support of 
legislation--H.R. 6122 and S. 2160--introduced in the House and Senate 
that would establish a system-wide pain care initiative within the VA. 
PVA supported the suggestion that comprehensive pain care in not 
consistently provided across the entire VA health care system. With 
that in mind, we were pleased to see that Public Law 110-387, the 
``Veterans' Mental Health and Other Care Improvements Act of 2008,'' 
included provisions that would require the VA to establish a 
comprehensive national pain management policy. Now we would encourage 
to the Committee to conduct extensive oversight to ensure that the VA 
is following through on this requirement. With a comprehensive pain 
care policy, the VA will be better prepared to meet the needs of those 
veterans from Operations Enduring Freedom and Iraqi Freedom who present 
with muscle and joint pain issues.
    We have seen firsthand the benefits of pain care programs as each 
VA facility that supports a spinal cord injury (SCI) unit also 
maintains a pain care program. Veterans with spinal cord injury know 
all too well the impact that pain, including phantom pain, can have on 
their daily life. The pain care programs that SCI veterans have access 
to have greatly enhanced their rehabilitation and improved their 
quality of life.
                                outreach
    Question 5. How are your organizations, individually or in some 
cooperative fashion, working to outreach to veterans and encourage them 
to take advantage of VA care and services?
    Response. PVA is the only congressionally chartered veterans' 
service organization that represents veterans with spinal cord injury 
or disorders (SCI/D). Through National Office programs, our Veterans' 
Benefits Department's Field Services Programs, and our Chapters located 
throughout the country, we reach out to all veterans with spinal cord 
injury or disorder, regardless of whether or not they are a veteran of 
the current conflicts or previous eras.
    PVA's Field Services program serves as the first point of contact 
in our outreach efforts to veterans. Through one of our more than 60 
National Service Offices throughout the Nation and Puerto Rico, we 
contact veterans with SCI/D to introduce them to PVA and begin 
providing them with all of the information and assistance they will 
need to navigate the VA health care and benefits processes. We assist 
veterans and their families through every stage of the VA's claim 
process from initial filing of a claim for benefits to the Board of 
Veterans Appeals. At the same time, our PVA chapters located in many of 
the same locations provide peer support and counseling, particularly to 
newly injured veterans.
    PVA is also unique in that it maintains an active Sports and 
Recreation program that serves as a different outreach arm. Through 
this program SCI/D veterans learn about opportunities within the VA, 
such as the National Veterans' Wheelchair Games and Winter Sports 
Clinic, as well as other sports and recreation opportunities that are 
available.
                             women veterans
    Question 6. VA has said that sufficient programs and funding 
already exist to care for women veterans. What would you point to as 
specific problems or shortfalls with respect to women veterans and what 
do you recommend that the Committee do to address these concerns?
    Response. Women have played a vital part in the military service 
throughout our history. In the last 50 years their roles, 
responsibilities, and numbers have significantly increased. Current 
estimates indicate that there are 1.8 million women veterans comprising 
nearly 8 percent of the United States veteran population. According to 
Department of Defense (DOD) statistics, women servicemembers represent 
15 percent of active duty forces, 10 percent of deployed forces, 20 
percent of new recruits, and are a rapidly expanding segment of the 
veteran population.
    Historically, women have represented a small numerical minority of 
veterans who receive health care at Department of Veterans Affairs (VA) 
facilities. However, if women veterans from Operation Iraqi Freedom/
Operation Enduring Freedom (OIF/OEF) continue to enroll at the current 
enrollment rate of 42.5 percent, it is estimated that the women using 
VA health care services will double in two to four years. Based on DOD 
rosters received through May 2, 2008, there are a total of 868,717 
military members who served in Iraq or Afghanistan and have since 
separated from active duty. Women have served 195,000 tours of duty in 
Iraq and Afghanistan; 89 percent were enlisted personnel who served in 
almost equal numbers on active duty and National Guard/Reserve 
components.
    As the population of women veterans undergoes exponential growth in 
the next decade, VA must act now to prepare to meet the specialized 
needs of the women who served. Overall the culture of VA needs to be 
transformed to be more inclusive of women veterans and must adapt to 
the changing demographics of its women veteran users--taking into 
account their unique characteristics as young working women with 
childcare and eldercare responsibilities. VA needs to ensure that women 
veterans' health programs are enhanced so that access, quality, safety, 
and satisfaction with care are equal for women and men. We see the need 
for VA to reevaluate its programs and services for women veterans and 
to increase attention to a more comprehensive view of women's health 
beyond reproductive health needs to include examining cardiac care, 
breast cancer, osteoporosis and colorectal cancer in women. A plan 
should established that addresses the increased overall demands on 
ambulatory care, hospital and long-term care, gender-specific services, 
and mental health programs recognizing the unique and often complex 
health needs of women veterans. Mental health integration into primary 
care is also essential for provision of comprehensive women's health.
    PVA would like to express our support for S. 252, the ``Veterans 
Health Care Authorization Act of 2009,'' which includes provisions to 
address women veterans' health care needs. Finally, we would encourage 
you to review the extensive section on women veterans' health care 
needs in the FY 2010 edition of The Independent Budget which outlines 
significant recommendations that we believe can best address the needs 
of women veterans.
                               paperwork
    Question 7. What is your organization's opinion of VA's expanded 
paperwork protection policy that came about as a result of the 
Inspector General's audit which found that VA regional office personnel 
had mishandled some claims documents--is VA's new policy on shredding 
appropriate?
    Response. We believe that the VA's rapid response to the 
``Shredding'' issue has been more than adequate. Following disclosure 
of these incidences, PVA received timely briefings from the 
Undersecretary for Benefits and we were given an opportunity to provide 
suggestions and ideas as to how to address the problem. While it is 
atrocious and simply unacceptable that some claims adjudication staff 
would deliberately destroy claims or evidence, we have seen that VA did 
hold those individuals responsible and accountable for their actions.
    One suggestion we would like to make is that accountability should 
be made a standard for all operations in VA and that evidence that 
accountability must be more commonplace. Accountability measures should 
not be taken primarily as a reaction to a high visibility 
investigation, as has been the case too often in the VA.
                                stimulus
    Question 8. The Senate stimulus package includes appropriations for 
VA, especially $3.7 billion included for VA infrastructure projects. 
What are your views?
    Response. PVA is pleased that the Senate chose to include a 
substantial amount of funding in the stimulus package. We were 
subsequently disappointed that funding for Major and Minor Construction 
was removed from the compromise Stimulus bill. The legislation 
identifies areas of significant need within the VA system, particularly 
as it relates to infrastructure needs. As explained in The Independent 
Budget, there is a significant backlog of major and minor construction 
projects awaiting action by the VA and funding from Congress. We have 
been disappointed that there has been inadequate follow-through on 
issues identified by the Capital Asset Realignment for Enhanced 
Services (CARES) process. In fact, we believe it may be time to revisit 
the CARES process all together.
    We are also pleased that the Stimulus bill identifies two areas of 
particularly critical need--non-recurring maintenance (included in the 
Medical Facilities account) and grants for state extended care 
facilities. In the last couple of years, Congress has provided 
substantial increases in funding for non-recurring maintenance. The VA 
has historically not invested adequate funding into its maintenance 
needs. In fact, the non-recurring maintenance accounts were often 
cannibalized during periods of budget shortfalls. The funding included 
in the stimulus bill should allow the VA to begin to break the logjam 
of maintenance needs.
    There is also a real demonstrated need for additional funding for 
state extended care facility construction. Considering the rapidly 
aging veterans' population and the growing demand for long-term care 
services, it is imperative that state grant funding be increased to 
better position the VA and states for the future.
                                 ______
                                 
 Response to Post-Hearing Questions from Hon. Bernard Sanders to Carl 
  Blake, National Legislative Director, Paralyzed Veterans of America
              extended and different hours for va services
    As I mentioned in my opening remarks, I have heard from many 
veterans who want to get to the VA for care but they can't make it 
because of work. I believe we need to increase accessibility of the VA 
to all types of veterans, including those with full-time jobs, by 
providing evening and weekend hours so that people won't have to choose 
between going to work and keeping a VA appointment. This could also 
help reduce missed appointments which waste time and resources of VA 
staff. My office is currently exploring what kind of authority VA needs 
to begin providing extended hours on a one night a week and one weekend 
day a week basis, possibly in the form of a pilot program.

    Question. What do members of the panel think about this idea?
    Response. In recent years, the VA has undertaken a process to 
improve the management of patient access to care. This has been done 
through the Advanced Clinic Access Initiative. Through this initiative, 
the VA focuses on improving patient flow and demand which has a 
significant impact on access.
    In a report released in 2008 by Booz Allen Hamilton which the 
Veterans Health Administration (VHA) contracted for, Booz Allen 
conducted an independent review of VHA's scheduling process and metrics 
in response to several VA Office of Inspector General (OIG) reports. 
The OIG reports found outpatient waiting times reported by VHA to be 
unreliable. In its final report, Booz Allen made a number of 
recommendations including VA needing to take aggressive steps to use 
fixed infrastructure more efficiently. The recommendations also 
included providing services at off-peak hours, such as early mornings, 
evenings, and Saturdays, when fixed assets are, currently, largely 
unused.
    PVA believes that expanding VA clinic hours to evening and weekend 
schedules could certainly provide an excellent opportunity to address 
patient demands on the VA. However, it is imperative that VHA be given 
additional resources to account for this increase in workload. 
Expanding access hours will certainly increase the overall cost to the 
VA to provide health care.

    Chairman Akaka. Thank you very much for your testimony.
    Now we will hear from Mr. Cullinan.

 STATEMENT OF DENNIS CULLINAN, DIRECTOR, NATIONAL LEGISLATIVE 
               SERVICE, VETERANS OF FOREIGN WARS

    Mr. Cullinan. Thank you very much. Chairman Akaka, Ranking 
Member Burr, distinguished Members of this Committee, on behalf 
of the men and women of the Veterans of Foreign Wars, I want to 
thank you for asking us to participate in today's hearing.
    I also want to salute you for conducting it so early in the 
legislative season. I think it is something that will allow us 
to move forward together in a more cohesive and effective 
manner, and we really appreciate your having done that.
    I will just briefly touch upon some of our legislative 
priorities, all of which have already been addressed by my 
colleagues here at the time.
    A sufficient budget for VA is the first thing I will talk 
about. The necessity for that is something we all agree upon.
    With respect to advance funding, that is something that we 
now strongly support. With respect to that, this year's budget 
is a highly sufficient budget and it arrived on time. That is 
remarkable, not only in its sufficiency but in its rarity.
    We do not think that VA funding is targeted for delay. It 
simply gets caught up in the annual budgetary wrangling that 
takes place, and that is why we continue to support advance 
funding for VA. It takes the VA funding out of that annual 
struggle and will allow the system to run more effectively and 
efficiently, and everyone benefits from that.
    Another issue with us is women veterans. We are very 
pleased to learn that legislation introduced last year 
providing women veterans' health care is included in this 
year's S. 2552. We salute you for having done that.
    Women veterans are still grossly under-represented in the 
system, and I am sure there are a variety of reasons for that. 
But this kind of legislation will provide not only better care, 
but we think increased utilization by women.
    We would also mention to you another. Minority veterans 
need to be better cared for.
    Rural veterans is something Senator Burr touched upon. With 
urban veterans, they too seem to suffer their own form of 
isolation at times. So that is a group that needs to be better 
provided for.
    VA benefits and compensation: We salute the Congress for 
the additional resources and personnel that have put into the 
system. At this juncture, probably what is best needed is 
ongoing and stringent oversight by this Committee and the 
Congress with respect to the utilization of these resources.
    Another issue, of course, is retention. We and others have 
talked about this before. Someone who is bright enough to be an 
adjudicator and persistent enough--especially in a city such as 
Washington as a great example--if they are able to do that type 
of job, well, typically they can do something else for a lot 
more money and a lot less stress in their lives. So, something 
that has to be looked at is how we do we keep adjudicators on 
board, given the rigors of their profession and the obvious 
fiscal temptation to go elsewhere.
    Seamless transition: We strongly support that. It is an 
issue of medical records transferability between DOD and VA. It 
also touches on such things as training, job procurement and, 
of course, the implementation of the GI Bill. I think we all 
stand as one on that particular issue.
    Military quality-of-life is a key issue with us. We very 
much appreciate the fact that there is money--additional money. 
I think it was $3.75 billion in the stimulus package for VA 
facilities, an additional in the billions amount for military 
housing, facilities, that kind of thing. We salute the Congress 
for having done that. It is very much needed.
    And we would certainly maintain that it is shovel-ready in 
a sense, that both institutions--both agencies, departments--
are in a state to spend the money right away. So it serves 
veterans, serves active duty military and serves the purpose of 
stimulating the economy.
    Veterans employment: Again, things such as USERRA need to 
be more stringently enforced. The provisions of USERRA need to 
be more stringently enforced. There are still stories that we 
hear of people not getting their jobs back. Veterans' 
preference is another incident in hiring which needs to be 
monitored more closely.
    The last thing I would mention here today is the 3 percent 
governmentwide procurement goal. Again, the Department of 
Veterans Affairs meets this goal amply. However, I do not know 
where else in the Federal bureaucracy--perhaps DOD--where that 
actually takes place.
    And with that, Chairman Akaka, thank you very much. I 
appreciate your giving us this opportunity.
    [The prepared statement of Mr. Cullinan follows:]
 Prepared Statement of Dennis Cullinan, Director, National Legislative 
         Service, Veterans of Foreign Wars of The United States
    Mr. Chairman and Members of the Committee: On behalf of the 2.4 
million men and women of the Veterans of Foreign Wars of the U.S. (VFW) 
and our Auxiliaries, we appreciate the opportunity to present our views 
and concerns on this year's legislative priority goals for veterans.
                             va health care
    The VFW calls on Congress to pass a sufficient budget for the 
Department of Veterans Affairs so that it can properly care for all of 
America's sick and disabled veterans.
    The VFW urges funding for the Department of Veterans Affairs to be 
sufficient, predictable and timely, ending the trend of the last decade 
wherein VA's budget has been delivered months late.
    Congress must ensure that the unique health care and benefits 
challenges of OEF/OIF veterans are met, to include increased funding 
for Traumatic Brain Injuries and other related disabilities, as well as 
improved access to care, especially for veterans suffering from mental 
illness and for the growing number of women veterans accessing the 
system
    The VFW calls on Congress and VA to increase priority given to 
women veterans by providing adequate services by hiring specialized 
health care providers and by providing training in gender-specific 
issues to help address shortfalls in gender-specific care and mental 
health care services for PTSD, Military Sexual Trauma and other needs.
    The VFW urges the Department to improve outreach so that all 
veterans are aware of the range of health care services and benefits 
available to them, especially with female, minority and rural veterans, 
who may be less aware of their rights than other groups of veterans.
                      va benefits and compensation
    The VFW asks Congress to provide adequate resources to enable the 
Veterans Benefits Administration (VBA) to reduce the current backlog of 
claims.
    To protect the needs of current and future veterans, the VFW 
opposes any changes to the current definition of ``line of duty,'' 
structural changes to the programs for disability and survivors' 
benefits, or curtailment of veterans' or beneficiaries' rights of 
entitlement or to appeal benefit decisions.
                          seamless transition
    The VFW demands a truly seamless transition for those men and women 
serving in uniform who are transferring from the Department of Defense 
to the Department of Veterans Affairs. We envision a system with a 
truly integrated electronic medical record that travels wherever the 
servicemember is stationed eventually to VA where it follows the 
veteran to wherever he or she receives health care.
    The VFW urges Congress and the Administration to improve the 
transition services and benefits provided to our veterans to ensure a 
steady and safe return to civilian life, including viable training, 
employment and education programs that address the realities of the 
current and future job markets to provide meaningful careers and not 
just temporary jobs.
                        military quality of life
    The VFW calls on Congress to fully fund all programs that enable 
our troops to succeed in their mission. We must ensure our active duty, 
guard and reserve members are provided increased pay, affordable health 
care, and adequate housing and work facilities for themselves and their 
families.
                               employment
    The VFW calls on Congress to ensure that the provisions of the 
Uniformed Service Employment and Re-Employment Rights Act (USERRA) are 
strictly enforced.
    Support the National Committee for Employer Support of the Guard 
and Reserve in its efforts to educate employers on the ever-increasing 
importance of hiring National Guard and Reserve members and the 
employer's responsibilities as mandated by USERRA.
    Urge Congress to amend Public Law 106-50 to state that the three 
percent governmentwide procurement goal for Service Disabled Veteran-
owned Small Businesses should be mandated and require agencies to 
report their procurement levels and held accountable if they fail to 
meet their three percent SDVOSB procurement requirement. We further 
urge Congress to exercise oversight to ensure adherence to existing 
laws related to SDVOSB and Executive Order 13360 with the goal of 
meeting and exceeding the three percent government procurement 
requirement for SDVOSBs.

    We thank this Committee for the opportunity to share our views, and 
we welcome any questions.
                                 ______
                                 
    [The VFW failed to respond to post-hearing questions 
submitted by Senators Akaka and Sanders prior to printing.]

    Chairman Akaka. Thank you very much for your testimony, Mr. 
Cullinan.
    Now we will hear from John Rowan.

              STATEMENT OF JOHN ROWAN, PRESIDENT, 
                  VIETNAM VETERANS OF AMERICA

    Mr. Rowan. Aloha, Senator Akaka and Senator Burr and the 
other distinguished Members of this Committee.
    Chairman Akaka. Aloha.
    Mr. Rowan. And, especially to new Members, we welcome you 
to the veterans community, which is really what we all are.
    On behalf of the members of Vietnam Veterans of America and 
our families, I am pleased to present to you our legislative 
agenda for the 111th Congress and thank you for the work that 
was done in the 110th Congress because we have made significant 
strides; but still there is a lot of work left to be done.
    Obviously, we continue to support, along with our 
colleagues, the advance appropriations for the VA budget. As 
has been mentioned, a lot of us have the same agenda. We kind 
of get together on these things even though we have different 
backgrounds.
    We also obviously support the restoration of eligibility by 
2012 for all Priority 8 veterans who choose to use the VA 
system.
    We are concerned about transforming the VHA, the Veterans 
Health Administration, to an open evidence-based system that 
would include taking a complete military history for each 
veteran enrollee and using it in diagnosis and in treatment 
modalities.
    We are also concerned--and it is a little off the veterans 
field--but there is a big movement now to create an electronic 
medical health record for everybody in the United States, and 
it is part of President Obama's new initiative and part of the 
stimulus package. When they roll that out, we want to ensure 
that the 80 percent of veterans in the United States who use 
the private medical sector find about issues as well, and that 
particular new electronic medical record system includes in the 
patient history section significant questions about military 
history.
    And so, when they ask the question--which they have never 
done before in my life, in my 30 years with my HMO--are you a 
veteran, and they get my answer. When they ask, are you a 
Vietnam veteran, and they get the answer, they should ask 
further questions to make sure I get my prostate checked and 
make sure I get my--I am a diabetic already. So I do not have 
to get that checked anymore. But I mean they do not ask that 
question, and it is very important.
    If we roll this important new phenomenon into the rest of 
the United States like we have in the VA, we need to make sure 
that the veterans who are out there and are not in the VA 
system get understood about what their health needs are. So, 
for the Vietnam veterans with Agent Orange, the Persian Gulf 
veterans with Gulf War Syndrome and the new veterans with God 
knows what is going to pop out.
    We also are concerned about finally getting the VA to do 
the National Vietnam Veterans Longitudinal Study. We think that 
there were so many questions about what has happened to Vietnam 
veterans and why we are dying at such a fast rate, and, 
frankly, we think higher than our peers who did not serve in 
Vietnam. That study would have told us why, and we might find 
some things out without waiting for the scientists to answer 
all the questions.
    And, obviously, we are concerned about the pension system 
as well. I mean it is just ludicrous. I retired 8 years ago 
from the city of New York, and I was a manager. I walked out of 
there, working on a massive computer system, and I could read 
1,500-page contracts online. Along with 10 other people reading 
the same contract at the same time. I do not understand why the 
VA cannot scan documents and set up a decent system.
    We have a new proposal that we want to put on the table. We 
believe that the VA should create a Veterans Economic 
Independence Administration to be headed by an under secretary. 
Such an entity would take responsibility for: the Center for 
Veterans Enterprise; vocational rehabilitation services; 
veterans preference (which is not done very well in the 
government); and would be given functional control over the 
Veterans Employment and Training Service, which currently 
resides in the Department of Labor.
    Frankly, as Dennis, I think, mentioned the 3 percent rule 
as well, nobody in this government lives up to the 3 percent 
rule, which says that service-disabled veterans and veteran-
owned businesses are supposed to get preference in contracting. 
It does not happen, and we need to rectify that situation.
    We think that if we created this entity inside the VA to 
focus on the economic independence of the individual veteran--
whatever he or she wants to do, whether go to work, start a 
business or a combination of both, whatever the case may be--to 
focus on that aspect of the reintegration of people into 
society. And so, we really urge you to take a look at that and 
to consider that possibility.
    We really do not even think it would cost very much. It 
might even save some money. We are just talking about moving 
people around and putting them under somebody. So you'd get a 
new Under Secretary of VA Economic Independence. That might 
cost a little bit, but we think it would be a worthwhile effort 
and certainly goes along with a lot of what our other 
colleagues have been talking about, particularly with the newer 
veterans coming back and getting into a new life in many cases.
    But I must tell you, even some of my old Vietnam veterans, 
when they retire, often go into business because, frankly, 
nobody can afford to live on what they retire on anymore and 
especially in this economy. And so, that is a big component of 
what we see happening in the future.
    And so, we urge you to take a look at this proposal, and we 
thank you for having this hearing, again, so early. I agree 
with Dennis. We like the idea of getting a running head start 
on this.
    We look forward to working with everybody on the Committee, 
and we look forward to answering any questions you may have. 
Thank you.
    [The prepared statement of Mr. Rowan follows:]
         Prepared Statement of John Rowan, National President, 
                      Vietnam Veterans of America
    Good morning, Senator Akaka, Senator Burr, and other Members of 
this distinguished Committee. On behalf of the members of Vietnam 
Veterans of America and our families, I am pleased to present to you 
VVA's main legislative priorities for the 111th Congress.
    Too often, it seems to many that the government puts off dealing 
with the healthcare problems of entire generations of veterans. For 
instance, the Gulf War has been over almost twenty years and the 
government is finally confronted with evidence that is difficult to 
refute that there are real maladies associated with military service, 
illnesses that do not constitute as ``syndrome'' but are real and 
debilitating nevertheless. The government's actions are unacceptable. 
Hence the need for legislative remedies. What follows are priorities 
that, if enacted and enforced, will, it is our belief and our hope, 
make the VA more efficient in caring for our Nation's veterans.
    <bullet> Enact legislation to provide Advance Appropriations to 
fund veterans' health care. On this issue, VVA is in lockstep with the 
other veterans service organizations that have come together in The 
Partnership for Veterans Health Care Budget Reform. This is our main 
priority. If legislation is enacted to make Advance Appropriations for 
the Veterans Health Administration the law of the land, it will enable 
VA managers, at VA medical centers and VISNs, to actually plan for the 
next fiscal year while Congress debates the budget. And, while Congress 
has been quite generous to veterans in the 110th Congress, as you are 
well aware, Congress has been late 19 out of the past 22 years in 
passing the budget. We believe that Advance Appropriations will solve 
many of the problems encountered by the VHA, and will enable veterans 
health care to realize a predictable, reliable, sufficient and, perhaps 
most important, timely funding stream.
    <bullet> Legislation also should ensure the restoration of 
eligibility by 2012 for all Priority 8 veterans who choose to use the 
VA health care system. To ensure that the system can accommodate them, 
we believe Congress should mandate that the VA increase the income 
ceiling by $5,000 every six months. We do not advocate the wholesale 
entry of Priority 8s into the system, as the system will be overrun. 
But you will be wise to note that Priority 8 veterans, along with 
Priority 7s, account for 40 percent of third-party reimbursements into 
the VA's coffers. To a very great extent, they do pay for themselves.
    <bullet> Legislation may be needed to transform the VHA to an open, 
evidence-based system. This should include taking a complete military 
history for each veteran enrollee and using it in the diagnosis and in 
treatment modalities. It would also include verifying that all VA 
physicians and other clinicians complete each of the Veterans Health 
Initiative curricula in the wounds, maladies, illnesses, and other 
conditions that derive from military service, e.g., one's branch of 
service; when one served; his/her M.O.S. (Military Occupational 
Specialty); where one served and when; and what one actually 
experienced. This should help transform the VHA into a wellness system 
that focuses on prevention, early and effective interventions, and 
innovative methods of motivating enrollees toward healthy lives as well 
as innovation that evolves into better and more effective treatments.

    <bullet> Legislation is needed, again, to mandate that the VA 
finally conduct the National Vietnam Veterans Readjustment Study 
(NVVRS), which would illuminate the health status, both physical and 
mental, of Vietnam veterans--men, women, minorities. The VA has 
consistently refused to do this study, citing what we believe are 
fallacious reasons. Congressional action, therefore, is very much 
needed.
    <bullet> And congressional action is needed to ensure that the VA, 
as well as the National Institutes of Health, ensure that research is 
done on the health effects of exposure to Agent Orange, to dioxin. We 
ask specifically for research into the potential intergenerational 
effects of a parent's exposure on his/her children and grandchildren. 
We receive far too many calls from these folks telling tales of birth 
defects and learning disabilities that they were born with and that 
have been passed down to their children and they wonder: Could these 
health problems derive from a parent's exposure in Vietnam to Agent 
Orange? We wonder this, too.
    <bullet> Additional legislation will be needed to revamp the VA's 
compensation and pension system, stipulating the integration of state-
of-the-art IT to include artificial intelligence, competency-based 
testing of all service representatives and adjudicators, and other 
necessary reforms. Legislation also should be enacted to automatically 
give veterans who file claims for benefits at least 30 percent if their 
initial claim is not adjudicated within 90 days, or if their appeal is 
not decided within 180 days from the time of filing. Additionally, 
legislation should provide for an across-the-board 25 percent increase 
in payments for all veterans receiving benefits, including DIC and non-
service pensions, to help them negotiate the economic realities in 
these hard times.
    <bullet> Legislation is needed that would mandate the creation 
within the VA of a Veterans Economic Independence Administration, to be 
headed by an Under Secretary. Such an entity would take responsibility 
for the Center for Veterans Enterprise, vocational rehabilitation 
services, veterans preference, and would be given functional control 
over the Veterans Employment and Training Service, which currently 
resides in the Department of Labor.
    <bullet> The VA health care system has evolved principally on the 
medical needs of the male veterans. However, according to figures 
supplied by the Department of Defense (DOD), 20 percent of new recruits 
are women, almost 15 percent of America's active duty military are 
women, and nearly half of them have been deployed to Iraq and 
Afghanistan. This has particularly serious implications for the VA 
healthcare system because the VA itself projects that by 2010, over 14 
percent of all veterans seeking VA health care services will be women, 
compared with two percent in 1997. VVA is requesting congressional 
legislation to bring into modern times, the delivery of the VA's 
medical and mental health care for women veterans, which would also 
ensure that the VA would eliminate disparities in care based on gender. 
It would also ensure that the resources are appropriated to make steady 
progress toward the goal of virtually eliminating veterans who are 
homeless by 2012. Part of the need is for additional authorizing 
legislation, and part of what is needed is full funding of programs 
that have been proven to work, such as the DOL Homeless Veterans 
Reintegration Program (HVRP, which is currently authorized at $50 
million).

    These represent our significant priorities. We have as well a wish 
list of legislative actions that we will present to you shortly, that 
focus on specific areas of concern.

    Now, I thank you for your interest and consideration of these 
issues, and I will be pleased to respond to any questions you may have.
                                 ______
                                 
    [VVA failed to respond to post-hearing questions submitted 
by Senators Akaka and Sanders prior to printing.]

    Chairman Akaka. Thank you very much for your statements and 
your testimony.
    Before we begin our questions, I want to inform our Members 
and our witnesses that we expect an 11 a.m. vote, and our goal 
is to try to get to that vote at 11. So, let's begin with the 
questions.
    My question is for the panel, and it has to do with health 
care financing. You have all listed VA health care finance 
reform and advance appropriations as a top legislative 
priority. Given that the budget for the current fiscal year was 
enacted on time and with a record-setting amount, what would 
you say to those who say that advance appropriations is 
therefore not needed?
    Mr. Cullinan. Mr. Chairman, if I may, I will begin.
    As I mentioned earlier, we very much appreciate what the 
Congress accomplished with this particular budget package, but 
it is absolutely no guarantee it is going to happen in the near 
future. Undoubtedly, I think in our collective view, there will 
be entanglements in the future with respect to funding. So the 
need for advance appropriations is still there.
    Mr. Blake. Mr. Chairman, I shared a document that I put 
together with some other Appropriations Committee staff who had 
asked us the very same question.
    If you were to use the THOMAS Web site and go look at the 
appropriations bills that go back as far as THOMAS goes, which 
is 20 years, you would find that in those 20 years only 3 years 
saw the appropriations actually passed prior to October 1. In 
fact, in many cases, you will find that it was passed in 
December, January and, in a couple of cases, February.
    So, while we certainly appreciate everything that has been 
done in the last 2 years, and the fact that the appropriations 
bill was enacted prior to October 1 last year, I would say that 
that suggests an anomaly, not the norm.
    Chairman Akaka. Thank you.
    Mr. Atizado. Mr. Chairman, if I may?
    Chairman Akaka. Mr. Atizado.
    Mr. Atizado. There is another issue I think has not been 
addressed by my distinguished colleagues, and that is the other 
provisions in the bill--in the bill which you introduced--which 
includes a transparency of the budget process. I mean we just 
received a GAO report a couple weeks ago talking about VA's 
long-term care budget projections, which they found to have 
some questionable data used to drive their budget proposal.
    We believe that having that provision in the bill which you 
introduced is another key feature that would help not only 
foster a meaningful debate between Congress and the Department 
as well as the veterans services organization, but to be able 
to do so on equal footing--talking about the same kind of data, 
apples-to-apples sort of things. I think that would go a long 
way. That does not, I believe, currently exist now with the 
current budget process.
    Chairman Akaka. Thank you.
    Any other comments?
    Yes, Mr. Stoline.
    Mr. Stoline. Yes, sir. Thank you.
    We are concerned. It is the delivery of the health care we 
are concerned about. From our field service representatives, 
they are getting information from the various facilities that 
they do not have the money soon enough to plan properly for the 
hiring of personnel and for the provision of equipment, and so 
that is our main concern.
    While we appreciate the timeliness up here in the Congress 
of the passage of the appropriation it has to be followed 
through to the veteran who needs the service. That is why we 
think with a budget known a year in advance the Congress can 
hold the VA accountable for not providing those services in a 
timely and efficient manner.
    Mr. Bowers. Mr. Chairman, if I could just build off of that 
also. We are finding that a lot of our membership, as they 
return and get out of the military, are going to work for the 
VA; and they act as a very effective conduit to let us know 
what some of the issues are. Some of the problems that we have 
found is that they have difficulties in regards to increased 
hiring and also advancements of programs that provide direct 
outreach to servicemembers. Every year, they basically are put 
on pause for a few months until they find out what their 
budgets are going to be.
    So, it is the continuity of care that we are pursuing. By 
having the advance appropriations, it will really help that 
tremendously.
    Chairman Akaka. Thank you.
    Mr. Rowan. We concur.
    Chairman Akaka. Thank you. Thank you very much, Mr. Rowan.
    This is just a quick comment, Mr. Stoline. I appreciate The 
American Legion's support of providing benefits to the Filipino 
World War II veterans. It appears, though, that we have a 
difference of opinion on the appropriateness of the offset that 
would pay for these benefits. The validity of the Harkness 
court decision will be revisited during a legislative hearing 
later this session, and we look forward to working with The 
Legion on the specifics of that decision.
    So, I just wanted to make that comment. You did mention 
that in your testimony.
    Mr. Stoline. Thank you, sir. And we also provided in our 
written testimony some alternative views on how that could be 
paid for.
    Chairman Akaka. Thank you. Thank you very much.
    Let me then call on Senator Burr for his questions.
    Senator Burr. Thank you, Mr. Chairman.
    I think it is evident that high on the list of everybody's 
priorities is the budget issue. Let me share something with 
you.
    We contacted the Congressional Research Service. They were 
very specific. To go to an advance budget process does not 
require legislation. The Congress has it in its power to adjust 
the internal process to produce a budget that would pre-fund. 
So the fact that we are all calling for legislation, it is not 
required.
    Congress can, tomorrow, determine that we are going to do 
an advance budget for VA, and we have the power to do that. You 
just have to convince the Chairman of the Budget Committee and 
the Chairman of the Appropriations Committee. So it does not 
require a legislative remedy.
    I agree with all of you that timely, predictable, 
sufficient budgets are absolutely essential, and I think most 
of us at some time or another have complained about the fact 
that VA budgets and VA appropriations are held hostage to the 
overall appropriations process.
    Let me share one concern that I have. I have yet to find a 
piece of the Federal Government that can adequately predict 
what an appropriate amount is for next year of any agency.
    I would assume that if I asked all of you what gauge to use 
to determine that budget in advance, you would probably suggest 
the VA Enrollee Health Care Projection model.
    Well, GAO, for the VA's 2005-2006 budget shortfalls, said 
that that resulted from unreliable data. We all agree that the 
data VA uses to process all their information is usually 2 to 3 
years out of date. So, in essence, to do advance appropriations 
we would rely solely on what we know is outdated data. That is 
what I am hearing you ask for.
    Let me pose a question to all of you and get you to 
respond. If, in fact, we took a different approach and we said 
this: that if the VA appropriations are not completed by 
October 1, we would automatically put into place for that 
year--regardless of who they are--the President's budget number 
for the VA. Would that suffice?
    Mr. Stoline. The American Legion has talked about that 
issue, and we have concerns about it, that it would not 
suffice. We do not think that the Congress should give up its 
constitutional duties to appropriate funds to a Presidential 
budget that might be politically driven and might actually 
lower the amount of funds available, thus forcing us to accept 
that amount.
    I know you think it might be a form of mandatory 
appropriations, but we do not see it that way.
    Mr. Cullinan. Senator Burr, I would just add that what you 
just described, that kind of concurrence would have to occur 
annually, I assume, where the Congress would just go ahead and 
say, all right, we will fund the VA in advance, lacking 
legislation.
    So, at least to my mind, that would amount to almost the 
same thing as what we have. The Congress would have to say 
every year, OK, we will go forward with this funding on time.
    With respect to the President's budget, I cannot think of 
an exception where we have not found the President's budget 
submission--regardless of who it is, Democrat or Republican--
having been lacking. So, we have had to go to the Congress, and 
the Senate especially has been terrific in answering the call, 
the veterans' call for sufficient funding.
    So you have two things. That kind of process that you just 
described would be an annual process which is similar at least 
to what we have already got. And, second, in the past, the 
President's budget just has not been up to snuff with our 
funding recommendation.
    Mr. Blake. Senator, might I ask you a question?
    Senator Burr. Sure.
    Mr. Blake. In your proposal, would that be sort of the 
short-term fix each year until the appropriations bill would 
then be completed? Is that what you are suggesting?
    Senator Burr. Clearly, we can pursue any avenue. What I 
have tried to address is timely, predictable, sufficient.
    I do not believe there is a President that is going to 
propose, regardless of what party they come from, something 
they perceive to be less than needed. It may not be everything 
everybody wants, but not less than needed.
    The Congress has the ability, as we have shown every year 
since I have been in the U.S. Senate and I think the U.S. 
House, that if there was a shortfall they stepped in with some 
type of supplemental funds.
    What I am trying to do is find some common ground where we 
do not lock ourselves into a budget that is computed based upon 
bad data which might have a bad outcome, meaning a shortfall, 
where continually we are relied upon to go back and have to do 
supplemental appropriations throughout the year. And I would 
imagine every time we find some way to pay for it, there is 
going to be an objection, possibly by somebody in the room if 
not somebody in the country, because we are going to take their 
money.
    In fact, here is a way to get on October 1 the surety that 
funding is in place, that planning can go on within the VA and, 
if in fact for some reason, the Presidential budget was 
insufficient the Congress has the ability to step in and do a 
supplemental at that time.
    If not, we have locked ourselves into a budget a year in 
advance, potentially, only to get to the October prior to and 
have everybody tell us that the amounts are insufficient.
    So, either way, the likelihood is somebody or all of us 
collectively will say they are insufficient. The remedy is the 
same. We can choose collectively now to go with a pre-funded 
budget by year or we could say let's punt. And, if, in fact, 
Congress cannot do their business, if it is caught up in a 
process where the VA is held hostage, then the President's 
budget numbers trump and they take effect on October 1.
    I just ask you all to think about it. My time is expired.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman.
    I very much appreciated your testimony. What I find 
exciting is I think we are pretty much on the same page. I 
think we have made some progress in the last 2 years. I think 
under President Obama we are going to make more progress, and 
it is imperative that we continue to work together on many of 
the issues that you have raised and Members of the Committee 
have raised.
    Let me just start off with Carl Blake.
    Mr. Blake, can you tell the Committee why you think the 
Automobile Grant Program needs to be updated and why is it an 
important benefit; and would you support legislation to 
increase the existing benefit from $11,000 to $22,500 and 
include an index for annual adjustment of the benefit so that 
it always covers 80 percent of the cost of a new car?
    Why is this an important benefit and who utilizes it?
    Mr. Blake. Well, Senator, in answer to the second part of 
your question, we would absolutely support legislation as we 
have done in the past. It is also outlined in great detail in 
the Independent Budget as it has been in years past.
    Interestingly, this benefit is tied to some degree to the 
Specially Adapted Housing Grant. Both of these benefits are 
meant to increase independence and help individuals who incur a 
catastrophic disability to recognize things that they might not 
otherwise be able to achieve. Those are: owning a home; and 
independence through having their own automobile.
    Last year, the Congress did improve the Specially Adapted 
Housing Grant and I think achieved a level where it is not 
likely you will hear us talking about that much further because 
there was an index added to that.
    We were disappointed that the Adapted Automobile Assistance 
Grant did not include the same kind of an increase. Much like 
the Adapted Housing Grant had done over the years, the value of 
this particular grant has eroded significantly.
    Senator Sanders. Very briefly, explain to everybody what 
the Adaptive Automobile Grant is.
    Mr. Blake. Well, it is basically a grant that allows an 
individual, once they purchase a car, to then pay for 
everything that is necessary to accommodate their disability--
any type of adaptive equipment, whether it be for hand 
controls. In cases where an individual has a temperature 
control issue, it could pay for air conditioning or a different 
type of heating system or lifts.
    Senator Sanders. In other words, what we have is veterans 
coming home who do not have the capability to drive a normal 
car, and what this does will upgrade or make the improvements 
in their car so that they can get the transportation that they 
need. We look forward to working with you on that.
    Let me throw out to all of the VSOs a very simple issue, 
and you tell me if I am missing something here. I have found in 
Vermont that we have CBOCs--and I am a great fan of CBOCs. I 
want to see CBOCs expanded. But, unfortunately, not everybody 
gets sick or needs to go to a doctor, has the time to go to a 
doctor Monday through Friday, 8:30 to whatever it may be, 5.
    I have never understood why the clinics are not kept open 
at least some evenings a week and maybe on Saturdays to 
accommodate people who have time concerns, i.e., maybe they 
work or something. Is that sensible?
    Who wants to comment on that?
    Mr. Rowan. Yes, I will jump in.
    I think that we have agreed and then talked about that idea 
in previous testimonies years ago, about the idea of expanding 
the hours of all the clinics in the VA system, period--not just 
the CBOCs, but also the clinics associated with the hospital 
systems.
    Senator Sanders. Right.
    Mr. Rowan. We are still seeing some problems with 
timeliness and the problems with the ability, even within the 
hours that we are constrained to, of getting appointments.
    Senator Sanders. Right.
    Mr. Rowan. And I can give you an example. I had to cancel 
an appointment I had yesterday because I had to come to D.C. 
for a meeting, and my next appointment--because the first 
available appointment from my primary care doctor, and this was 
just a visit to check on my test scores--will be in March; well 
over a month.
    Senator Sanders. Right.
    Mr. Rowan. And so, yes, I fully concur with the idea of 
getting more people into the system, more people and more 
hours, especially for those who are still working.
    Senator Sanders. What about Saturday hours, maybe even 
Sunday and evening hours? Does that make sense to people?
    Mr. Rowan. Use the facilities.
    Mr. Atizado. Senator Sanders?
    Senator Sanders. Mr. Atizado.
    Mr. Atizado. Thank you, sir.
    I believe VA had, I am not sure if it was in testimony or 
as a press release, had mentioned extending clinic hours. The 
question at this point is how many and to what extent, because 
any increase in operation hours may not necessitate an increase 
in their manpower. And it is obviously a great idea.
    I mean, as my colleague here had mentioned, there is a 
capacity issue in VA. I think it is a reasonable tool to have.
    Senator Sanders. Other thoughts?
    Mr. Stoline. The American Legion would support more access 
for health care for veterans, and that would be one way to 
provide it.
    Senator Sanders. Do we know? I am just raising this 
question to anybody. Is there any reason now why a CBOC or a 
medical facility in any State in the country could not have 
extended hours other than budgetary issues?
    I suspect there is not any. They could do it or they could 
not? Yes, they could. OK. So it is basically a budgetary issue.
    OK. My time is expired. Thank you very much, Mr. Chairman.
    Chairman Akaka. Senator Johanns.
    Senator Johanns. Mr. Chairman, thank you.
    And thanks for your testimony. I appreciate it.
    I have one question. I am not exactly certain who wants to 
respond to it, but let me put it out there.
    We have a rehabilitation hospital in Lincoln called 
Madonna. It is first class. I know people who have been 
serviced there or served there, and it just really is 
outstanding.
    As I understand it, there is a relationship with Madonna in 
the Western Iowa and Nebraska Regional VA System. They 
contracted for services out of this facility.
    I would like to hear your thoughts about this approach, 
kind of a public-private sort of approach, especially in areas 
like my State where you have a lot of rural area and somewhat 
limited services. Do you see more of this happening?
    Is it a good idea? Is it something we should be pursuing?
    Mr. Cullinan. Senator, speaking for the VFW, we support 
providing care on a contract basis when it is necessary in 
situations where the care in rural remote areas where a VA 
provider simply isn't available. In situations where certain 
types of specialty care isn't available, that happens quite a 
bit.
    One concern of ours, and I believe of the rest of the group 
here, is that contract care not somehow supplant VA. That is 
something that goes back as long as I have been around, which 
is quite a while, that VA is a national treasure, that it be 
protected, that the resources that it offers veterans continue 
to be provided. In order to do that, the system has to stand as 
a piece, as a whole.
    But there are certainly instances where it is appropriate, 
and we recommend that.
    Mr. Rowan. Senator, I would concur with that. I mean one of 
the things that is very clear, all the VA hospitals are 
associated with major medical facilities, and that is where 
they get most of their staffing from, frankly.
    So if there is a situation, even where there is not a 
distance issue, if there is just, if you got the better brain 
surgeon in the hospital next door, send that person to that 
doctor. I mean that happens on occasion. You see that, and we 
fully support that kind of program.
    We really think it is an issue with the mental health 
facilities where there is just not enough folks in the VA 
system to go around. I go back to the days in the Vietnam era 
when we had fee-basis provider stuff, particularly where some 
veterans really needed one-on-one counseling and not group 
therapy, which is the basis of the Vet Center program. And so, 
we fully concur with that idea.
    But, again, with my colleague, we have a VA system for a 
reason, and we want to continue to support that VA system. We 
have watched it change and become more accessible. We fully 
concur with that idea.
    Mr. Bowers. One of the recommendations that we made was 
that the Secretary of the VA design and implement national 
guidelines to instruct VA facilities when it is appropriate to 
contract with local community health care providers. The reason 
being: that in working with a lot of our membership, we found 
that rural veterans--which the Iraq and Afghanistan conflicts 
have relied heavily on--fell into these gaps, fell into these 
problems.
    We have not been able to identify sort of a nationwide 
ruling that really gives clarity to this process. By 
establishing that process, whether it be through a report or 
study, really could answer a lot of these questions right off 
the bat.
    Senator Johanns. That is all I have, Mr. Chairman, other 
than to say I really appreciate your approach to this because I 
agree with you.
    The VA is a treasure. We want to protect that, enhance it 
and do everything we can to improve it. But there are 
circumstances where that facility is there, and it provides the 
kind of service you need, and we should look at that. So I 
appreciate your thoughts on it.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Johanns.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to start by saying I appreciate what each one of 
your folks' organizations do in helping fill in the gaps and 
addressing families and issues. I do not take that lightly. I 
really appreciate each and every one of you folks and what your 
organizations do for veterans in this country.
    The Chairman and Ranking Member both talked about advance 
funding with their first questions, and I think almost every 
one of you guys put it in the top three when you were talking.
    Just a clarification, Dennis, I am going to pick on you for 
a second. When you were all talking about advance funding, I 
interpreted that as mandatory funding. Can you tell me the 
difference?
    Mr. Cullinan. Carl could actually do a better job. Let me 
take a stab at it.
    Senator Tester. Well, he can as well.
    Mr. Cullinan. Mandatory funding is basically funding VA in 
accordance with a formula. You establish a base line, say the 
current fiscal year. You adjust it by, say, 20 to 30 percent, 
and every year you adjust it on a percentile basis, basically.
    Advance funding is a situation where you say, OK, once it 
is set in motion, the funding, not for the immediately upcoming 
fiscal year but the one after that, gets adjudicated by the 
Congress. It is decided upon and, OK, it is ready to go.
    Senator Tester. OK.
    Mr. Cullinan. So that is the difference in a very simple 
way.
    Senator Tester. That is all I needed. Thank you.
    I want to jump to a different area that probably was not 
addressed in any of your testimony, but its something that I 
have been hearing more and more about, mainly because of PTSD 
and TBI and other mental health conditions leading to lasting 
physical and psychological problems. We have veterans that 
suffer these injuries and go undiagnosed and, unfortunately, 
untreated. We end up with disruptive acts, depression, 
substance abuse. The list goes on and on and on.
    Several States have recognized this by setting up 
specialized courts and sentencing procedures to assist veterans 
of nonviolent crimes. Is there a need for veterans' courts 
nationally?
    Go ahead.
    Mr. Rowan. Yes, to be simple about it.
    Actually, in Buffalo, New York, one of my national board of 
directors members is the County Commissioner for Veterans 
Affairs up there, and he was very heavily involved in 
establishing the veterans' court in Buffalo. It has proved to 
be very useful in the short period of time that they have 
utilized it.
    And what they have been able to do is nip in the bud the 
problems of exactly what you talked about, that those of us 
that go back to the Vietnam era remember, which is the usual 
deterioration that starts off usually with drug abuse or simple 
assault nonsense, which then, of course, escalates into 
something much more horrible, which puts people in 
incarceration for the next 40 years.
    So, we fully support the idea of this. We have asked. We 
have watched a number of people. I have just talked to some, 
and Wisconsin apparently is going to try to do it Statewide. We 
have heard other States that are looking at it, and it has been 
particularly helpful when you find that the chief judge or the 
DA is a Vietnam vet.
    Senator Tester. That is good.
    Do all the rest of you support that idea of a veterans' 
court? And, if any of you have any negatives toward it, could 
you tell me?
    Mr. Stoline. Well, The American Legion is a resolution-
based organization, and I do not believe we have one on that 
particular issue. But on the standpoint of diverting a veteran 
from the criminal justice system and take care of his problem, 
we would be supportive of that issue.
    Senator Tester. What role do you think the veterans 
organizations would play in a veterans' court?
    Mr. Rowan. I can actually talk about that. In Buffalo, 
again, my local VVA chapter there, we actually utilized their 
members as mentors for the folks who come into the court 
system, so that they not only have to go through the mandatory 
counseling and other programs, but they get assigned somebody 
to be able to sit and take them through the rest of the whole 
nonsense that everybody has to deal with coming back.
    Senator Tester. OK. What role would the Veterans 
Administration itself play in veterans' courts, if any?
    Mr. Rowan. Well, again, we are really going to the VA as 
the primary care provider for both physical issues and mental 
health issues.
    Senator Tester. All right. I just want to tell you that 
there is a wealth of information you folks have put in your 
testimony, both written and verbal, and I think there is some 
good stuff that we can take away from this hearing.
    Thank you very much for being here.
    Chairman Akaka. Thank you very much, Senator Tester.
    Senator Begich.
    Senator Begich. Probably 1 or 2 minutes, I will be very 
quick.
    I actually would be interested, and I am going to say it to 
you but actually to Senator Tester. We have wellness courts in 
Alaska--mental health courts that have been very, very 
successful in dealing from the veterans' end up. We try to 
guide them over there--especially returning veterans--when 
there is an early situation. So the idea has worked very 
successfully.
    It is more expensive, but the end result is it is holistic. 
And it is not just about the veterans; it is about their family 
and other situations that occur. So, I think it is a very good 
idea.
    I want to ask a general question, well, two questions. 
First, do you all--and this is as a new Member to the Senate, 
as a new Member here on this Committee--do you have a regular 
process that you, as organizations working with members, work 
with the VA; not as individual organizations, but where you sit 
down as a working group and try to streamline or talk about 
their systematic problems?
    Because that is a lot of what I hear about the VA. I think 
there is a great service they provide, but they have major 
systematic problems, that delivery of service is pretty 
limited.
    Do you have a formal process or is it just whoever can get 
to them that week gets to them?
    Mr. Atizado. Senator, I do not believe there is an actual 
formal process. If I am hearing you correctly, something like a 
working group?
    Senator Begich. Yes.
    Mr. Atizado. To deal with the hot topic of the week or the 
month or whatever.
    Senator Begich. Because as we come and go, it is the 
systematic issues that we want to make sure happens--the long-
term care.
    Mr. Chairman, I always forget how the bells work. So you 
have to guide me. I am sure staff will grab me any second here.
    Would that be of interest if there was a formal process 
that you as organizations collectively work?
    Mr. Cullinan. Senator, I would just add that on the part of 
the VFW, we have our National Veterans Service, and they 
interact with VA on a regular basis. They attend meetings. They 
participate in these meetings. So, there is a regular 
interaction.
    Additionally, we have our Independent Budget for VA which 
represents a group of veterans organizations getting together, 
working together in a systematic way to address not only 
funding issues but policy issues as well. So all the 
organizations interact with VA, participate in these meetings, 
and additionally we have our Independent Budget. We have the 
partnership we refer to in support of funding.
    Mr. Rowan. Senator, I was just checking with my staff. My 
understanding is that the Secretary of the VA meets on almost a 
monthly basis with a lot of the leaders of all major 
organizations--on a regular basis--to either bring up new 
issues or talk about problems. Like with the GI Bill: when they 
were moving forward with that and wanted to propose to contract 
it out, we nipped that in the bud. So, I mean those.
    We do have a continual interaction with them, I believe. It 
is not as formal perhaps as you may be discussing.
    Senator Begich. Right. OK. Mr. Chairman, because of time I 
will stop at that point.
    Again, your testimony has a lot of good detail into it. I 
will probably have some questions. Through my staff, I will get 
back to you based on some conversations that have occurred 
here.
    Chairman Akaka. Thank you very much, Senator Begich.
    I want to thank the panel very much for your testimony. You 
have given us a better understanding of your organization's 
legislative priorities, and this is what the hearing was for 
today.
    I have additional questions, and I am sure that other 
Members of the Committee also have questions. I will submit, 
and they will submit their questions for the record. Perhaps we 
will do that as quickly as we can.
    We do have that 11 a.m. vote, as I said, which you have 
heard on the clocks.
    So, again, I want to thank you very much for your 
testimony, and we look forward to working with you this year. 
As you can tell, we have much to do and we have to take the 
time to do it as quickly as we can. Again, thank you very much.
    This hearing is adjourned.
    [Whereupon, at 11:03 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


    Prepared Statement of LTG Theodore G. Stroup, Jr., USA (Ret.), 
         Vice President, Association of the United States Army
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present the views of the Association of the United 
States Army (AUSA) concerning veterans' issues. Both in personal 
testimony and through submissions for the record there exists a long-
standing relationship between AUSA and the Senate Committee on 
Veterans' Affairs. We are honored to express our views on behalf of our 
members and America's veterans.
    The Association of the United States Army is a diverse organization 
of over 105,000 members--active duty, Army Reserve, Army National 
Guard, Department of the Army civilians, retirees and family members. 
An overwhelming number of our members are entitled to veterans' 
benefits of some type. Additionally, AUSA is unique in that it can 
claim to be the only organization whose membership reflects every facet 
of the Army family. Each October, at our Annual Meeting, our membership 
has the opportunity to express its views through the consideration and 
approval of resolutions for the following year. These resolutions 
provide the base upon which the Association's leadership builds its 
legislative agenda.
    Each year, the AUSA statement before the Committee stresses that 
America's veterans are not ungrateful. Much of the good done for 
veterans in the past would have been impossible without the commitment 
of many who serve on the Committee and the tireless efforts of its 
professional and personal staffs.
    The inherently difficult nature of military service has never been 
more self-evident than during the current conflict. While grateful for 
the good things done for veterans, AUSA reminds our elected 
representatives that we consider veterans benefits to have been duly 
earned by those who have answered the Nation's call and placed 
themselves at risk.
    AUSA is heartened that Congress has expressed a commitment to 
support America's veterans. Despite this, many are concerned that the 
declining number of veterans in Congress might in some way lessen the 
value this institution places on veterans and their service to the 
Nation. We, at AUSA, do not share this opinion. AUSA is confident that 
you--well-intentioned, patriotic men and women--will faithfully 
represent the interests of America's veterans during fiscal 
deliberations.
    As elected representatives, you must be responsible stewards of the 
Federal purse because each dollar emanates from the American taxpayer. 
AUSA emphasizes that the Federal Government must remain true to the 
promises made to her veterans. We understand that veterans' programs 
are not above review, but always remember that the Nation must be there 
for the country's veterans who answered the Nation's call.
    Veterans seldom vote in a block, despite their numbers. This is one 
reason AUSA seeks this forum to speak for its members about veterans' 
issues. Our veterans have lived up to their part of the bargain; the 
Congress must live up to the government's part.
    Those who have volunteered to serve their country in uniform 
deserve educational benefits that support their transition to civilian 
life. AUSA applauds Congress for enacting the Post-9/11 Veterans 
Educational Assistance Act of 2008. This landmark legislation will help 
educate a new generation of veterans by allowing them to enroll as a 
full-time students and to focus solely on education--as it funds 
tuition at an amount equal to the highest in-state tuition rate charged 
by a public college in a state, as well as providing stipends for 
housing and for books and other educational costs.
    In conjunction with the New GI Bill, AUSA urges the Congress to 
increase Survivors and Dependents Educational Assistance (DEA) a 
minimum of 20% to match the increases in Montgomery GI Bill benefits 
Congress passed in 2008 as well as ensuring that the benefits in the 
DEA program be adjusted proportionally whenever Congress raises MGIB 
and New GI Bill benefits.
    Also, AUSA believes that the monthly stipend issued under the 
Vocational Rehabilitation and Employment (VR&E) program should be 
increased to reflect the basic allowance for housing (BAH) payments 
under the New GI Bill. VRE helps equip disabled veterans to transition 
back into the work force.
    AUSA strongly encourages Congress to raise education benefits for 
National Guard and Reserve servicemembers under Chapter 1606 of Title 
10. For years, these benefits have only been adjusted for inflation. 
Currently, Reserve GI Bill benefits have fallen to less than 25 percent 
of the active duty benchmark giving them much less value as a 
recruiting and retention incentive. This also sends a signal to Reserve 
Component personnel that their service is undervalued. Further, a 
transfer of the Reserve MGIB-Select Reserve authority from Title 10 to 
Title 38 will permit proportional benefit adjustments in the future.
    AUSA also believes it is time to revisit the need to dock volunteer 
force recruits $1200 of their first year's pay for the privilege of 
serving their country on active duty. Government college loan programs 
have no upfront payments; thus, it is difficult to accept any rationale 
for our Nation's defenders to give up a substantial portion of their 
first year's pay for MGIB eligibility.
    That said, perhaps a better solution would be to consolidate and 
deconflict the MGIB and New GI Bill into one educational benefits 
program for active and reserve components. The coexistence of the MGIB 
alongside the New GI Bill is causing considerable confusion. Benefits 
available in the MGIB such as pilot training, licensure/certification 
tests and distance (online) course work are not available in the New GI 
Bill, while a tuition reimbursement indexing mechanism, housing 
benefits, and a book stipend are available in the New GI Bill but not 
the MGIB.
    Members of the National Guard called to active duty under Title 32 
in support of the current crisis do not receive veteran's status for 
their active duty military time. Those called to active duty under 
Title 10 do receive veteran's status. This inequity must be addressed. 
Your support in allowing Guard members to earn veterans' status on 
equal footing with their active duty and Reserve counterparts will send 
the message that National Guard personnel are part of the Total Force.
    Veterans' medical facilities must remain expert in the specialties 
which most benefit our veterans. These specialties relate directly to 
the ravages of war and are without peer in the civilian community. 
Demand for VA health care still outpaces the capacity to deliver care 
in a timely manner. That said, a way must be found to build on the 
inclusion of more Category 7 and 8 veterans this year, so that 
ultimately all Category 7 and 8 veterans can receive care from the VA. 
AUSA believes that full funding should occur through modifications to 
the current budget and appropriations process that would authorize a 
two-year advance appropriation for the VA health care system, by using 
a mandatory funding mechanism or by some other changes in the process 
that achieve the desired goal.
    AUSA applauds the unprecedented and historic legislation which 
authorized the unconditional concurrent receipt of retired pay and 
veterans' disability compensation for retirees with disabilities of at 
least 50 percent and the legislation that removed disabled retirees who 
are rated as 100 percent from the 10-year phase-in 
period. However, we cannot forget about the thousands of disabled 
retirees left out by this legislative compromise. The principle behind 
eliminating the disability offset for those with disabilities over 50 
percent is just as valid for those 49 percent and below. AUSA urges 
that the thousands of disabled veterans left out of previous 
legislation be given equal treatment and that the disability offset be 
eliminated completely.
    Another critical area needs to be addressed. For chapter 61 
(disability) retirees who have more than 20 years of service, the 
government recognizes that part of that retired pay is earned by 
service, and part of it is extra compensation for the service-incurred 
disability. The added amount for disability is still subject to offset 
by any VA disability compensation, but the service-earned portion (at 
2.5 percent of pay times years of service) is protected against such 
offset.
    AUSA believes that a member who is forced to retire short of 20 
years of service because of a combat disability must be ``vested'' in 
the service-earned share of retired pay at the same 2.5 percent per 
year of service rate as members with 20+ years of service. This would 
avoid the ``all or nothing'' inequity of the current 20-year threshold, 
while recognizing that retired pay for those with few years of service 
is almost all for disability rather than for service and therefore 
still subject to the VA offset.
    Fortunately, legislation provided in previous defense bills extends 
Combat Related Special Compensation (CRSC) to retirees with less than 
20 years of service with combat or operations-related disabilities. 
Unfortunately, retirees with non-combat disabilities forced to retire 
short of 20 years of service still have to fund their VA compensation 
dollar-for-dollar from their disability retirement from DOD.
    AUSA supports legislation that establishes a presumption of service 
connection for veterans with Hepatitis C (HCV).
    The rules for interment in Arlington National Cemetery (ANC) have 
never been codified in public law. Twice the House has passed 
legislation to codify rules for burial in Arlington National Cemetery. 
However, the legislation has not passed in the Senate. AUSA supports a 
negotiated settlement of differences between the House and Senate 
concerning codification of rules for burial in Arlington National 
Cemetery. Further ``gray area'' reservists eligible for military 
retirement should be included among those eligible for interment at 
Arlington National Cemetery.
    AUSA remains opposed to the imposition of an annual deductible on 
veterans already enrolled in VA health care and any increase in the co-
payment charged to many veterans for prescription drugs. AUSA urges 
Congress to continue to oppose such fees.
    AUSA supports continuing congressional efforts to help homeless 
veterans find housing and other necessities, which would allow them to 
re-enter the workforce and become productive citizens.
    Terminally ill veterans who hold National Service Life Insurance 
and U.S. Government Life Insurance should, upon application, be able to 
receive benefits before death, as can holders of Servicemembers Group 
Life Insurance and Veterans Group Life Insurance. AUSA supports 
legislation to amend the U.S. Code appropriately.
    Much more needs to be done to ensure that returning combat 
veterans, as well as all other service men and women who complete their 
term of service or retire from service receive timely access to VA 
benefits and services. This issue encompasses developing and deploying 
an interoperable, bidirectional and standards-based electronic medical 
record; a ``one-stop'' separation physical supported by an electronic 
separation document (DD-214); benefits determination before discharge; 
sharing of information on occupational exposures from military 
operations and related initiatives. AUSA strongly recommends 
accelerated efforts to realize the goal of ``seamless transition'' 
plans and programs.
    We encourage the positive steps toward mutual cooperation taken 
recently by the Department of Defense (DOD) and the VA. The closer we 
can come to a seamless flow of a servicemember's personnel and health 
files from service entry to burial, the more likely it will be that 
former servicemembers receive all the benefits to which they are 
entitled. AUSA supports closer DOD/VA collaboration and planning 
including billing, accounting, IT systems, patient records, but not 
total integration of facilities nor of VA/DOD healthcare systems.
    AUSA strongly supports preservation of dual eligibility of 
uniformed service retirees for VA and DOD healthcare systems. We 
applaud Congress' opposition to ``forced choice'' in the past and 
encourage you to hold the line in the future.
    AUSA recognizes that significant progress has been made in reducing 
the unacceptably high numbers of backlogged disability claims. The key 
to sustained improvement in claims processing rests on adequate funding 
to attract and retain a quality workforce supported by investment in 
information management and 
technology.
    The Committee safeguards the treatment of America's veterans on 
behalf of the Nation. AUSA knows that you take this responsibility 
seriously and treat this privilege with the gratitude and respect it 
deserves. Although your tenure is temporary, the impact of your actions 
lasts as long as this country survives and affects directly the lives 
of a precious American resource--her veterans. As you make your 
decisions, please do not forget the commitment made to America's 
veterans when they accepted the challenges and answered the Nation's 
call to serve.

    Thank you for the opportunity to submit testimony on behalf of the 
members of the Association of the United States Army, their families, 
and today's soldiers who are tomorrow's veterans.
      

                                  <all>

</pre></body></html>
